<html>
<title> - GULF WAR ILLNESS RESEARCH: IS ENOUGH BEING DONE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       GULF WAR ILLNESS RESEARCH: 
                         IS ENOUGH BEING DONE? 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON OVERSIGHT AND
                             INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

                           Serial No. 111-21

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-919 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



















                     COMMITTEE ON VETERANS' AFFAIRS

 BOB FILNER, California, Chairman

STEVE BUYER, Indiana, Ranking        CORRINE BROWN, Florida
CLIFF STEARNS, Florida               VIC SNYDER, Arkansas
JERRY MORAN, Kansas                  MICHAEL H. MICHAUD, Maine
HENRY E. BROWN, Jr., South Carolina  STEPHANIE HERSETH SANDLIN, South 
JEFF MILLER, Florida                 Dakota
JOHN BOOZMAN, Arkansas               HARRY E. MITCHELL, Arizona
BRIAN P. BILBRAY, California         JOHN J. HALL, New York
DOUG LAMBORN, Colorado               DEBORAH L. HALVORSON, Illinois
GUS M. BILIRAKIS, Florida            THOMAS S.P. PERRIELLO, Virginia
VERN BUCHANAN, Florida               HARRY TEAGUE, New Mexico
DAVID P. ROE, Tennessee              CIRO D. RODRIGUEZ, Texas
                                     JOE DONNELLY, Indiana
                                     JERRY McNERNEY, California
                                     ZACHARY T. SPACE, Ohio
                                     TIMOTHY J. WALZ, Minnesota
                                     JOHN H. ADLER, New Jersey
                                     ANN KIRKPATRICK, Arizona
                                     GLENN C. NYE, Virginia

 Malcom A. Shorter, Staff Director
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

   HARRY E. MITCHELL, Arizona, 
             Chairman

DAVID P. ROE, Tennessee, Ranking     ZACHARY T. SPACE, Ohio
CLIFF STEARNS, Florida               TIMOTHY J. WALZ, Minnesota
BRIAN P. BILBRAY, California         JOHN H. ADLER, New Jersey
                                     JOHN J. HALL, New York

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.















                            C O N T E N T S

                              ----------                              

                              May 19, 2009

                                                                   Page
Gulf War Illness Research: Is Enough Being Done?.................     1

                           OPENING STATEMENTS

Chairman Harry E. Mitchell.......................................     1
    Prepared statement of Chairman Mitchell......................    43
Hon. David P. Roe, Ranking Republican Member.....................     2
    Prepared statement of Congressman Roe........................    43
Hon. Timothy J. Walz, prepared statement of......................    44
Hon. John J. Hall................................................     4
Hon. Dennis J. Kucinich..........................................     4

                               WITNESSES

Central Intelligence Agency, Robert D. Walpole, Former Special 
  Assistant for Persian Gulf War Illnesses Issues, Office of the 
  Assistant Director of Central Intelligence.....................    26
    Prepared statement of Mr. Walpole............................    58
U.S. Department of Defense, R. Craig Postlewaite, DVM, MPH, 
  Deputy Director, Force Readiness and Health Assurance, Force 
  Health Protection and Readiness Programs, Office of the 
  Assistant Secretary of Defense (Health Affairs)................    28
    Prepared statement of Dr. Postlewaite........................    63
U.S. Department of Veterans Affairs, Lawrence Deyton, MSPH, M.D., 
  Chief Public Health and Environmental Hazards Officer, Veterans 
  Health Administration..........................................    30
    Prepared statement of Dr. Deyton.............................    68

                                 ______

National Gulf War Resource Center, Topeka, KS, James A. Bunker, Pr
  esident........................................................     6
    Prepared statement of Mr. Bunker.............................    44
Steele, Lea, Ph.D., Adjunct Associate Professor, Kansas State 
  University School of Human Ecology, Manhattan, KS, and Former 
  Scientific Director, Research Advisory Committee on Gulf War 
  Veterans' Illnesses............................................    13
    Prepared statement of Dr. Steele.............................    56
Veterans for Common Sense, Paul Sullivan, Executive Director.....     9
    Prepared statement of Mr. Sullivan...........................    49
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    11
    Prepared statement of Mr. Weidman............................    53

                       SUBMISSIONS FOR THE RECORD

Disabled American Veterans, Adrian Atizado, Assistant National 
  Legislative Director, statement................................    72
Research Advisory Committee on Gulf War Illnesses, Roberta F. 
  White, Ph.D., Scientific Director, Professor and Chair, 
  Department of Environmental Health, and Associate Dean for 
  Research, Boston University School of Public Health, Boston, 
  MA, statement..................................................    73

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Paul 
      Sullivan, Executive Director, Veterans for Common Sense, 
      letter dated May 27, 2009, and Mr. Sullivan's responses....    77
    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Richard 
      F. Weidman, Executive Director for Policy and Government 
      Affairs, Vietnam Veterans of America, letter dated May 27, 
      2009, and response letter, dated August 7, 2009............    79
    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Lea 
      Steele, Ph.D., Valley Falls, KS, letter dated May 27, 2009, 
      and response memorandum, dated July 3, 2009................    81
    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Robert 
      D. Walpole, Principal Deputy Director, National Counter 
      Proliferation Center, Office of the Director of National 
      Intelligence, Central Intelligence Agency, letter dated May 
      27, 2009, and Mr. Walpole's response.......................    85
    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Hon. 
      Eric K. Shinseki, Secretary, U.S. Department of Veterans 
      Affairs, letter dated May 27, 2009, and VA responses.......    86
    Hon. Harry E. Mitchell, Chairman, and Hon. David P. Roe, 
      Ranking Republican Member, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Roberta 
      F. White, Ph.D., ABPP, Professor and Chair, Department of 
      Environmental Health, Associate Dean of Research, Boston 
      University School of Public Health, letter dated May 27, 
      2009, and response letter from Dr. White and Kimberly A. 
      Sullivan, Ph.D., Research Assistant Professor, Department 
      of Environmental Health, Boston University School of Public 
      Health, dated July 1, 2009.................................    89


                       GULF WAR ILLNESS RESEARCH:
                         IS ENOUGH BEING DONE?

                              ----------                              


                         TUESDAY, MAY 19, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in
Room 334, Cannon House Office Building, Hon. Harry E. Mitchell
[Chairman of the Subcommittee] presiding.

    Present: Representatives Mitchell, Walz, Adler, Hall and 
Roe.

             OPENING STATEMENT OF CHAIRMAN MITCHELL

    Mr. Mitchell. Good morning and welcome to the Oversight and 
Investigations Subcommittee of the Veterans' Affairs Committee. 
This is a hearing on Gulf War Illness Research: Is Enough Being 
Done? This is May 19th and this meeting will come to order.
    Unfortunately, Dr. Roberta White could not be in attendance 
today. I ask unanimous consent that her statement be submitted 
for the record. Hearing no objections, so ordered.
    [The prepared statement of Dr. White appears on p. 73.]
    Mr. Mitchell. Thank you, everyone, for attending today's 
Oversight and Investigations Subcommittee hearing entitled Gulf 
War Illness Research: Is Enough Being Done?
    We meet today to shed light on a topic that is critically 
important to the House Committee on Veterans' Affairs, the 
health and care of our Gulf War veterans. This hearing is not 
the first to address Gulf War illness and it certainly will not 
be the last.
    Today's is a first in a series of Oversight and 
Investigations Subcommittee hearings examining the impact of 
toxin exposures during the 1990-1991 Persian Gulf War and the 
subsequent research and response by government agencies, 
including the U.S. Departments of Defense (DoD) and Veterans 
Affairs (VA).
    It has been almost 19 years since the United States 
deployed some 700,000 servicemembers to the Gulf in support of 
Operation Desert Shield and Desert Storm. When these troops 
returned home, some reported symptoms that were believed to be 
related to their service.
    Still today these same veterans are looking for answers 
about problematical treatment and the benefits that they 
bravely earned.
    While we hear about numerous studies and millions of 
dollars spent on the Gulf War illness research, many questions 
remain unanswered. In the end, we still do not know how to 
respond to Gulf War veterans who ask am I sick or will I get 
sick.
    Today we will attempt to establish an understanding of the 
research that has been conducted and the actions that have been 
taken in relation to the Gulf War illness. To better assess 
Gulf War illness and its impact on veterans, we will look at 
another at-risk population, veterans who were exposed to the 
harmful toxins, Agent Orange, in Vietnam.
    In the past, we have seen service-related illnesses 
ignored, misunderstood, or swept under the rug. We must learn 
from these mistakes and ensure that our research and 
conclusions are accurate so that Gulf War veterans are assured 
of the right diagnosis and the care and benefits they richly 
deserve.
    Subsequent hearings on this issue will take a multi-level 
view of the methodology and conclusions of Gulf War illness 
research and how the review of information was compiled and why 
certain methods were employed.
    With a growing chorus of concern over the accuracy of 
existing research and with the new Administration leading the 
VA, it is time for us to make a fresh and comprehensive 
assessment of this issue and the body of research surrounding 
it.
    We will hear testimony today from a Gulf War veteran, 
veterans service organizations (VSOs), a distinguished 
researcher from the Research Advisory Committee (RAC) on Gulf 
War Illness, as well as government officials.
    I would like to thank all of our witnesses for appearing 
here today.
    I would also like to extend my thanks to Jim Binns, who 
chaired the Research Advisory Committee on the Gulf War 
Veterans' Illnesses for his contributions to this hearing and 
to this issue.
    I trust this hearing will provide useful insight to begin 
our evaluation of the existing research on toxic exposure and 
the work being done to care for Gulf War veterans and protect 
future generations of war fighters.
    [The prepared statement of Chairman Mitchell appears on p. 
43.]
    Mr. Mitchell. Before I recognize the Ranking Republican 
Member for his remarks, I would like to swear in our witnesses. 
I ask all of our witnesses from both panels to please stand and 
raise their right hand.
    [Witnesses sworn.]
    Mr. Mitchell. Thank you.
    I ask unanimous consent that Mr. Kucinich be invited to sit 
at the dais for the Subcommittee hearing today. He has joined 
us and if there are no objections, so ordered.
    Thank you, Mr. Kucinich.
    I would like to now recognize Dr. Roe for his opening 
remarks.

             OPENING STATEMENT OF HON. DAVID P. ROE

    Mr. Roe. Thank you, Mr. Chairman, for yielding.
    My understanding is that this will be the first in a series 
of hearings on Gulf War illness to be held by our Subcommittee. 
It is my hope that we will not ignore other pressing oversight 
issues previously agreed upon in our oversight plan in order to 
flush out issues already discussed previously by other 
Committees and Subcommittees over the past 12 to 13 years.
    This first hearing will focus on the historical context of 
the war in the Persian Gulf, Operation Desert Shield, Operation 
Desert Storm, which occurred from August 1990 through July 
1991. This will be a review of the conflict and overview of the 
types of exposures and assistance made available to veterans 
from that conflict.
    The Ranking Member of the full Committee, Congressman Steve 
Buyer of Indiana, is a veteran of the Gulf War and has 
invaluable historical and personal knowledge of the conflict 
and what Congress has done since the early 1990s to assist 
veterans of the Persian Gulf. I am sure he will be watching 
these proceedings with great interest.
    Much of the historical background of the Gulf War veterans 
can be found in the wealth of materials available through 
printed hearings held by the Committee as well as a body of 
legislative work that has been done by Congress through the 
past two decades.
    Over the past 20 years, Congress has held numerous hearings 
and passed several public laws extending back as far as the 
103d Congress to address the needs of these particular 
veterans.
    These efforts include mandating a study by VA through the 
nonpartisan National Academy of Sciences and their Institute of 
Medicine on the effects of various chemical compounds, 
pesticides, solvents, and other substances on humans and in 
particular how these compounds may have affected veterans who 
participated in the Persian Gulf conflict.
    Ranking Member Steve Buyer led the efforts in the 105th 
Congress by offering an amendment which ultimately was included 
in Public Law 105-85, ``The National Defense Authorization 
Act'' for fiscal year 1998.
    Mr. Buyer's amendment authorized $4.5 million to establish 
a cooperative DoD/VA program of clinical trials to evaluate 
treatments which might relieve the symptoms of Gulf War 
illnesses and required the Secretaries of both the Department 
of Defense and the Veterans Affairs to develop a comprehensive 
plan for providing health care to all veterans, active-duty 
members, and Reservists who suffer from symptoms of Gulf War 
illnesses.
    I have been informed that the authority to conduct these 
studies mandated into law to be completed by the National 
Academy of Sciences, Institutes of Medicine (IOM) will expire 
this year. I believe this Committee should look at these 
hearings with an emphasis on whether the studies should be 
continued and, if so, what the parameters of any new studies on 
Gulf War illness should be.
    I look forward to hearing our panel of witnesses today and 
anticipate the next hearing in this series.
    And, Mr. Chairman, I bring a unique perspective being a 
physician, being a battalion surgeon, and also really looking 
at this completely objectively. I have not had any testimony 
one way or the other. So I can listen to these participants 
today completely objectively.
    I yield back the balance of my time.
    [The prepared statement of Congressman Roe appears on p. 
43.]
    Mr. Mitchell. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman. In the interest of time, 
I will just submit my opening statement for the record and I 
yield back.
    [The prepared statement of Congressman Walz appears on p. 
44.]
    Mr. Mitchell. Thank you.
    Mr. Hall.

             OPENING STATEMENT OF HON. JOHN J. HALL

    Mr. Hall. Thank you, Mr. Chairman, Ranking Member Roe.
    I also look forward to the testimony of our witnesses, but 
note with interest that after the Vietnam War passed, it 
reached a point where the VA decided that there was a need to 
provide a presumed stressor to connect Agent Orange-caused 
illnesses automatically to the exposure caused by being in 
theater.
    Currently, I am sponsoring, and our Subcommittee is looking 
at, legislation to establish the same thing currently for 
Operation Iraqi Freedom/Operation Enduring Freedom (OIF/OEF) 
connections to post-traumatic stress disorder (PTSD) and other 
traumas that come from that particular type of conflict. And it 
may be that the same thing will be shown from the testimony 
here.
    So I am looking forward to finding out exactly what kind of 
sacrifice and exposure our servicemen and women were exposed to 
and look forward to our doing right by them.
    And thanks again for holding this hearing.
    Mr. Mitchell. Thank you.
    Mr. Kucinich.

          OPENING STATEMENT OF HON. DENNIS J. KUCINICH

    Mr. Kucinich. Thank you very much, Mr. Chairman. I want to 
thank you and Ranking Member Roe for affording me the 
opportunity to give a statement today and, more importantly, 
for doing a thorough examination into this topic.
    At least one out of every four of the 700,000 soldiers sent 
to fight in the first Gulf War suffers from Gulf War veterans' 
illnesses.
    One out of every four bears the permanent burden of at 
least one of the following: Persistent memory and concentration 
problems, chronic headaches, widespread pain, gastrointestinal 
problems, and other chronic abnormalities that are difficult to 
define, let alone treat.
    One out of every four is faced with trying to work, sleep, 
love, learn, and grow despite not being able to think clearly, 
not being able to get rid of the pounding in their heads and 
despite being in a nearly constant state of general pain.
    As these veterans begin to age, we are starting to see that 
they suffer elevated rates of amyotrophic lateral sclerosis 
(ALS), Lou Gehrig's disease. It is a disease that rewards their 
dedication to country with a long, slow, painful physical 
demise in which they watch their own arms and legs become 
decreasingly functional and their dependence on a caregiver 
grows. The toll is far more than physical.
    I am sad to say that this is not entirely surprising. As 
has been the case again and again, our heroes are celebrated in 
time of war. They are elevated for their willingness to risk 
their lives for hundreds of millions of people, the vast 
majority of whom they have never met, never seen. But several 
years down the road, if we are not still at war, they tend to 
be forgotten.
    Such was the case with the Gulf War veterans. They endured 
years of denial that they even had a health problem. They then 
endured years of insistence from the very agencies that thrust 
them into war that their problem was psychological.
    Then when it was finally admitted that Gulf War veterans' 
illnesses were real and more than a result of mental trauma, 
they continued to be denied care. By that time, they had been 
forgotten.
    The tens of millions of dollars in research funds that were 
focused almost entirely on the wrong cause, mental trauma, 
began to dry up. Only the assiduous efforts on the part of my 
former colleagues in the House, Congressmen Shays and Sanders, 
kept a trickle of money flowing through the Department of 
Defense's Congressionally Directed Medical Research Program.
    When my time came to pick up the mantle in 2005 and 
increase these funding levels, I was more than happy to do so. 
Though the amount we have won through our bipartisan efforts is 
nowhere near where we need to be, the money was well spent, 
attracting national research talent and dozens of exciting 
proposals.
    With each passing year, I am more optimistic that treatment 
options will be identified for our Gulf War veterans.
    This research will have the added benefit of informing 
efforts to treat and cure civilians who suffer from similar 
diseases.
    Because we have the epidemiological luxury of knowing some 
of the main unique exposures these soldiers endured, we have 
already been able to identify two definite causes of Gulf War 
veterans' illnesses: exposure to pesticides and a drug given to 
troops to protect them from nerve gas.
    Other possible causes include low-level exposure to nerve 
agents, close proximity to oil well fires, receipt of multiple 
vaccines, and combinations of these exposures.
    These findings should lead to the reduction of the 
exposures, many of which are found in our everyday lives, in 
the general population, preventing similar diseases from ever 
happening. And this valuable information will help uncover the 
underlying biological mechanisms which could lead directly to 
new drug therapy for all who suffer from the same afflictions.
    Clearly we need to get the research right. And the need to 
get it right is urgent and far overdue, which is why this 
series of hearings is so critical, Mr. Chairman. I want to 
commend you for your leadership.
    I would also like to offer my gratitude to the scientists, 
advocates, and public servants giving testimony here today for 
their tireless work. I am looking forward to working with all 
of you to right this wrong.
    Thank you, Mr. Chairman. Yield back.
    Mr. Mitchell. Thank you.
    I ask unanimous consent that all Members have 5 legislative 
days to submit a statement for the record. Hearing no 
objections, so ordered.
    At this time, I would like to welcome panel one to the 
witness table. Joining us on our first panel is Jim Bunker, a 
Gulf War veteran and President of the National Gulf War 
Resource Center; Paul Sullivan, Executive Director of Veterans 
for Common Sense (VCS); Rick Weidman, Executive Director for 
Policy and Government Affairs for the Vietnam Veterans of 
America (VVA); as well as Dr. Lea Steele, Immediate Past 
Scientific Director for the Research Advisory Committee and 
Adjunct Associate Professor at Kansas State University School 
of Human Ecology.
    And I would ask that all witnesses please stay within 5 
minutes of their opening remarks. Your complete statements will 
be made part of the hearing record.
    At this time, I would like to recognize first Mr. Bunker, 
then Mr. Sullivan, Mr. Weidman, and then Dr. Steele.
    Mr. Bunker.

  STATEMENTS OF JAMES A. BUNKER, PRESIDENT, NATIONAL GULF WAR 
RESOURCE CENTER, TOPEKA, KS (GULF WAR VETERAN); PAUL SULLIVAN, 
   EXECUTIVE DIRECTOR, VETERANS FOR COMMON SENSE; RICHARD F. 
WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND GOVERNMENT AFFAIRS, 
  VIETNAM VETERANS OF AMERICA; AND LEA STEELE, PH.D., ADJUNCT 
 ASSOCIATE PROFESSOR, KANSAS STATE UNIVERSITY SCHOOL OF HUMAN 
    ECOLOGY, MANHATTAN, KS, AND FORMER SCIENTIFIC DIRECTOR, 
  RESEARCH ADVISORY COMMITTEE ON GULF WAR VETERANS' ILLNESSES

                  STATEMENT OF JAMES A. BUNKER

    Mr. Bunker. Mr. Chairman and Members of the Committee, on 
behalf of the National Gulf War Resource Center and myself, I 
would like to thank you for letting me be here.
    I want to first give you a brief background on myself. In 
1977, I completed high school in 3 years. In 1984, I received 
my Bachelor's Degree in Mathematics with a Minor in Psychology 
and Computer Science.
    And also I was able to get As and Bs through college 
without hardly opening a book. I was able to retain most 
information from class lectures with ease and translate it to 
exams. Computer and math were my best classes, and I started 
playing chess in the seventh grade and played in tournaments 
and continued up through and before the war.
    After teaching for a few years, I applied for and was 
accepted to Officer Candidate School, was commissioned as a 
Field Artillery Officer. I went to Fort Sill for Officer's 
Basic Course where I was one of the top graduates and brought 
on to active duty and then stationed at Fort Riley, Kansas.
    I deployed from Fort Riley, Kansas, to the Gulf War. In the 
beginning of the war, our M8 alarms sounded many times and we 
were being told that it was batteries, malfunctions, and what 
have you and that. So we finally just quit putting them up.
    At the end of the war, we blew up large amounts of 
ammunition dumps and that was when I started to get sick. I 
became so ill, I started having convulsions and was treated 
with atropine and evac'd out to the 410th Evac Hospital back in 
Saudi Arabia.
    Later on, I found out the symptoms that I was having, the 
convulsions and all the other symptoms going with it, were 
actually listed in a book for nerve agent problems, to look for 
as probable nerve agent poisonings.
    And on June 22nd, I went to the VA for help for my problems 
because I was medically discharged from the Army. I was having 
problems in the Army with my legs, nerve problems in my legs 
and that. And they could not find the problem that was causing 
it, so they sent me before a medical evaluation board.
    And while my records were before that board, I lost the use 
of my left hand due to the extreme pain that I had in it. And 
being left-handed, that left me with not much I could do. So 
the Army threw me out which ended my 15-year career. It was 
something that I always wanted to do and I would love to be 
back in doing again and that.
    When I went to the VA, not only did I have problems with my 
left hand and my legs, I also since have had symptoms with 
numbness and weaknesses and tingling in my arms and legs, 
headaches, cognitive dysfunctions, gastric reflux diseases, 
fibromyalgia, sores and skin peelings in the roof of my mouth, 
skin rashes, and sinusitis.
    My right hip pain wakes me up 2 hours almost every night. 
As I lay in bed with this problem, I have troubles with both my 
arms having that falling to sleep, numbing feeling.
    All of these greatly limit my activities and continues to 
ensure that this issue--I am sorry. I do have problems when it 
comes to reading--my desire to ensure that these issues are 
addressed and a cure is found.
    It is hard to live a life where when you are talking to 
someone normally one minute and then the next minute, you 
cannot make a sentence to save your life. It is also true when 
it comes to trying to write things out, when my cognitive 
problem starts to set in for that day. I may think I am typing 
one thing and then when I read it the next day, it turns out to 
be something that just does not make any sense at all.
    I also no longer play chess, a game that I truly love. It 
is hard to play a game where you have to be able to think three 
and four moves ahead and now you can barely even think of the 
move that you were just about to make.
    Along with many other veterans, we have sensitivity to 
smells like perfumes, colognes, hair sprays, and et cetera. 
Often when I went to test in clinics with the VA, some of the 
workers had so much of this stuff on, it made me sick.
    In January of this year, I had my bedroom painted. I forgot 
to tell them that I needed them to use low odor paint. The 
fumes from the paint made me so sick for the next few weeks, I 
had to stay in my basement so that I was as far away from the 
smells as I could.
    Often the VA likes to tell me that this is all in my head 
or it is depression. I tried to talk to one of my doctors about 
my problems and about new studies showing that the depression 
is not--and when I tried to give her the first RAC report to 
point out some of the studies, she told me that, Jim, we need 
to agree just that we have to disagree on this point. And I 
told her I needed a new doctor.
    My psychiatrist, Mr. Rot, who talked to me about PTSD, had 
told me also that I should be like most veterans with PTSD and 
divorce my wife, which I refused to do.
    In 1995, I went to the Gulf War Illness Clinic in Houston, 
Texas. This is a place that is to look at everything fresh to 
draw its own conclusion. I saw my charts before they even 
started and they already listed depression as my main problem. 
How can we get fair treatment before a doctor sees us and they 
say we are depressed?
    The same doctor came one day to give me a report on a blood 
test. Some of the levels was off, but she told me it was 
because of excessive use of alcohol. She was surprised when I 
told her I do not drink. How can they give us any fair 
treatments when they are doing diagnosis like this?
    At one point, I was concerned about the medication 
prescribed to me. With my wife's help, I were able to get off 
half of the medication being that they did not make me any 
worse when I am off of them.
    Over the last few years, veterans called me about getting 
on the Gulf War Registry exam. Many of the veterans were having 
problems, so I went to my local VA to try and get on the exam 
and that. I got the runaround my from local VA about this exam.
    A third person I went to on this exam told me he did not do 
it either and could send my name and the information to who did 
it. I asked who that person was. He refused to give me the 
information. I told them who I was. I was President for the 
Resource Center and investigating as to why veterans are having 
a hard time getting on this exam.
    He went off on me and told me to behave myself, so I went 
to the Director and introduced myself. The Director assured me 
things would be taken care of. I had to fight hard. I would get 
a call from the patient affairs person, patient representative 
person who gave me a name and number. I called that name and 
number over 3 weeks. I never got a call back.
    When I went to the office, she said she did not do it 
either and that. So the Director Office called me and I said 
the problem was not taken care of.
    I finally got the exam paperwork. First question on the 
exam paperwork was, when were you in Vietnam. It really pissed 
me off because of the fact I am sitting there trying to get on 
the Gulf War exam and that.
    The exam itself is a big joke. They asked me questions 
about dead, dying, and missing in action. They do not ask me 
questions about why do I have headaches. If so, how often and 
how long. They do not ask questions about cognitive 
dysfunctions and that. The questions should be addressed 
differently the way they are.
    The results of these exams should be kept on file not only 
of what problems veterans are having under undiagnosed 
illnesses, they should be also put into listings of what they 
have been diagnosed with and given to the VA Secretary and the 
IOM and the RAC report so that there is a clear file showing 
the diagnosed illnesses so that presumptive service connection 
can be also given to us veterans who are having this, like my 
fibromyalgia and other things.
    There are a lot of veterans I know who are having problems 
with Parkinson's disease and multiple sclerosis (MS), which is 
not service connected and it should be.
    Finally, I deal with a lot of veterans daily who are having 
problems with their Gulf War claims and that. My claim went 
through relatively easy in 1993 when they decided to drop 12 
issues I had, which are all now listed as part of Gulf War 
illness and they gave me 100 percent unemployability and that.
    But I have got veterans whose claims right now are being 
denied because of chronic fatigue and fibromyalgia, two 
presumptive service connection for Gulf War veterans, and the 
raters are saying, well, you got that disease too far out of 
the timeframe and that. It is too late to put that as service 
connection. Well, the timeframe is not until December 31st, 
2011. That is 2\1/2\ years from now.
    You also have other veterans whose claims are being denied 
because the raters are telling them that you have to have a 
combat ribbon or you have to have a V for valor device in their 
201 files.
    That is bull. I am sorry. I am getting really personal 
about this. This is something that is really to me. And these 
are problems that are happening and not just to me but other 
veterans and that.
    Mr. Mitchell. Okay. Thank you.
    Mr. Bunker. Okay? This is not a requirement for Gulf War 
illness. It is not and that. And we need real help and real 
care.
    This last commission that you guys passed that the VA is to 
have that is supposed to look into problems Gulf War veterans 
are having with their claims, it is not doing its job. When you 
have the Chairman of that board sitting there in a meeting 
saying that Congress should never have passed a law dealing 
with Gulf War illness and compensating veterans for Gulf War 
illness, how is he going to be really objective in what he has?
    He is not going to look for problems. He is not going to 
these VAs that are doing this injustice to the Gulf War 
veterans. He is doing, though, a good job for the returning 
veterans. I do have to credit him for that. But I think that 
board needs to be relooked at and reworked and the people on it 
need to be kicked off and put on Gulf War veterans and not some 
of the people that are on that board.
    Mr. Mitchell. Thank you.
    Mr. Bunker. Thank you.
    [The prepared statement and a post-hearing letter from Mr. 
Bunker, appear on p. 44.]
    Mr. Mitchell. Thank you. Thank you very much.
    Mr. Sullivan.

                   STATEMENT OF PAUL SULLIVAN

    Mr. Sullivan. Veterans for Common Sense thanks Subcommittee 
Chairman Mitchell, Ranking Member Roe, and Members of the 
Subcommittee for asking Veterans for Common Sense to testify 
today about Gulf War illnesses.
    We are gathered here today to determine if VA is doing 
enough to assist our ill Gulf War veterans. The answer is no. 
We remain frustrated and angered at our government's lack of 
action.
    As a Gulf War veteran, I have personally experienced VA 
denials and delays. In 1992, I applied for VA health care and 
was denied until a newspaper reporter printed my story in a 
local newspaper.
    In 1992, I filed a disability claim against VA and VA 
repeatedly denied disability benefits until 2000. And again in 
2007, VA tried to deny me health care one more time.
    I am here as a Gulf War veteran because we have three 
questions where we need answers. Why are we ill? Where can we 
get treatment? Who will pay for our medical care and disability 
benefits?
    Although we do have some answers why we are ill, there is 
far more to learn. Worse, there are few treatments for us. And 
VA disability benefits, they are very difficult to obtain.
    While the military and the VA say they assist ill Gulf War 
veterans, they often fight against veterans. After 18 years of 
misleading comments, delays, and denials, here are four 
examples of where the government still tells Congress, VA 
doctors, and veterans that there really is nothing wrong.
    First, VA's Web site now says experts conclude there is no 
unique medical condition. This is an attempt to downplay the 
illness.
    Second, VA's 2007 Congressional testimony says veterans are 
suffering from a wide variety of common recognized illnesses.
    Third, VA's 2002 training materials for doctors says 
discussing chronic illness with a Gulf War veteran or a woman 
with silicone breast implants is a different matter from 
discussing it with the average patient.
    Fourth, in a 2008 statement, DoD says veterans suffer only 
minor wear and tear problems. However, the scientific facts 
reveal a critical health crisis.
    In an April of 2009 study, ``Health of U.S. Veterans of the 
1991 Gulf War,'' VA concluded 25 percent more deployed Gulf War 
veterans suffer from multi-symptom illness than nondeployed 
veterans.
    I am hopeful the 111th Congress, and the new 
Administration, will finally take decisive steps now to help 
resolve these problems and prevent future problems.
    First, VA should publicly recognize our illnesses. VA 
should issue new training materials and a press release that 
Gulf War illness is real. And we ask that Congress continue 
oversight on this issue.
    Second, Congress should fully fund the Congressionally 
Directed Medical Research Program to find treatments we 
urgently need. Again, one of our top priorities is finding 
treatments.
    Third, Veterans for Common Sense asks Congress to 
investigate VA staff manipulation of Institute of Medicine 
reports mandated by ``The Persian Gulf Veterans Act of 1998'' 
to determine veterans' benefits. Documents reveal VA and IOM 
staff improperly fixed the results of the reports before they 
were ever written by restricting the evidence to be considered. 
If laws were broken, then VA must hold accountable those who 
would fight against our veterans. We urge Congress and VA to 
remove VA road blocks so veterans can move forward.
    Fourth, VA should conduct more research to understand our 
illnesses, especially for the experimental Anthrax vaccine and 
depleted uranium (DU).
    Fifth, VA should send letters to every veteran ever denied 
an undiagnosed illness benefit advising them of laws expanding 
eligibility.
    Sixth, VA should explain why the number of veterans with 
approved undiagnosed illness claims, these are Gulf War 
disability claims from the 1994 law, fell from about 3,000 to 
about 1,000 during 2008.
    Finally, Congress, DoD, and VA must prevent a repeat of the 
Gulf War illness debacle. We urge Congress to investigate why 
the military failed to perform mandatory pre-deployment and 
post-deployment medical exams required under the 1997 Force 
Health Protection Law.
    DoD has jeopardized the health of our servicemembers, the 
safety of military units, and the success of the mission by 
deploying tens of thousands of unfit soldiers to Iraq and 
Afghanistan.
    In conclusion, I ask you to please add the February 9, 2009 
memo by James Binns, Chairman of the Research Advisory 
Committee, regarding the VA manipulation of IOM reports as a 
hearing exhibit.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sullivan appears on p. 49. 
The memo by Mr. Binns will be retained in the Committee files.]
    Mr. Mitchell. Thank you.
    Mr. Weidman.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Mr. Chairman, I thank you for the opportunity 
to appear here today.
    Many people have said why in the world are you talking 
about Gulf War vets being that you are all Vietnam veterans. 
Our founding principle was never again shall one generation of 
American veterans abandon another generation of American 
veterans.
    And since 1994, though we are not a wealthy organization, 
we have provided office space and support for Gulf War veterans 
for many years and today continue to do so to the Veterans of 
Modern Warfare, which include Gulf War vets as well as OIF/OEF 
vets.
    We pressed early on right after the Gulf War for some 
answers when it was clear that people were getting ill. And all 
you need, it is not rocket science stuff, in order to correct 
the things that are still wrong for Gulf War vets, you could 
pass or enact very prescriptive legislation that attempts to 
legislate people doing the right thing.
    But, in fact, all you need is top leadership that says we 
have a covenant with the men and women who take the step 
forward pledging life and limb in defense of the Constitution, 
that where they are lessened by virtue of military service, we 
are going to do everything humanly possible to find out how 
they have been lessened and to remediate that, whether they 
have been lessened physiologically, neuropsychiatrically, 
emotionally, or economically.
    That is all you need. And if you have that stance, then all 
else flows from that. Unfortunately, the history of Gulf War 
illness, both with DoD and with VA, is one of misdirection, 
denial, and some would suggest mendacity.
    Where are we today and what can be done about this 
situation? First of all, I subscribe and VVA subscribes to the 
President's judgment that we need a transformational change at 
VA and nowhere is that more apparent than in the research and 
development area and in the whole way in which the entire 
agency, both Veterans Benefits Administration (VBA) and 
Veterans Health Administration (VHA), deals with the wounds, 
maladies, and injuries of war, particularly adverse health care 
conditions that derive from environmental exposures while in 
military service.
    So once you have the proper stance, then you start to 
change it. We have great confidence and great hope for the 
number one and number two persons at the VA now. And very 
shortly, there will be a new Under Secretary for Health and 
from that will flow leadership changes at every level.
    The timing on this hearing, and I know a lot of people 
raised some questions about why are we going back to this at 
this particular time, this set of three hearings is perfectly 
timed for a number of reasons.
    Number one, last November, the RAC report, which was a 
complete and extraordinary report, was made public.
    Secondly, just last month, the results of the long-term 
epidemiological study done by Dr. Han Kang, et al., was 
published. The article subsequent to that was published in a 
peer-reviewed journal.
    And, third, we are in the process of getting that 
leadership change and a fresh look with new leadership at where 
do we need to go from here, where have we been and where do we 
need to go.
    VVA recommends, first of all, the deep brain study done by 
Dr. Robert Haley at the University of Texas, Arlington (UTA), 
VA must stop interfering with that in an unwarranted way trying 
to get the UTA to violate the Institutional Review Boards 
(IRBs) and breach confidentiality of the people who participate 
in that study.
    Similarly VA must be warned not to try and get other 
research institutions who are doing outside research funded by 
VA to ask them to breach their medical ethics and their 
research ethics by violating IRBs.
    Secondly, VA needs to move quickly to modify the 
computerized patient treatment record to include a military 
history question, what branch did you serve in, when did you 
serve, where did you serve, what was your military occupational 
specialty, and what actually happened to you.
    This needs to be searchable on a nationwide basis so that 
if I walk in and see Dr. Roe and I have a rare cancer, he can 
search and find out do other individuals who served in the same 
military unit at the same time I did, do they have that. And 
that is classic epidemiological methodology going right back to 
the original epidemiological study done on cholera in London. 
And we would have an invaluable epidemiological tool that costs 
virtually nothing.
    Third, VA does not really have a Gulf War One Registry, 
they have a Gulf War One mailing list, just like they do not 
have an Agent Orange Registry, they have an Agent Orange 
mailing list, et cetera.
    What we need are registries that are set up on the model of 
the Hepatitis C Registry where you can look and track the 
entire pattern of people's medical treatment and medical 
conditions on an ongoing basis and to have a protocol for a 
Gulf War One medical exam to get on that registry, same with a 
different one for Agent Orange, et cetera. Right now it is a 
let us not and say we did thing and we need to be honest about 
having real registries where we can do good epidemiological 
work on veterans of every generation.
    Fourth, there needs to be a significant increase in VA 
research dollars. We would suggest more than $2 billion. And 
there are several other recommendations, but I just want to 
mention one, Mr. Chairman, because I know I am out of time, and 
that is to extend the RAC to 2016.
    Thank you very much, and I look forward to answering any 
questions, Mr. Chairman and Ranking Member.
    [The prepared statement of Mr. Weidman appears on p. 53.]
    Mr. Mitchell. Thank you.
    Dr. Steele.

                 STATEMENT OF LEA STEELE, PH.D.

    Dr. Steele. Good morning. I am Dr. Lea Steele.
    The RAC that you have heard mentioned a few times is the 
Research Advisory Committee on Gulf War Veterans' Illnesses. I 
was formerly Scientific Director of that Committee. The current 
Scientific Director was unable to be with us today.
    So I was Scientific Director during the period of time that 
we prepared this extensive, in-depth report that was issued 
last November. And so I will try my best in the brief time I 
have to just touch on some of the highlights of our scientific 
findings.
    The report's primary focus is Gulf War illness or what has 
also been called Gulf War syndrome or Gulf War undiagnosed 
illness.
    In contrast to diseases like cancer or diabetes, Gulf War 
illness is not explained by standard medical tests or 
diagnoses. The hallmark of Gulf War illness is, as you have 
heard, a characteristic pattern of multiple symptoms, typically 
widespread pain, memory and concentration problems, persistent 
headache, unexplained fatigue, persistent gastrointestinal 
problems, and other abnormalities. For many veterans, this 
illness is quite severe and has persisted for 18 years.
    Here are our report's major findings on Gulf War illness.
    First, Gulf War illness is real. Studies from all units and 
regions of the U.S. and several coalition countries show the 
same thing. The same types and patterns of excess symptoms are 
consistently identified in diverse groups of Gulf War veterans.
    Second, Gulf War illness differs fundamentally from trauma 
and stress syndromes seen after other wars. Studies are 
consistent in showing Gulf War illness is not the result of 
combat or stress. In fact, rates of psychiatric disorders like 
PTSD are low in Gulf War veterans compared to veterans of other 
wars. And studies do not show a similar pervasive unexplained 
illness in veterans of more recent wars, including current 
Middle East deployments.
    So Gulf War illness is a widespread problem. Multiple 
studies indicate that it affects at least one in four of the 
nearly 700,000 U.S. military personnel who served in the Gulf 
War.
    What caused Gulf War illness? Well, as you may know, many 
presumed causes have been suggested over the years from stress, 
to oil well fires, to depleted uranium. Our review of the 
extensive evidence related to each of these factors provides a 
clear conclusion. Scientific evidence points consistently to 
just two causal factors for Gulf War illness.
    The first, pyridostigmine bromide or PB pills were given to 
protect troops from the effects of nerve agents. PB has only 
been used on a widespread basis in the 1991 Gulf War.
    The second factor is extensive use of pesticides in 
theater. Both PB and pesticides that were used and overused in 
the Gulf War affect the same enzyme and neurotransmitter system 
which act in the brain and the nervous system.
    Several other contributing factors cannot be ruled out due 
to limited or conflicting evidence. These include low-level 
exposure to chemical nerve agents and effects of combinations 
of neurotoxic exposures in theater like the PB pills and the 
pesticides.
    Also, studies from different research teams have begun to 
provide for us an emerging picture of the biology of Gulf War 
illness. Dr. White would have explained this in more detail, 
but what I can share with you is that the identified 
differences between sick and healthy veterans most prominently 
affect the brain and the nervous system.
    Now, aside from Gulf War illness, the undiagnosed symptom 
complex, there are other health issues of concern. The most 
serious diagnosed disease also affects the brain. Studies have 
found that Gulf War veterans have higher rates of ALS or Lou 
Gehrig's disease than other veterans and Gulf War veterans who 
were downwind from chemical nerve agent releases at Khamisiyah, 
Iraq, have died from brain cancer at twice the rate of other 
veterans in theater.
    Our Committee also reviewed in detail Federal research 
programs on the health of Gulf War veterans. Historically these 
programs have not been managed to address high-priority issues.
    About $400 million have been spent by Federal agencies on 
projects identified as Gulf War research, but a substantial 
portion of those funds has been used for projects that have 
little or no relevance to the health of Gulf War veterans and 
projects focused on stress.
    Promising changes have taken place at VA and DoD since 2006 
due to Congressional actions. But overall, Federal funding for 
Gulf War research has declined dramatically since 2001.
    Our Committee has called for a renewed Federal research 
commitment to identify effective treatments and diagnostic 
tests for Gulf War illness and to address other priority Gulf 
War health issues.
    Now, if I may, I just have one more point about the 
question of Gulf War illness. In the past, Federal officials 
have tended to obscure or minimize Gulf War illness, often 
focusing on the largely semantic issue of whether or not it 
should be called a syndrome or a unique disease.
    Our Committee viewed this question as relatively trivial. 
From a scientific perspective, the clear result from Gulf War 
studies is that a large number of veterans suffer from this 
consistent pattern of illness, however it is labeled, as a 
result of their military service in the Gulf War. This is not 
controversial scientifically. There are no findings to the 
contrary.
    So despite the unusual and complex and difficult to 
diagnose nature of Gulf War illness, there is every 
justification from a scientific perspective for this problem to 
be clearly acknowledged and addressed in the same way as other 
long-term health problems that result from wartime injury.
    Our Committee noted that this remains a national obligation 
made especially urgent by the many years that Gulf War veterans 
have waited for answers and for assistance.
    Thank you.
    [The prepared statement of Dr. Steele appears on p. 56.]
    Mr. Mitchell. Thank you very much.
    The first question I have is for Mr. Sullivan. You 
mentioned in your testimony that there has been a dramatic drop 
in claims of patients with undetermined illness in 2008 and a 
dramatic drop in claims approved.
    Do you have any thoughts of why this has happened?
    Mr. Sullivan. Yes, Mr. Chairman.
    I would first ask that this Committee ask VA to investigate 
this. But on the list of hypotheses, the first one that comes 
to mind is a possible computer malfunction. In other words, 
something is not counting the numbers properly to generate the 
correct counts for the Gulf War veteran information system 
report.
    I also believe that there are other hypotheses. The first 
is that VA may have ordered new exams. If VA ordered a new 
exam, Mr. Chairman, and the veteran came in, VA may have found 
that an undiagnosed condition is gone. And if the condition is 
gone, then the veteran is no longer eligible for those 
benefits.
    If there was an exam, maybe the undiagnosed condition was 
observed by a doctor to be a diagnosed condition and then the 
veteran is getting benefits for that. It is also possible that 
if VA ordered a new exam, the veteran no showed.
    We think that in an investigation that VA should review the 
data from each office, not just the national numbers, and look 
at the number of grants and denials, the rating percentages for 
the grants and the dates of those ratings or denials and also 
take a look at the training and the backlog.
    And the reason I can speak to this is because I prepared 
the Gulf War veteran information system reports for 6 years 
while I was at VA. I designed them. I prepared them. I briefed 
them.
    We did a brief study in about 2002 that showed that offices 
that had training and a low backlog of claims approved more 
than 30 percent of the undiagnosed claims. However, in 
contrast, the VA Regional Offices that did not have training in 
processing undiagnosed illness claims and had a large backlog 
generally approved only about four or 5 percent of the 
undiagnosed claims.
    Mr. Mitchell. Thank you.
    Mr. Weidman, sitting here today and listening to all the 
facts and the discussion revolving around the Gulf War illness, 
do you think that the VA and DoD have learned from the past 
mistakes regarding veterans exposed to Agent Orange?
    Mr. Weidman. No, sir.
    Mr. Mitchell. All right.
    Mr. Weidman. I could elaborate.
    Mr. Mitchell. No, no, no. That is fine. That is good 
enough. We will come back to some of these.
    And, Dr. Steele, in your expert opinion, do you believe 
that the Gulf War illness is real, and you have kind of alluded 
to all this, and the count between 175,000 and 210,000 still 
suffering is accurate?
    And the second part of this, do you believe the published 
peer-reviewed scientific research, especially Dr. Kang's study, 
supports this new conclusion?
    Dr. Steele. Yes. As I indicated in my testimony, there is 
no doubt that Gulf War illness is real and that study after 
study shows the same pattern of illness in all different groups 
of Gulf War veterans.
    The estimate of 25 to 32 percent was found by six of seven 
large epidemiologic studies showing rates of multi-symptom 
illness in Gulf War veterans.
    And so this recent study that was just published verifies 
that finding, a rate of 25 percent in Gulf War veterans.
    Mr. Mitchell. One last question before my time is up. For 
all the skeptics, what other information do you think is 
available that if publicized could benefit the public 
discussion and other scientists' views about the illness?
    Dr. Steele. That is an important question. There is an 
extensive amount of information on both what occurred during 
the Gulf War and from many, many research studies that look at 
the health effects of some of the exposures and the 
epidemiologic studies looking at what the health status of 
veterans is today.
    Veterans by and large have not recovered over time. There 
are very few who have recovered according to five different 
longitudinal studies of Gulf War veterans.
    So our report attempted actually to pull together 
everything that has been written from government reports, from 
research studies, et cetera. And so in a large part, there is 
not that much more besides what is in our report.
    I think what would be of interest to people that have not 
followed this issue over the years is just how much data there 
are around this issue, how much research has been done, and 
that the research all points in the same direction and that is 
that these two exposures caused veterans to be ill. And their 
illnesses parallel what you would expect with these kinds of 
exposures.
    Mr. Mitchell. Thank you.
    I would like to yield to Dr. Roe.
    Mr. Roe. Thank you, Mr. Chairman.
    Mr. Weidman, I understand you served as a combat medic in 
Vietnam. Thank you for your service.
    Mr. Weidman. Thank you very much, sir.
    Mr. Roe. Appreciate that.
    Dr. Steele----
    Dr. Steele. Yes, sir.
    Mr. Roe [continuing]. I guess a couple of questions I have. 
Has anyone in the studies that have been done studied the Kurds 
or the Iraqi population, the indigenous population to see if 
they have any of these symptoms?
    Dr. Steele. There are very few studies of the local 
populations. We understand that there was one study of Saudi 
National Guard members and they did not have increased 
hospitalizations. But Gulf War veterans in the U.S. for the 
most part are not hospitalized for these conditions.
    So we understand there is a study now being done by the 
Harvard School of Public Health to look at the people in 
Kuwait, comparing people that stayed in Kuwait to people that 
left the country during the war. We do not have results from 
that yet.
    We do hear from other coalition countries, though, that the 
soldiers from other countries have similar conditions.
    Mr. Roe. I was just thinking that another model to study 
would be the indigenous Iraqi population or the Kurdish 
population to see what----
    Dr. Steele. Very much so.
    Mr. Roe [continuing]. Symptoms they had. And I guess one of 
the hard problems in studying a syndrome like this, if there is 
no objective data, it is very difficult to wrap your arms 
around it.
    I know, you know, I can tell you what the cause of 
pneumonia is or swine flu or whatever. We have an identifiable 
source of information.
    When these tests are done, are there any objective data on 
position emission tomography (PET) scan, magnetic resonance 
imaging (MRI), nerve conduction studies, computed axial 
tomography (CATs), any of the----
    Dr. Steele. That is right.
    Mr. Roe [continuing]. Typical diagnostic testing that we 
do?
    Dr. Steele. What we find is that when people come in for 
clinical exams, the standard kinds of clinical evaluations they 
get, like a standard MRI or a standard CAT scan of the head, 
typically do not show anything. You do a neuromuscular 
conduction test, you do not see anything for the most part.
    Where you do start to see difference is in more specialized 
testing that is done in research studies, so now we have 
multiple studies showing abnormalities in the brain stem, the 
ganglia and the hippocampus from brain scans. There are a lot 
of neuropsyche studies showing deficits in cognitive function, 
memory, performance, things like that.
    So these problems are too subtle for the most part to be 
detected on standard clinical testing. But now that more 
advanced studies have been done, we do see objective measures 
of differences between sick and healthy veterans.
    The heart of the problem is that there is no clear 
diagnostic test yet to identify who has it and who does not 
have it. And that has been the source of so much difficulty 
both for veterans and for clinicians and for researchers.
    Mr. Roe. For instance, in diagnosing ALS, there are some 
mild and chief problems and in MS, different diagnostic 
criteria that are in the spinal fluid or in the brain when you 
find these, but there has been no, to date, there has been no 
way you can----
    Dr. Steele. It is not unlike what we have seen with other 
neurological diseases, that for many of them, it takes a long 
time to find something objective like with Alzheimer's disease, 
how long before we actually were able to diagnose that with 
objective tests.
    So effects of chemical exposures are often difficult to 
identify with objective tests. And that is certainly the case 
here.
    Mr. Roe. Do we know how many soldiers, veterans were 
treated with the PB and the DEET?
    Dr. Steele. Yes. We have numbers for all of those. There 
have been several different investigations to try to retrace 
that and get a handle on that.
    And multiple sources tell us that about 50 percent of all 
soldiers from the U.S. used the pyridostigmine bromide pill, 
some for just a short period, some for longer periods. It is 
the ones that used it for the longer periods that have the most 
problems.
    The number of people that used what we call personal 
pesticides, things like DEET, permethrin, things that they have 
put on their skins and their uniforms, that is also in the 
range of 50 percent. We see higher use of both of these in Army 
personnel and ground troops generally, lower use in people that 
were on board ship or in the Air Force.
    Mr. Roe. Is the data on ALS, for instance, if you go from 
one to two in a million, you have doubled?
    Dr. Steele. Exactly.
    Mr. Roe. But the statistical odds of getting something are 
very remote, your chances. Are these data statistically 
significant when you say that the incidence of ALS or brain 
cancer, for instance, what kind of numbers are we talking 
about?
    Dr. Steele. Yeah. And that is an important point. Well, ALS 
and also brain cancer are very serious fatal diseases. The 
numbers that have these problems are relatively low compared to 
the very large number with these Gulf War illness problems.
    So the last count that I had was 60 Gulf War veterans that 
have ALS and that is roughly twice as many as nondeployed 
veterans of the same era. For brain cancer, I think we are 
still in the range of 30 deaths due to brain cancer, which is, 
again, twice as high as people who were not exposed to nerve 
agents.
    Mr. Roe. Thank you, Mr. Chairman.
    Mr. Mitchell. Thank you.
    Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman and Ranking Member 
Roe. I very much appreciate you holding this hearing and 
focusing on getting answers based on data-driven research 
taking a look at this research because we are hearing testimony 
and every single one of us up here have heard from Members who 
are experiencing this. There is something happening.
    And I should point out that the Majority Counsel's side, 
Lieutenant Colonel Herbert is a Gulf War veteran and was at 
Khamisiyah and has extensive history in this and is well versed 
and has brought us up to speed on this.
    I just have a couple of questions trying to get at the 
heart of this.
    First, Dr. Steele, you talk about self-reporting being 
relied on a lot in exposure. Can you explain that a little bit 
and where you think the pitfalls there are?
    Dr. Steele. Yes. There are a lot of pitfalls.
    As you probably know, many of the exposures that veterans 
experienced during the Gulf War were not measured at the time. 
People were in war. They were not writing down how many 
pesticides they used and things like that. So it has been 
important to use various sources of information to try to 
reconstruct what these exposures were.
    Initially after the Gulf War, there were no efforts and so 
we really did not know. But by now there have been multiple 
very large surveys of Gulf War veterans that have asked them 
what they did, where they were, things like that. And so we can 
piece together a look at what we see across the spectrum of 
multiple studies.
    In addition, there have been some very detailed 
investigations sponsored by DoD that have tried to reconstruct 
which pesticides were shipped to theater. They do in-depth 
interviews. RAND has done these and the Department of Defense 
as well, have done in-depth interviews of pesticide 
applicators, the professionals in the field that were familiar 
with the pesticides to find out the patterns of use and things 
like that.
    And surprisingly the patterns that we see from the 
epidemiologic surveys that are self-reported are very 
consistent with what we see with the in-depth investigation. So 
that is how we have some numbers on what is going on.
    When we look at the connections with the illness, again we 
rely on self-reported exposures often and these identified 
patterns. And we see across the spectrum of studies, we see 
very consistent findings.
    Mr. Walz. Very good.
    Rick, you mentioned in your testimony very clearly when you 
said, have we learned anything, you said no. Something, though, 
I think you are hitting on that I think can have us learn 
something is this idea of incorporating the personnel file into 
an electronic medical record that transfers down, especially 
for research based.
    Could you explain a little bit, especially in light of both 
Secretaries and the President and this Committee making a real 
push for this seamless transition and the ability to do that.
    Mr. Weidman. In 2000, as part of ``The Veterans Benefits 
Improvement Act of 2000,'' which was--I do not remember the law 
number--but, anyway, this Committee when it passed the House 
had a provision in it that VA had to take a complete military 
history and incorporate that into the VistA system. 
Unfortunately, it was not incorporated on the other side of the 
Hill and, therefore, did not become law.
    The cost to do it, we receive high-crust promises every 
year since 2000 at the end of the last Administration that they 
are going to do it, but it never seems to happen.
    And so they do have the spectacle that if you want to know 
how many people have MS who served in a theater who are 
receiving medical care from VA, you cannot tell. Why? Because 
they do not have whether or not somebody served in a combat 
theater of operations keyed in as a field on the computerized 
patient treatment record.
    This is nuts. We have a tremendous resource here. It is a 
veterans' health care system. It is not a general health care 
system that happens to be for vets. And we need to refocus on 
making this a system that focuses first and foremost on the 
wounds, maladies, injuries, illnesses, and conditions that 
emanate from military service. That is what the taxpayer is 
paying for.
    Thank you, sir.
    Mr. Walz. Very good. I appreciate it.
    Mr. Sullivan, I am running out of time, but just quickly 
because we are looking at the research on this and trying to 
get to it. And that was not shock on my face when you said we 
did something on this side and it ended up on the Senate side. 
Trust me, I am very appreciative of that.
    But, Mr. Sullivan, I want you to elaborate where you think 
the failures went in some of this research. You talked about 
that they were predicated on some assumptions before they even 
began to discount any connection.
    Can you explain just briefly how you see that happening.
    Mr. Sullivan. The short answer is I would defer and ask 
this Committee to call Mr. Binns and the Research Advisory 
Committee to fully explain all that.
    Essentially from the document that I asked be included as 
an exhibit of this record, it appears that VA and IOM staff 
manipulated the process so as to exclude information.
    And I do not have all the documents. I do not have privy to 
everything. I do believe that we have asked, the Veterans for 
Common Sense has asked the VA Inspector General to investigate. 
So we hope that someone will find out what is going on.
    I do not have all the facts. That is why we want an 
investigation on this, because we want to be able to move 
forward and not have anybody monkeying with the intent of ``The 
Persian Gulf Veterans Act 1998,'' because there are a bunch of 
people behind me that walked the halls every day for months to 
get that bill passed. And it is a shame that a few people 
appear to have submarined it.
    Mr. Walz. Well, I appreciate that.
    And I will just end before I yield back, Mr. Bunker, thank 
you for your service and please know that no one will minimize 
what you have given in support of this Nation.
    And everyone in this room, I am working from the 
assumption, cares and wants the best quality of care for our 
veterans. We have got to make sure that our data is where it 
needs to be and that it is actually being used to enact policy 
for that.
    So from one artilleryman to another, thank you for your 
service.
    And I yield back.
    Mr. Bunker. Thank you.
    Mr. Mitchell. Thank you.
    Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thank you, Ranking 
Member Roe.
    Mr. Bunker, I would follow-up Congressman Walz by saying if 
you remember or if you have a record of that VA caseworker or 
researcher, I am not sure which it was, who told you to behave 
yourself, I hope you will share that with me and my staff, not 
necessarily right now in open session, but I would like to know 
the name of that person.
    Mr. Bunker. I do not remember. I know his first name.
    Mr. Hall. Well, maybe the memories will come and go. And if 
it comes back to you, write it down.
    Mr. Bunker. I will assure you that if you get a hold of 
the----
    Mr. Hall. That should never happen.
    Mr. Bunker [continuing]. I know the Director----
    Mr. Hall. It should never happen to anybody----
    Mr. Bunker [continuing]. Is very much aware of who it is.
    Mr. Hall [continuing]. Who serves in uniform of this 
country and comes back with a legitimate problem that needs to 
be solved and presents themselves to a VA facility anywhere in 
this country that they are told--well, bad enough to be told it 
is in your head or, as Dr. Steele said, you know, that it is a 
psychiatric problem. But if I find out who that was, we are 
going to do something about it.
    Mr. Bunker. But if you read in my testimony, you will also 
find out that the person who is supposed to be doing the 
Persian Gulf exam, sir, does not even answer their voice mail 
phones when you call in like I did.
    Mr. Hall. I was horrified with the whole thing. So I 
apologize on behalf of, I guess, on behalf of the country to 
you and others like you who served and have had so little 
response to your questions and your needs.
    I wanted to ask you also, Mr. Bunker, if you would, if you 
are aware of any Web sites, hotlines, or other outreach 
measures that are being taken by your groups or other groups to 
educate veterans about this or the public about this problem.
    Mr. Bunker. There is our Web site called the National Gulf 
War Resource Center, ngwrc.org; Paul Sullivan's site, Veterans 
for Common Sense which has worked----
    Mr. Hall. ngwrc.org?
    Mr. Bunker. Yes.
    Mr. Hall. Okay. Thank you.
    Mr. Bunker. National Gulf War Resource Center. Paul 
Sullivan's site, Veterans for Common Sense, and the Veterans 
for Modern Warfare site.
    Mr. Hall. Okay.
    Mr. Bunker. Those are about the only ones right now.
    Mr. Hall. That is good.
    Mr. Weidman. VMW's site is vmwusa.org.
    Mr. Hall. Okay. And they all have information about Gulf 
War syndrome?
    Mr. Bunker. Yes. We also have a self-help guide for 
veterans with Gulf War illness and also Gulf veterans who have 
PTSD problems.
    Mr. Hall. Thank you. That is terrific.
    I am curious, Dr. Steele. Are you aware if the RAND 
Corporation did a study on Gulf War syndrome?
    Dr. Steele. They did a series of reports. I do not 
remember. It is eight or nine reports on different topics 
related to the Gulf War issue, things like depleted uranium, 
oil well fires, smoke, nerve agent exposures, things like that. 
So they did a whole series. It was RAND that actually helped 
tease out what kind of pesticides were used in the Gulf War.
    Mr. Hall. Okay. So those were helpful studies?
    Dr. Steele. Very much so, uh-huh.
    Mr. Hall. One of the doctors who worked on that, a retired 
Major General, who is actually in my district, worked on one of 
those, if not all of them, and he is a WMD specialist for three 
former Secretaries of Defense.
    I am curious. Besides the two main causes that you list, 
the PB pills and the overuse of pesticides----
    Dr. Steele. Uh-huh.
    Mr. Hall [continuing]. I know you said synergistic effect 
of other chemicals, can you reel off some of those other 
chemicals?
    Dr. Steele. Well, as I say, the two main things that 
evidence points to are those two. And then we have sort of 
limited evidence related to several other exposures. Those 
include low-level exposure to nerve agents, which we know 
occurred during the Gulf War, also high-level exposure to the 
oil well fire smoke. So we have some conflicting information 
about people who were close in to the oil well fires for an 
extended period of time.
    There also are some indications that receiving a large 
number of vaccines for deployment could have contributed to 
this illness and also the synergistic effects of the 
neurotoxins. And the leading neurotoxins are the PB, the 
pesticides, and the low-level nerve agents.
    There are a number of other things that people have 
suggested may have caused Gulf War illness, but we did not find 
evidence to support a link with depleted uranium, solvents 
exposure, fuel exposure, or the Anthrax vaccine.
    Mr. Hall. Mr. Weidman, what would you say is the deviation 
from one area of let us say Kuwait or Iraq to another in terms 
of the intensity of these? How local were the effects or were 
they pervasive throughout the theater?
    Mr. Weidman. I would defer to Dr. Steele on that, but I 
will tell you what I do know of it is there was a big 
difference depending on where you were.
    I mean, one example is there was a medical unit that the 
former President of Veterans of Modern Warfare, Julie Macht, 
was in and seven of those young people out of 150, I think it 
is seven out of 150 have MS. I mean, it is astronomical. I 
mean, it does not happen by chance.
    I mean, the odds against it are billions to one, whereas 
just 75 miles away, people do not have problems and it had to 
do with the wind, we believe, or the cloud from Khamisiyah. 
They were directly in the path and were one of the heaviest 
exposed, most exposed units. And, therefore, that is what 
caused those degenerative nerve conditions to, diseases to come 
about.
    So it made a big difference precisely where you were and 
when.
    Mr. Hall. And last question. Overtime anyway, but this 
could go, I guess, to Mr. Sullivan and to Dr. Steele, if you 
would, Mr. Chairman, indulge me.
    I want to ask, Mr. Sullivan, you mentioned depleted uranium 
and I know, you know, one can figure out half life and how long 
it would take for the diminution of radiation. But in regard to 
these other substances, do they break down in the environment 
and are they the same level of risk to our soldiers who are 
there now or a diminished risk? Is it something that we can 
identify how long it takes for them to degrade in the 
environment?
    Mr. Sullivan. There are about ten questions there, Mr. 
Chairman.
    Mr. Hall. I am sorry.
    Mr. Sullivan. So the first question on depleted uranium, 
the biggest concern is that it is a toxic heavy metal as 
opposed to the radiological effects. And our President for 
Veterans for Common Sense, Dan Fahey, provided some briefing 
papers to the full Committee staff on this in 2007 and has 
testified about this extensively to the Institute of Medicine.
    So what I would do is offer to provide that material to you 
and your staff.
    I would say that there is a less of a depleted uranium 
exposure number and amount of exposure for the current Iraq War 
than there was for the Gulf War. And our biggest concern on 
depleted uranium is the failure of the Department of Veterans 
Affairs to actually do a study on it.
    They ``monitored'' in a very weak manner only a handful of 
servicemembers. And then when some of those veterans came up 
with cancer and other problems, VA was quick to deny it or 
ignore it. So there are some questions, more questions about DU 
than answers is what we say now.
    Dr. Steele. I concur with that. While we did not find 
evidence linking depleted uranium specifically to Gulf War 
illness, there are still a lot of questions about whether it 
may contribute to cancer, birth defects, genetic things. There 
really has not been a comprehensive study of this in any 
generation of veterans. And because we do not see this Gulf War 
illness problem in current OIF and OEF veterans, you know, we 
do not see a link with Gulf War illness with depleted uranium 
for them either.
    But there are still so many questions. There are a lot of 
animal studies, for example, showing effects on the brain, 
effects on tumors, things like that.
    Mr. Hall. Thank you, Doctor.
    I yield back.
    Mr. Mitchell. Thank you.
    Mr. Adler.
    Mr. Adler. Mr. Chairman and Ranking Member Roe, I join the 
other Members of the Subcommittee in their sense of 
frustration, and even outrage, at the testimony of people who 
would want better for our brave heroes that have fought 
overseas in the Gulf War and previous wars and our ongoing wars 
for freedom.
    I would like to start with Mr. Bunker and ask you to tell 
me what you feel could be done to address the need for a 
culture change that needs to take place regarding our Gulf War 
veterans and their health care providers at the VA.
    Mr. Bunker. I think there are some people at the top of the 
VA system that need to be replaced, who have been there for 
years on this, who I feel have been blocking a lot of the 
dissemination of the information and that.
    I feel that every care provider who ever sees a veteran 
should be trained, treated, and given information about Gulf 
War illness and especially a briefing on the RAC report so that 
they fully understand that this is not a psychiatric problem, 
that this is not from PTSD, that there are real causes behind 
this such as what Dr. Steele has said, the nerve agents and 
everything.
    And the researchers also need to be able to get a hold of 
veterans to do the proper research. One of the biggest problems 
in doing research with Gulf War veterans is they want them to 
come like to Washington where I came back in November to George 
Washington University to have a Gulf War study done with me. 
But we have to pay for this out of our own pocket. You are 
dealing with veterans who do not have the expense, the money to 
travel.
    The other thing is this thing for the Gulf War exam, like 
we all have said, it is not worth anything. But there is a 
follow on clinic that specializes for Gulf War veterans and the 
hardest part is for these VAs to send these veterans. I was 
told at the clinic or in the Topeka VA that if they say I had 
one thing, then I would not be eligible to go to a follow on 
clinic and that.
    And it has only been these follow on clinics that veterans 
have gotten real help and real diagnosis or are being told that 
it is undiagnosed, which helps their claims to get the 
compensation they need to help support their family.
    That is just training for the care provider themselves.
    Mr. Adler. Respectfully, the more you speak, the more 
confused and dismayed I am. Maybe somebody could explain why 
the VA is not doing as you suggest, Mr. Bunker, in training all 
of its professionals.
    Mr. Bunker. It is the old model, like I was talking about 
on that one board right now that is supposed to be looking at 
problems that we have with our compensation, do not look, do 
not find.
    Mr. Adler. That is just not good enough.
    Any of the other panelists want to comment about the 
culture change that seems to be so desperately needed to meet 
the medical needs of our Gulf War heroes?
    Mr. Weidman. I just want to say as an aside and I do not 
think that Jim meant this and what he seemed to imply is that 
neuropsychiatric diagnoses are not real. Neuropsychiatric 
diagnoses, including PTSD, are very real. And there are many of 
us who believe that ultimately research will lead to the 
understanding that it is a permanent change in electrical 
chemical reactions of the body to perceive threats.
    So I do not think Jim meant to imply that it somehow was 
not real if it was PTSD, but I just wanted to correct that for 
the record.
    In regard to what does not happen at the service delivery 
point, every single resident and intern who comes to the VA for 
training gets a military history card that also lists the 
conditions that you should be looking for depending on period 
of service. Most residents and interns do not get it.
    The reason why they developed it for residents and interns 
by Dr. David Stevens before he left VA as the Head of Academic 
Affiliations to head up the American Academy of Medical Schools 
and Colleges was that everybody else was already asking these 
questions. And, in fact, nobody else is already asking these 
questions.
    So I mentioned before that there is not a protocol for a 
Gulf War illness protocol, if you will, for those who served in 
the Gulf prior to going on a ``registry'' which is not really a 
registry.
    We need to have a protocol and we need to have a real 
registry at least for those who use VA. The reason why they do 
not follow through is to minimize the problem. If you do not 
have stats, you do not have a problem.
    And the attitude is, and I mentioned earlier that this is 
not rocket science stuff, what you need is an understanding and 
the attitude that these are men and women who have pledged 
their life and limb in defense of their country and took that 
very seriously often at great cost.
    And that is a covenant between the people of the United 
States and the men and women who take that step forward, that 
where injured or lessened by virtue of that military service, 
we do everything humanly possible.
    Now, if you get that attitude at the very top, and we do 
have that attitude with General Shinseki, and you start to 
permeate it down through the structure, then the training 
follows as a natural consequence. And what we need is to get it 
at that third and fourth and fifth levels within the VA 
leadership down to the local medical center and Chief of Staff 
and Chief of Service level.
    And that can be done and we believe that with Scott Gould 
as the number two, who is an expert in organizational 
transformation, that we at least have a shot over the next 
whatever many years we get in this Administration to begin that 
transformation, Mr. Adler.
    Mr. Adler. Thank you, sir.
    Mr. Chairman, my time has expired, but I thank you for 
convening this hearing. You and the Ranking Member deserve 
credit for focusing attention on this outrage that we have to 
address.
    Mr. Mitchell. Thank you.
    At this time, I would like to excuse the panel and get to 
panel two. We are running out of time. And I want to thank you 
again for coming today and your service to this country.
    Mr. Weidman. Thank you, Mr. Chairman.
    Dr. Steele. Thank you.
    Mr. Bunker. Thank you, sir.
    Mr. Mitchell. Thank you.
    I welcome panel two to the witness table at this time. For 
our second panel, we will hear from Mr. Robert Walpole, the 
Principal Deputy Director for the National Counter 
Proliferation Center and former Special Assistant for Gulf War 
Illness Issues, at the Central Intelligence Agency (CIA).
    Mr. Walpole is accompanied by Mr. Loren Fox, the Senior 
Technical Analyst for the Central Intelligence Agency and 
former Senior Analyst for Gulf War Illness Issues.
    Also joining us is Dr. R. Craig Postlewaite, the Deputy 
Director of Force Readiness and Health Assurance at the 
Department of Defense, and Dr. Lawrence Deyton, Chief Public 
Health and Environmental Hazards Officer at the Veterans Health 
Administration, accompanied by Dr. Joel Kupersmith, Chief 
Research and Development Officer, and Dr. Mark Brown, Director 
of Environmental Agents Service at the Veterans Health 
Administration.
    At this time, I would like to recognize Mr. Walpole and Dr. 
Postlewaite will be second and third Dr. Deyton. Please keep it 
to 5 minutes. Your complete testimony is part of the record. 
Thank you.
    Mr. Walpole.

 STATEMENTS OF ROBERT D. WALPOLE, FORMER SPECIAL ASSISTANT FOR 
  PERSIAN GULF WAR ILLNESSES ISSUES, OFFICE OF THE ASSISTANT 
 DIRECTOR OF CENTRAL INTELLIGENCE (DCI), CENTRAL INTELLIGENCE 
AGENCY; ACCOMPANIED BY LOREN J. FOX, JR., FORMER SENIOR ANALYST 
 FOR GULF WAR ILLNESS ISSUES, CENTRAL INTELLIGENCE AGENCY; R. 
 CRAIG POSTLEWAITE, DVM, MPH, DEPUTY DIRECTOR, FORCE READINESS 
  AND HEALTH ASSURANCE, FORCE HEALTH PROTECTION AND READINESS 
PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE (HEALTH 
  AFFAIRS), U.S. DEPARTMENT OF DEFENSE; AND LAWRENCE DEYTON, 
   MSPH, M.D., CHIEF PUBLIC HEALTH AND ENVIRONMENTAL HAZARDS 
  OFFICER, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; ACCOMPANIED BY JOEL KUPERSMITH, M.D., CHIEF 
       RESEARCH AND DEVELOPMENT OFFICER, VETERANS HEALTH 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND MARK 
BROWN, PH.D., DIRECTOR, ENVIRONMENTAL AGENTS SERVICE, OFFICE OF 
   PUBLIC HEALTH AND ENVIRONMENTAL HAZARDS, VETERANS HEALTH 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF ROBERT D. WALPOLE

    Mr. Walpole. Chairman Mitchell, Ranking Member Roe, and 
Members of the Subcommittee, I am pleased to appear before you 
today to review the intelligence community's support to the 
Departments of Veterans Affairs and Defense on Gulf War 
veterans' illnesses issues.
    It has been a dozen years since I appeared before this 
Subcommittee on the issue. We knew then, and we know now, how 
important this is to our veterans and that our support has been 
important to ascertaining what happened during that war.
    Before I move into a lot of technical assessments, I want 
to underscore the human side of our effort to help the 
veterans.
    Our workforce includes veterans from the Gulf War and other 
conflicts. We have sincerely tried to uncover any intelligence 
that could help with veterans' illnesses.
    In March 1995, as concern over the issue mounted, acting 
DCI Studeman directed the CIA to review relevant intelligence. 
CIA subsequently recognized that soldiers had conducted 
demolition at Khamisiyah and notified DoD, the Presidential 
Advisory Committee, and the public.
    In February 1997, George Tenet, then acting DCI, appointed 
me as his special assistant on this issue to run a task force 
to help find answers to why the veterans were sick.
    We provided intense and aggressive support to numerous 
efforts. We had 50 officers from across the intelligence 
community as well as the Department of Defense.
    We managed and reviewed all intelligence aspects related to 
the issue with the goal of getting to the bottom of it, 
searching declassified, and sharing intelligence that could 
help, modeling support, communications with the government, 
veterans' groups, and others, and supportive analysis.
    Our April 1997 paper provided details about the 
intelligence community's knowledge of Khamisiyah before, 
during, and after the war and included warnings to our military 
about the potential presence of chemical weapons at Khamisiyah 
before the unwitting destruction.
    We also conducted document searches on other Iraqi chemical 
warfare sites as well as any intelligence related to potential 
biological warfare, radiologic exposure, and environmental 
issues.
    Our expanded search efforts generated over a million 
documents, most of which did not relate. We declassified those 
that we identified as pertinent and provided DoD the entire 
volume of files electronically with the means to search as 
needed.
    Our last task force paper on the issue was published in 
April 2002 on chemical weapons (CW).
    I am aware this Subcommittee is very interested in CIA's 
computer modeling, recognizing the physical and chemical 
processes of the release and its dispersions are complex and 
have inherent uncertainties.
    In 1996, the CIA was able to model the events of Bunker 73 
at Khamisiyah where U.S. soldiers had unknowingly destroyed 
nerve agent filled rockets and Al Muthanna and Muhammadiyat 
where coalition bombing released nerve and sulfur mustard 
agents, largely because we had U.S. test data indicating how 
the agents would react when bombed or detonated.
    But we had significant uncertainties regarding how rockets 
with chemical warheads would have been effected in open pit 
demolitions. We also were uncertain about the events and the 
pit and the weather.
    When I was appointed and discovered these uncertainties, we 
created what I called the milk carton announcement, the 
picture, if you recognize this child, please call this number. 
We showed pictures of the pit and said please call this number. 
We got three additional soldiers that were part of the 
demolition.
    We conducted several interviews with then five soldiers 
about the demolition and learned that we should only focus on 
the 10 March date.
    We developed tests with DoD at Dugway to destroy rockets 
containing CW agent simulants in a manner that the soldiers 
described to provide data on agent reaction in open pit 
demolition.
    And a panel of meteorological experts hosted by the 
Institute for Defense Analysis recommended using several 
mathematical models and modelers to address uncertainties.
    Did these efforts eliminate all uncertainties? Absolutely 
not. In fact, prior to publishing the results of the modeling, 
we published on and commented on our continuing uncertainties. 
We had reduced them, but they were still there.
    Also, the Presidential Advisory Committee had become 
inpatient with the time we were taking to try to reduce the 
uncertainties and basically told us if we did not model in the 
very short term, they were going to draw a circle around 
Khamisiyah and be done with it.
    Of course, epidemiologists should have ascertained whether 
veterans reporting illnesses were clustered in areas around 
Khamisiyah during the appropriate time frame. They did not need 
a model or a circle to do that, but they did need troop 
locations. And the work on the model required DoD to ascertain 
those locations.
    When we briefed the modeling conclusions in 1997, I noted 
even then with the uncertainties above we assessed the models 
would provide meaningful information to epidemiologists, but we 
did not intend the model area to be used to estimate the 
absolute number of troops exposed to CW agents.
    Subsequent to 1997, CIA obtained additional information and 
was able to provide DoD better data.
    Additional UNSCOM information from a 1998 inspection 
indicated that the maximum amount of nerve agent released was 
about half that modeled in 1997.
    Then we had a CIA sponsored analysis of daytime Sarin and 
Cyclosarin degradation that helped.
    And finally an interview with the senior explosives 
demolition expert at Khamisiyah helped with understanding the 
placement of the charges was less than optimal.
    In 2000, DoD remodeled the Khamisiyah pit and the plume was 
about half the size of what we thought it was in 1997.
    Did new information change other efforts? Yes, it did. But 
even in those efforts, it ended up reducing the amount of agent 
released, not increasing that agent released.
    I see that I am out of time. Let me just conclude by saying 
a couple of points.
    Intelligence and UNSCOM information provide no basis for 
suspecting that stores of undiscovered munitions of both agent 
were damaged during the Gulf War.
    We assessed that additional Gulf War era releases of 
chemical agents large enough to threaten exposure to U.S. 
troops are unlikely, although additional small chemical 
releases are possible. The extent of previous modeling leads us 
to conclude that other unmodeled CW releases were too small and 
distant to expose troops.
    In our review of intelligence reporting analysis of Iraq's 
chemical agent stockpiles, we found no credible evidence of CW 
use against U.S. troops in the Desert Storm timeframe.
    In conclusion, I want to reiterate the intelligence 
community's commitment to the men and women who served in the 
Persian Gulf as well as those who serve our country in the 
world today. Intelligence support to help our soldiers and 
veterans is critical.
    Thank you.
    [The prepared statement of Mr. Walpole appears on p. 58.]
    Mr. Mitchell. Thank you.
    Dr. Postlewaite.

               STATEMENT OF R. CRAIG POSTLEWAITE

    Dr. Postlewaite. Good morning, Mr. Chairman and 
distinguished Members of the Committee. Thank you for the 
opportunity to visit with you today about the DoD's Gulf War 
Veterans Research Program.
    During the war, which I will refer to as the Gulf War, 
nearly 700,000 troops were deployed to the theater. The 
mortality rates from diseases and non-battle injuries were the 
lowest for any major U.S. conflict up to that date.
    However, beginning while they were deployed or after 
returning from the war, some veterans developed chronic 
symptoms of a nonspecific nature, such as fatigue, memory loss, 
difficulty concentrating, pains in muscles and joints, 
headaches, depression, and anxiety.
    The Department of Defense agrees that these symptoms are 
real and that those veterans affected by them, such as Mr. 
Bunker, deserve the best care and treatment available.
    The Departments of Defense and Veterans Affairs each 
established clinical evaluation programs to better understand 
the nature of these nonspecific symptoms and to provide our 
veterans with the appropriate treatments.
    In 2002, the Departments of Defense and Veterans Affairs 
collaborated on the development and implementation of a 
clinical practice guideline for medically unexplained symptoms 
of chronic pain and fatigue.
    Today, this clinical practice guideline remains a 
cornerstone of effective medical assessment and management, 
including treatment, for these conditions.
    Since 1994, the Departments of Defense, Veterans Affairs, 
and Health and Human Services (HHS) have managed a coordinated 
Federal medical research effort to better understand the health 
concerns of Gulf War veterans.
    From 1992 to the end of 2007, $340 million was spent on 345 
research projects. Of this, the Department of Defense funded 
177 projects totaling $219 million. The projects supported five 
research areas, brain and nervous system function, symptoms and 
general health, immune function, reproductive health, and 
environmental toxicology.
    Among the 345 research projects were several treatment 
studies. One study indicated that cognitive behavioral therapy 
and aerobic exercise led to modest improvements in memory 
problems, pain, and fatigue.
    A second controlled clinical trial used a 12-month course 
of an antibiotic known as Doxycycline to treat the same three 
symptoms. Doxycycline, however, was not effective in its 
treatment of these symptoms.
    In 2006, the Institute of Medicine concluded that there 
were no differences in overall mortality or hospitalization 
rates in Gulf War veterans compared to nondeployed veterans nor 
were there any differences in overall cancer rates between the 
two groups. They also determined there was no pattern of higher 
prevalence of birth defects in the children of male or female 
veterans of that war.
    The Institute of Medicine did, however, conclude that Gulf 
War veterans might be at a twofold increased risk of ALS or Lou 
Gehrig's disease, as we have heard, compared to those veterans 
who did not deploy.
    Almost all of the previous studies have shown that Gulf War 
veterans reported nearly twice the rate of all medically 
unexplained symptoms compared to servicemembers who did not 
deploy.
    However, based on many research studies, the Institute of 
Medicine concluded there was no unique symptoms, no unique 
pattern of symptoms found in Gulf War veterans.
    In 2006, the Institute of Medicine recommended that in 
general, no further epidemiologic studies should be performed 
on Gulf War veterans.
    The Institute did recommend, however follow-up studies for 
mortality, cancer, particularly brain cancer and testicular 
cancer, ALS, birth defects, and other adverse pregnancy 
outcomes, and for psychiatric conditions.
    In fiscal years 2006 to 2009, the Department of Defense 
funded $23 million specifically for research on illnesses, 
including $8 million in 2009.
    In conclusion, since 1992, the Department of Defense has 
funded extensive medical research focusing on the nature of 
medically unexplained symptoms and potential risk factors, 
including environmental exposures, and for studies on improved 
diagnostic techniques and treatments.
    These studies have provided critical new information useful 
in preventing or minimizing illness and injuries of 
servicemembers who have deployed to the current conflicts in 
Iraq and Afghanistan.
    After the military mission itself, the highest priority in 
the Department of Defense is for the protection of the health 
of the men and women in uniform and the provision for care for 
those who become ill or injured.
    Mr. Chairman, I thank you for the opportunity to discuss 
the Department's research program with you this morning.
    [The prepared statement of Mr. Postlewaite appears on p. 
63.]
    Mr. Mitchell. Thank you.
    Dr. Deyton?

            STATEMENT OF LAWRENCE DEYTON, MSPH, M.D.

    Dr. Deyton. Good morning, Mr. Chairman, Dr. Roe. Thank you 
for this opportunity to discuss VA's research and programs to 
care for veterans of Operations Desert Storm and Desert Shield.
    I am here today, as you know, with Dr. Joel Kupersmith, who 
is our Chief Research and Development Officer, also Dr. Mark 
Brown, who is Director of our Environmental Agents Service, and 
also Dr. Han Kang, who is Director of our Environmental 
Epidemiology Service, who is sitting behind us.
    As you know, Dr. Kang really is one of the world's leaders 
in the epidemiology of deployment and military populations.
    Mr. Chairman, within months of their return from service, 
some Gulf War veterans began to report a wide array of symptoms 
and illnesses. Then and today those veterans, their families, 
and VA health care providers continue to be concerned about the 
cause of these symptoms and how they may be related to their 
service. Those veterans' symptoms and their concern was also 
VA's call to action.
    Today, my colleagues and I would like to talk with you 
about VA's multifaceted research and clinical care programs 
targeted to support these veterans.
    More than 335,000 Gulf War veterans have come to VA for 
health care services. The majority of these veterans have come 
for routine health care, but some have had symptoms and 
illnesses that despite thorough examinations have eluded easy 
diagnosis.
    We have been, and continue to be, very concerned about 
these unexplained medical symptoms and illnesses. VA 
researchers, VA health care providers, and VA leaders have 
responded in a variety of ways to these veterans' health issues 
initiating research, clinical programs, education programs, and 
providing for service-connected benefits for these veterans.
    After combat in the Gulf War, VA along with DoD and HHS has 
engaged in an aggressive research and epidemiology program with 
one goal, to understand the complaints and symptoms of these 
veterans in order to deliver to them the best possible care.
    In between 1992 and 2007, 345 research projects related to 
the health problems affecting Gulf War veterans have been 
funded at nearly $340 million devoted to the efforts.
    But, Mr. Chairman, research is just the first step of the 
process. By turning that information into action, VA directly 
used what was learned from research to improve the care of 
these veterans.
    VA health care providers received training in addressing 
the specific health care needs of Gulf War veterans, including 
these difficult to diagnose illnesses.
    From our clinical practice guidelines for Gulf War veterans 
to our veterans' health initiative study guides, and other 
activities outlined in my written testimony, we are increasing 
the expertise of our primary care physicians and delivering the 
best possible care to these veterans.
    In addition, VA established the War Related Illness and 
Injury Study Centers specifically to provide specialized health 
care for combat veterans who experience difficult to diagnose 
or undiagnosed but disabling illnesses.
    In addition, VA's post-deployment integrated care 
initiative is establishing post-combat care teams to integrate 
the many services required to target returning soldiers' needs.
    I want to close, Mr. Chairman, with a recognition that we 
as a nation, and VA as the tool of a grateful Nation, continue 
to look for ways to improve how we can best support our 
returned and returning soldiers.
    I am pleased to tell you that Secretary Shinseki has 
challenged VA to become an even better advocate for the 
veterans we serve.
    The system for assessment of long-term health effects of 
deployment and the process for consideration of presumptive 
service connection for those health effects are based on the 
scientific method for collection and assessment of a large body 
of research which emerges slowly.
    The considerations of cause and effect of veterans' health 
concerns are sometimes not immediately obvious. Thus, we rely 
on the collection of scientifically validated data, convening 
experts, and at some point concluding if a positive association 
exists between the occurrence of an illness and some aspect of 
military service. The positive association is a term Congress 
asked us to use in making these determinations.
    I think that we can all agree with Secretary Shinseki's 
assessment that the current procedures allows the objective 
scientific method to be our guide and that our decisions must 
be based on good science, that the scientific process as is now 
used can take years or decades to come to conclusion if a 
positive association exists between an illness and some aspect 
of military service.
    And although veterans with deployment-related health 
concerns can and do receive their health care from VA during 
those years and decades, for each veteran who feels he or she 
suffers from a condition related to their military service, 
that wait for the scientific process to confirm what she or he 
already suspects is intolerable.
    The amount of time this process takes is both intolerable 
to veterans and places VA in an unnecessarily adversarial role 
with the very people for whom we are entrusted to provide care 
and comfort.
    Thus, the Secretary has charged us to transform VA's 
process for determination of presumptive service connection 
into one that is based on good science, is substantially 
faster, and makes VA an advocate for veterans.
    At his direction, we are working rapidly to assess the 
legal, regulatory, and scientific methods with which we can use 
to meet this charge. Meeting Secretary Shinseki's charge gives 
us all the opportunity to strengthen VA's mission and to 
fulfill our collective promise to our Nation's veterans.
    Thank you very much, Mr. Chairman. We will be happy to take 
your questions.
    [The prepared statement of Dr. Deyton appears on p. 68.]
    Mr. Mitchell. Thank you.
    The first question I have is to all three gentlemen who 
have made a statement this morning. I would like to ask all of 
you, do you acknowledge that the Gulf War illness is a real 
major health threat affecting at least one in four Gulf 
members?
    Let us start with you, Mr. Walpole, and then Dr. 
Postlewaite and Dr. Deyton.
    Mr. Walpole. I do not see that as an intelligence question. 
I mean, I do not have expertise to even address that kind of 
issue. I am sorry.
    Mr. Mitchell. So you have no opinion on whether or not Gulf 
War illness is real or not?
    Mr. Walpole. Well, I might have a personal opinion on it. 
But since I am representing an intelligence organization, that 
probably does not matter.
    Mr. Mitchell. Okay. Dr. Postlewaite?
    Dr. Postlewaite. Yes, sir. We do believe that Gulf War 
illnesses are real as was indicated in my testimony. We believe 
that the latest study that was published on health conditions 
in Gulf War in April 2009 that reported significantly higher 
rates, 25 percent above those who were nondeployed is a good 
estimate of the prevalence, yes, sir.
    Mr. Mitchell. And, Dr. Deyton.
    Dr. Deyton. Yes, sir. VA has recognized for over 15 years 
that the basic fact that continues to be confirmed as recently 
as Dr. Kang's most recent publication, there does exist a 
significantly higher rate of unexplained multi-system illnesses 
among deployed veterans who served in these conflicts when 
compared to nondeployed veterans.
    Mr. Mitchell. Dr. Postlewaite, in your testimony, your 
written testimony, it says in 2006, the IOM recommended that 
further epidemiological studies should not be performed.
    And do you concur with that? The first panel says they 
should be.
    Dr. Postlewaite. Yes, sir. I said in general should not be 
performed and should be concentrated on areas like mortality 
and cancer, certain psychiatric conditions. We concur with 
that.
    DoD actually does have an epidemiologic study, perhaps you 
have heard of it before, called the Millennium Cohort Study. It 
has been going on for a number of years. There are about 9,000 
Gulf War veterans in that particular study that we continue to 
monitor their health.
    Mr. Mitchell. Okay. Mr. Walpole, the CIA models are the 
foundation for DoD's determination that the Gulf War veterans 
were not exposed to various chemicals, pesticides, and so on. 
Is that correct?
    Mr. Walpole. Were not exposed?
    Mr. Mitchell. Yes. The models that you used.
    Mr. Walpole. The CIA participated in the DoD modeling, 
provided information on where releases might have occurred. But 
in the case of Khamisiyah, we felt that troops would have been 
exposed or were likely to have been exposed.
    Mr. Mitchell. Okay. One of the things I find interesting in 
some of the papers I have in front of me, you stated that there 
was uncertainty with the models. There were inaccurate logs for 
very important dates and still today continuing uncertainties.
    If you were a Gulf War veteran, would you want the basis of 
your health care benefits after serving selflessly to be based 
on uncertainty?
    Mr. Walpole. I would not. And I would say to those veterans 
that modeling is only part of a larger equation. I think the 
public would expect us to model potential terrorist, 
biological, or radiological effects knowing that those models 
are only part of a larger equation to protect the Nation.
    It is also the case here. Those models are only part of the 
equation. As I said in my opening remarks, we did not intend 
for that modeling effort to be an estimate of the absolute 
number of troops that were exposed.
    Mr. Mitchell. Okay. Dr. Postlewaite, in view of all the 
scientific evidence compiled by the RAC report that 
pyridostigmine bromide was a causal factor, has DoD made any 
change in its policy regarding the use of PB?
    Dr. Postlewaite. Sir, we have not made any changes in the 
use of PB. We view that as a very, very important tool in our 
armamentarium to protect our troops against nerve agent 
exposure.
    The only change that we have made is that we are better at 
our documentation now for all force health protection 
prescription products so that we can track who was given these 
medications so that if we ever need to go back and do an 
analysis, we will have better data.
    Mr. Mitchell. Thank you.
    My time is about to expire, so I would like to defer to Dr. 
Roe. Then I have a few more questions.
    Dr. Roe.
    Mr. Roe. Thank you, Mr. Chairman.
    Just a couple of questions. One is why was Doxycycline 
used? That sounds sort of goofy to me.
    Dr. Postlewaite. Yes, sir. Let me explain that. That is a 
good question.
    The reason it was chosen was that there were some 
indications that our deployed personnel may have been exposed 
to mycoplasma based on serologic studies, sir, which you will 
understand. And it was decided that that was the best 
indication of a potential infectious agent. And so Doxycycline, 
which is effective for mycoplasma, was chosen.
    Mr. Roe. So that is why initially these symptoms were 
thought possibly related to mycoplasma?
    Dr. Postlewaite. I am sorry, sir?
    Mr. Roe. The initial symptoms were thought to be related to 
mycoplasma.
    Dr. Postlewaite. Well, it was one of the theories, one of 
the possibilities. In terms of nondescript symptoms, it seemed 
to fit.
    Mr. Roe. It obviously was not correct, but I can understand 
it.
    Now, in your testimony, the Institute of Medicine, it 
sounded like it contradicted what Dr. Steele said just a minute 
ago, that there was not, their conclusion, there was no Gulf 
War Syndrome. Am I correct on that?
    Dr. Postlewaite. That there was no Gulf War illness?
    Mr. Roe. Syndrome, yes.
    Dr. Postlewaite. Let me clarify, sir. No Gulf War syndrome. 
They found no unique pattern of symptoms, no unique set of 
symptoms. They acknowledged that the symptoms were there, but 
they varied among different people who were ill. And there was 
not a preponderancy of a group of symptoms that would indicate 
a syndrome.
    Mr. Roe. I think one of the things that I have done over 
the years as a physician, and I am sure you have, too, is that 
when I have a patient that comes to me, and, of course, that is 
different than all the epidemiologic, the way I look at it is I 
am to prove you do not have something. When you come to me and 
give me your symptoms, I am going to try to figure it out and 
prove you do not have it and I am going to assume you do.
    And just a couple of things that come to mind is that I 
have had patients, I have practiced over 30 years in Johnson 
City, Tennessee, and I would see patients with vague symptoms 
and I would see them back again another year and I would see 
them back another year and then it dawns on you at 10 years 
they have MS. And it took you that long to finally figure it 
out.
    And I think that these studies should go on because you do 
not know the long-term effects of these conditions and what 
they are ultimately going to be.
    I was interested especially in ALS and brain cancer data, 
not that it increased, but was it a statistically significant 
increase. That is very, very important. I know a lot of people 
do not--if you have it, it is a hundred percent. I understand 
that. But when you are dealing with hundreds of thousands of 
people, a few more may not range outside the standard 
deviation.
    Dr. Postlewaite. Yes, sir.
    Mr. Roe. Have you looked at that? I asked Dr. Steele that 
and she is shaking her head no.
    Dr. Postlewaite. Well, we agree that looking at this data 
over the long term is important.
    And the Institute of Medicine will begin a study here in 
2009, in fact, I think they had their first public meeting on 
it already, to review all the health outcome data once again to 
see if there is anything that has transpired looking at all the 
research studies that have happened in the interim.
    So we continue to say, yes, let us relook at this. We have 
got our Millennium Cohort Study within DoD. We are not 
intending to sweep this under the carpet and make it go away.
    Mr. Roe. And I have had, I guess, a couple of other things. 
Wasn't Sarin gas used in Japan?
    Dr. Postlewaite. Yes, sir.
    Mr. Roe. Has anyone studied that population?
    Dr. Postlewaite. They have. There have been a number of 
studies that have----
    Mr. Roe. What has that shown?
    Dr. Postlewaite. Well, it has shown that these individuals 
who experienced acute symptoms at the time of exposure did have 
some long-term health effects.
    The thing that is missing here with our Gulf War situation, 
as Mr. Walpole talked about the modeling, we have no indication 
of any of those troops that may have been under those plumes 
that were modeled, that any of them experienced any acute 
symptoms of Sarin exposure or Cyclosarin.
    Mr. Roe. Well, I think we just had testimony a minute ago 
that someone did. I mean, I think Mr. Bunker just said he had--
I think he was documented to have seizures and so on. That 
would seem to me to be symptoms.
    Dr. Postlewaite. We have not been able to link that with 
the actual exposure, sir. I am not controverting his testimony 
at all that he may have had seizures. As you know, there are a 
lot of different reasons for seizures.
    We have been unable to link the Khamisiyah event with the 
kind of health effects that we would see in the group in Japan 
that had the acute health effects.
    Mr. Roe. And I think the other thing, I think this does 
scream for an electronic medical record where you can more 
accurately follow these. This is a fascinating epidemiologic 
study and I certainly 100 percent agree that we need to be sure 
that we err on the side of taking care of our veterans. And I 
know everyone in this room believes that.
    Mr. Chairman, thank you for holding this Committee hearing 
and I look forward to the next two.
    Mr. Mitchell. Thank you.
    I just would like to ask a few more questions and you can 
join in also.
    I want to get this straight, Mr. Walpole. The CIA's models, 
were they, and I think I asked this and maybe I did not quite 
hear it right, were they the foundation for the DoD's 
determination about Gulf War veterans who were not exposed? 
What was the modeling that the CIA did and who used that model 
after you created the model?
    Mr. Walpole. Yeah. We modeled several different places. We 
modeled the bunker at Khamisiyah and it appeared that with that 
model, even using the 1997, 1996 data, did not reach troops. 
When we got better information, it was even less in the plume, 
so it would not have reached troops.
    We modeled the pit at Khamisiyah. We modeled Al Muthanna 
and Muhammadiyat and the Al Muthanna, Muhammadiyat cases would 
not have reached troops. The only case where the modeling 
suggested that troops would have been exposed was the 
Khamisiyah pit.
    Now, we participated in the pit modeling and then the 
remodeling of Al Muthanna and Muhammadiyat with DoD with the 
new information, so, yes, they would have used that 
information.
    Is that what you were getting at?
    Mr. Mitchell. I want to ask, do you think this model, the 
criteria of the modeling you used is a good model? Would you 
use it again, because I keep hearing that there were 
uncertainties, there were incomplete data?
    In fact, in the report I saw here that in 1993, DoD and CIA 
concluded that no troops had been exposed. Then in 1996, the 
CIA released a report that says they may have been exposed. And 
then in 2004, the Government Accountability Office report, they 
cannot adequately support. This leaves an awful lot in the air 
about the modeling.
    And I am just curious. Are you going to continue to do 
this?
    Mr. Walpole. Well, as you noticed, in 1995 is when CIA 
began to become very involved in this effort. So I am not going 
to comment on the 1993. But post 1995, did the modeling at the 
Bunker 73, 1996, and it blew away from the troops. So, I mean, 
that one is fairly easy. I am not concerned about the model 
there.
    The Khamisiyah pit event was the one I talked about in 
terms of the uncertainties. In 1997, and then again in 2000, we 
are trying to model something that happened in the past. We did 
not have complete weather information. We did not have complete 
plume information. We had soldiers telling us how they thought 
they placed the charges and so on. There are uncertainties 
involved in that.
    But we felt that that was providing a tool to 
epidemiologists to work the issue, a better tool than simply a 
circle drawn around Khamisiyah. It would have been a lot less 
work for us, but it is only an input to a larger equation in 
the picture because as you study this, as somebody studies the 
symptoms the soldiers are reporting, if a cluster is noticed 
within one of these plumes or even off to the side of one of 
the plumes, that would tell you some important information from 
an analytical perspective.
    So we were trying to put together that modeling to help 
simply in that regard, but not to estimate the absolute number 
of troops that were exposed.
    Your last part of your question was, would we use modeling 
today. Absolutely. We continue to use modeling. We have to 
model potential effects for if a terrorist does something 
somewhere not because that model itself is going to stop the 
terrorist threat but because it helps us prepare for managing 
consequences, so on. So, yeah, we will continue to model.
    Mr. Mitchell. Dr. Postlewaite, knowing the uncertainties 
with the models that the CIA has, what would you base your 
recommendations on now?
    Dr. Postlewaite. For that event, sir, for the----
    Mr. Mitchell. Well, any future ones. We wanted to go 
forward too.
    Dr. Postlewaite. Well, yeah. That is a very good question.
    Mr. Mitchell. Would you need more information from the 
field----
    Dr. Postlewaite. Yes, sir.
    Mr. Mitchell [continuing]. Continually, weather and all the 
things that go into it which----
    Dr. Postlewaite. Yes, sir.
    Mr. Mitchell [continuing]. You did not have before?
    Dr. Postlewaite. We would want to reduce that uncertainty 
and the factors that Mr. Walpole just indicated. And based on 
the lessons learned from the 1991 Gulf War and other conflicts, 
I can assure you that our environmental surveillance program is 
much strengthened over what existed in 1991.
    We have, for example, collected over 11,000 air, water, and 
soil samples in the theater. We know the conditions, 
environmental conditions there in some cases better than we 
know here in certain areas of the United States. We have got 
better documentation so that that data is retrievable and it 
can be analyzable.
    We can reduce the uncertainties that Mr. Walpole spoke 
about. We have got better instrumentation, better trained 
individuals in theater to monitor that.
    Mr. Mitchell. One of the things mentioned by one of the 
first panelists was that if you go to the VA, they do not even 
have records of where some of these soldiers served.
    So even if you had all that information, if there is no 
record that goes on to VA, which should be a part of their 
record, there we have another conflict and a dispute.
    Dr. Postlewaite. Your point is well taken, sir, and we are 
working hard to correct that.
    Three years ago, we put into policy a requirement that each 
deployed troop will have a daily location documented when 
deployed. There is a system out there called the DTAS or the 
Deployment Theater Accountability System that is being 
populated as we speak. Services have had a couple years to 
implement this.
    As we move forward, we are going to have much better data 
on location of our troops. We want to link that with our 
electronic medical record as well and we want to make that 
available to the VA in the future.
    Mr. Mitchell. Terrific. Thank you.
    Dr. Roe.
    Mr. Roe. I will just ask a couple real quick questions. One 
is the PB and pesticides, according to Dr. Steele's testimony, 
she feels like through her research that this is causative in 
Gulf War syndrome. Do you agree with that?
    Dr. Postlewaite. No, sir, we do not.
    Mr. Roe. You do not agree with that? Why do you not? Why 
don't you?
    Dr. Postlewaite. We ascribe to the Institute of Medicine's 
extensive review on all of the exposure agents, including PB 
and pesticides.
    We know that the data is conflicting. We know there are 
lots of confounders in the studies. We know that it is open to 
interpretation.
    We feel that the Institute of Medicine is the preeminent 
medical institute and group in this country. We rely on their 
expertise and their conclusions and we feel like their 
assessment was complete.
    Mr. Roe. Now we are getting down to it. We have two 
separate, I thought that is what I heard you say, so we have 
got Dr. Steele who feels like that through her research that 
she has nailed down the causative agents in this problem and 
the Institute of Medicine, IOM, says no, their data does not 
support that.
    Now, I have got to obviously dig a little deeper here and 
read this because I will read these papers before the next 
meeting to come to some conclusion of my own.
    So the military, you would still recommend using the PB and 
not atropine?
    Dr. Postlewaite. Yes, sir. When we need to use PB for the 
safety of our troops, operational commanders will indicate when 
it should be used.
    Mr. Roe. Even with this potential risk? Of course, 
obviously risk of dying of a nerve gas right then, you do not 
have much choice right there in the field.
    Dr. Postlewaite. Yes, sir.
    Mr. Roe. Thank you, Mr. Chairman. I yield to Congressman 
Walz.
    Mr. Mitchell. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you, all of you, for the work you have done.
    This one, Mr. Walpole, a question to you. Can you explain 
just briefly to me some of your modeling? Maybe take 
specifically the Khamisiyah pit. How did you do that? How did 
you model that?
    Mr. Walpole. I am going to let Larry Fox, who is much more 
closely associated with the model itself.
    Mr. Walz. Very good.
    Mr. Fox. It is important to understand that a lot of what 
CIA and the rest of the intelligence community did on this 
modeling effort was trying to determine from intelligence 
information how much agent was released and what were the 
actual circumstances out in the Gulf at the time.
    The actual modeling of the weather and the actual 
information that came out of that modeling was done primarily 
by DoD after 1997.
    So we worked really hard at trying to determine the actual 
amount released, the amount absorbed in by the wood, the amount 
that would degrade over time that was in the rockets.
    So we were trying to determine to the best of our knowledge 
what were in those rockets, what happened to the agent right 
after it was released, understanding that there is no way to 
perfectly know that because the only way to know exactly what 
happened downwind at that time would be to have an actual 
contemporaneous sensor, you know, collecting----
    Mr. Walz. Did you change your modeling variables to 
indicate what would happen? How much of a change would it take 
in the variables to have a dramatic change in exposure?
    Mr. Fox. Quite a bit to be honest. We changed the inputs 
from 1997 to 2000. And the reason we changed it was based on 
information that we got in 1998 about the actual placement of 
charges and things like that that were different than what we 
had learned and information we got about the agents.
    So it was a factor of too small and subsequently the plume 
that was modeled was a factor of too small. But that is still 
small in comparison to the uncertainty in the weather and the 
winds and things like that.
    So our input, I think, is a small factor in the overall 
uncertainty on where this agent went. It is more typical things 
with weather and understanding where the winds blew the stuff 
is a larger uncertainty.
    Mr. Walz. So you are pretty confident in your modeling? I 
mean, they were confident enough that Mr. Herbert received a 
letter from DoD that said, however, our analysis shows exposure 
levels have been too low to indicate any symptoms that you may 
be experiencing. I mean, they were confident enough in their 
modeling that they sent a letter out to a veteran who was at 
Khamisiyah and said, nope, do not worry about it.
    Are you that confident in the modeling? Even though you 
said you went back in and changed them from 1997 to 2000, 
should--did you get an update on this, by the way?
    Mr. Herbert. I got a follow-up letter.
    Mr. Walz. That said that the new modeling----
    Mr. Walpole. Yeah. Actually, as I indicated in my written 
statement, I indicated in the beginning here and I have also 
said in one of the questions, in participating in this modeling 
activity, we did not intend for this to estimate the absolute 
number of troops that were exposed. The uncertainties that we 
described here, I mean, where would you draw the line on, if I 
were sending the letter, who does and does not get a letter? So 
that was our view from the beginning.
    Mr. Walz. Okay.
    Mr. Fox. I think it is important to note that I think there 
is in the remodeling that happened from 1997 to 2000, the 
position of where the troops were was better refined. I do not 
want to speak for DoD, but there were other things that ended 
up causing 30,000 veterans to get a letter that said, well, we 
thought you might have been exposed before, but now we do not 
think you were exposed. Those are, I think, the letters you are 
talking about.
    Mr. Walz. Yeah.
    Mr. Fox. In addition, though, 30,000 people that previously 
had not gotten a letter then got a letter. And so it is not 
that we do not think anybody was exposed anymore. It is these 
potential exposure letters that went out changed based on 
refinements in the models.
    Mr. Walz. Okay. Thank you.
    Dr. Deyton, just one for you. Do you know how many veterans 
receive compensation for Gulf War-related symptoms?
    Dr. Deyton. Sir, I do not. But we are happy to go back and 
ask our colleagues in VBA, the benefits side, to give us the 
most updated number.
    [The VA supplied the information in response to Question #2 
in the Post-Hearing Questions and Responses for the Record, 
which appears on p. 88.]
    Mr. Walz. Do you know how many are on the registry then or 
is it the same thing?
    Dr. Deyton. About 111,000 are on the registry.
    Mr. Walz. When it was characterized earlier by one of our 
representatives from one of our veterans service organizations 
as an e-mail list more than a registry, do you think that is a 
fair characterization?
    Dr. Deyton. It is a great communication tool. It is 
important to reach out to these veterans and their families and 
communicate to them what we know and as the medicine and 
science evolves----
    Mr. Walz. But it is not necessarily being used as a 
research base or universe of research?
    Dr. Deyton. I would never characterize the registries as an 
adequate research base. We do collect information, absolutely, 
and that information is likely useful for that individual 
veteran's clinician. When we want to amass a population base, 
we have to go to good standard epidemiology studies like Dr. 
Kang does.
    Mr. Walz. Very good. Thank you for your time.
    I yield back, Mr. Chairman.
    Mr. Mitchell. I would just like to ask, if you do not mind, 
just a couple more questions to Dr. Deyton.
    First of all, how does the VA train its health care 
providers to address the Gulf War veterans and their 
unexplained illnesses or symptoms? And would you agree that 
training material needs to be dramatically revised?
    Dr. Deyton. We do have multiple training materials, 
including a self-guided tool, the Veterans' Health Initiative 
which focuses on many aspects of deployment-related health. 
There are also individual sessions and trainings for providers.
    And I am a practicing physician, too, and I think education 
and training for front-line providers always can be improved. 
As the science and medicine evolves, these kinds of materials 
have to be updated as new diagnostics and new potential 
treatments are discovered. Updating is always very important. 
So I agree, absolutely, that updating is a positive thing to 
do.
    Mr. Mitchell. Kind of a follow-up with that is how do you 
propose to change the culture so that the health care providers 
that are in the field are administering care and reassuring the 
Gulf War veterans that they are not crazy and their complaints 
are surrounded by some facts?
    Dr. Deyton. I think Dr. Steele hit the nail on the head. 
This really is a complex set of illnesses and symptoms that 
requires a very intense set of diagnostics and a personal 
clinician-patient relationship.
    So the education and training we provide to our doctors, 
our nurses, our pharmacists, our social workers about what the 
medicine, what the science says about these syndromes is very 
important.
    I think we need to continue to update those educational 
guides. Changing the culture, I think, is, as several Members 
have said today, a very important thing.
    And I think Secretary Shinseki has set us on a very 
important new course that I alluded to at the end of my opening 
statement and that is to look at the process that we use for 
determining presumptive service connection and the scientific 
evidence and base of that and determine ways to make that more 
rapid and, in fact, change the culture of VA so that VA becomes 
much more an advocate for our veterans as opposed to the 
current process which, granted, based in good science, but puts 
VA in an uncomfortable adversarial relationship with the men 
and women who, quite frankly, we are dedicated to serve.
    So as we move into that set of discussions with the 
Secretary, I know he will want to come back to this Committee 
and talk about how he is going to be doing that and if there is 
any need for legislative change or remedy to move us into that 
direction.
    Mr. Mitchell. Thank you.
    Does any other Member have any other comments?
    Mr. Roe. One brief comment, Mr. Chairman.
    One of the things I think it is very important to continue 
to study the natural history and epidemiology of, this is what 
patients of mine fear, the unknown, if you do not know what is 
going to happen to you.
    You can prepare for the known. If you know you have cancer 
of the thyroid, you can prepare a treatment plan and take care 
of it. I think the problem here is the unknown or what is going 
to happen to me over time.
    And I think that is why it is extremely important because 
right now we do not know. Maybe the Institute of Medicine is 
right. Maybe Dr. Steele is right. I do not know the answer.
    But I know that continued studies is absolutely essential 
to find out what is going to happen because I think if I am a 
veteran out there and I have been exposed, what is going to 
happen to me and my family. Well, we know birth defects are not 
higher. You do know that. That is a known. You can tell 
someone. Do not have to worry about that. But there are some 
other things that are unknown.
    So I would just simply, just a personal viewpoint there, 
would continue to study this problem.
    I yield back, Mr. Chairman.
    Mr. Mitchell. Yes.
    Dr. Deyton. May I respond?
    Dr. Roe, you are absolutely correct. And the power that 
again several of the panel members have spoken about, the power 
of the electronic health record, the linkage, the much better 
granular linkage with the Department of Defense medical and 
deployment record is huge in terms of our power to predict and 
to understand the evolving nature of these health risks.
    So by doing what I call population-based surveillance and 
epidemiology, we hope to be able to identify trends much, much 
earlier in the process and then act on those trends to improve 
and target our veterans' health before bad things really 
happen.
    Mr. Mitchell. I want to thank all of you for being here 
today and all of your service to our veterans and to this 
country.
    Just one last comment, and I know this is a real 
generalization. But when I was Mayor of the city that I was in, 
we decided to self-fund our health care and--well, all of our 
liabilities, not health care.
    And so we hired a risk manager. And, of course, what he did 
automatically, any claim that came in was no and then you had 
to appeal it. This saved the city a lot of money, but it was 
not always the best thing and right thing to do.
    And sometimes I get the feeling that either the DoD or VA, 
it is very easy just to say no and let people appeal it. And I 
really am very pleased to hear, Dr. Deyton, your comment about 
we need to be more of an advocate instead of an adversary for 
veterans because that is exactly what I would hope the VA is 
about. And I think that is what all of us agree with.
    So I want to thank all of you for appearing today, our 
first panel as well as our second. And this is just the first. 
We are going to have a series of hearings so we can look at the 
methodology and how we are arriving at this because there are a 
lot of people that when it gets to the human side that are 
really affected way after the studies come out and it may too 
late.
    Thank you very much, and this concludes the hearing.
    [Whereupon, at 12:09 p.m., the Subcommittee was adjourned.]
















                            A P P E N D I X

                              ----------                              

               Prepared Statement of Hon. Harry Mitchell,
         Chairman, Subcommittee on Oversight and Investigations
    Thank you to everyone for attending today's Oversight and 
Investigations Subcommittee hearing entitled, Gulf War Illness 
Research: Is Enough Being Done?
    We meet today to shed light on a topic that is critically important 
to the House Committee on Veterans' Affairs: The health and care of our 
Gulf War veterans.
    This hearing is not the first to address Gulf War Illness, and it 
certainly will not be the last. Today's is the first in a series of 
Oversight and Investigations Subcommittee hearings examining the impact 
of toxin exposures during the 1990-1991 Persian Gulf War and the 
subsequent research and response by government agencies including the 
Departments of Defense and Veterans Affairs.
    It has been almost 19 years since the United States deployed some 
700,000 servicemembers to the Gulf in support of Operations Desert 
Shield and Desert Storm. When these troops returned home, some reported 
symptoms that were believed to be related to their service. Still 
today, these same veterans are looking for answers about proper medical 
treatment and the benefits that they bravely earned. While we hear 
about numerous studies and millions of dollars spent on Gulf War 
Illness research, many questions remain unanswered. In the end, we 
still don't know how to respond to Gulf War veterans who asks: ``Why am 
I sick or will I get sick?''
    Today, we will attempt to establish an understanding of the 
research that has been conducted--and the actions that have been 
taken--in relation to Gulf War Illness. To better assess Gulf War 
Illness and its impact on veterans, we will look at another at-risk 
population, veterans who were exposed to the harmful toxins Agent 
Orange in Vietnam. In the past, we have seen service-related illnesses 
ignored, misunderstood, or swept under the rug. We must learn from 
those mistakes and ensure that our research and conclusions are 
accurate so that Gulf War veterans are assured of the right diagnosis 
and the care and benefits they richly deserve.
    Subsequent hearings on this issue will take a multi-level view of 
the methodology and conclusions of Gulf War Illness research and how 
the review of information was compiled and why certain methods were 
employed.
    With a growing chorus of concern over the accuracy of existing 
research, and with a new Administration leading the VA, it is time for 
us to make a fresh and comprehensive assessment of this issue and the 
body of research surrounding it.
    We will hear testimony today from a Gulf War veteran, Veterans 
Service Organizations, two distinguished researchers from the Research 
Advisory Committee on Gulf War Illnesses, as well as government 
officials. I would like to thank all of our witnesses for appearing 
here today. I'd also like to extend my thanks to Jim Binns, who chaired 
the Research Advisory Committee on Gulf War Veterans' Illnesses, for 
his contributions to this hearing and this issue.
    I trust this hearing will provide useful insights to begin our 
evaluation of the existing research on toxic exposure and the work 
being done to care for Gulf War veterans and protect future generations 
of war fighters.

                                 <F-dash>
  Prepared Statement of Hon. David P. Roe, Ranking Republican Member,
              Subcommittee on Oversight and Investigations
    Thank you for yielding, Mr. Chairman.
    My understanding is that this will be the first in a series of 
hearings on Gulf War Illness to be held by our Subcommittee. It is my 
hope that we will not ignore other pressing oversight issues previously 
agreed upon in our Oversight plan in order to flush out issues already 
discussed previously by other Committees and Subcommittees over the 
past 12 to 13 years.
    This first hearing will focus on the historical context of the War 
in the Persian Gulf--Operation Desert Shield and Operation Desert 
Storm, which occurred from August 1990 through July 1991. This will be 
a review of the conflict and an overview of the types of exposures and 
assistance made available to veterans from that conflict. The Ranking 
Member of the full Committee, Congressman Steve Buyer of Indiana is a 
veteran of the Gulf War, and has invaluable historical and personal 
knowledge of the conflict and what Congress has done since the early 
1990's to assist veterans of the Persian Gulf. I am sure he will be 
watching these proceedings with great interest.
    Much of the historical background on Gulf War veterans can be found 
in the wealth of materials available through printed hearings held by 
the Committee, as well as the body of legislative work that has been 
done by Congress through the past two decades. Over the past 20 years, 
Congress has held numerous hearings and passed several public laws 
stemming back as far as the 103rd Congress to address the needs of 
these particular veterans. These efforts included mandating a study by 
VA through the non-partisan National Academy of Sciences (NAS) and 
their Institute of Medicine (IOM) on the effects of various chemicals, 
compounds, pesticides, solvents and other substances on humans, and in 
particular how these compounds may have affected veterans who 
participated in the Persian Gulf conflict.
    Ranking Member Steve Buyer led the efforts in the 105th Congress by 
offering an amendment which ultimately was included in Public Law 105-
85, the National Defense Authorization Act for Fiscal Year 1998. Mr. 
Buyer's amendment authorized $4.5 million to establish a cooperative 
DoD/VA program of clinical trials to evaluate treatments which might 
relieve the symptoms of Gulf War illnesses; and required the 
Secretaries of both the Department of Defense and the Department of 
Veterans Affairs to develop a comprehensive plan for providing health 
care to all veterans, active-duty members and reserves who suffer from 
symptoms of Gulf War illness.
    I have been informed that the authority to conduct the studies 
mandated in law to be completed by the National Academy of Sciences 
Institute of Medicine will expire this year. I believe this Committee 
should look at these hearings with an emphasis on whether the studies 
should be continued, and if so, what the parameters of any new studies 
on Gulf War Illness should be.
    I look forward to hearing from our panel of witnesses today, and am 
anticipating the next hearing in this series.
    Thank you again, Mr. Chairman and I yield back the balance of my 
time.

                                 <F-dash>
               Prepared Statement of Hon. Timothy J. Walz
    Chairman Mitchell, Ranking Member Roe, Members of the Subcommittee, 
and witnesses, thank you for being here for this important hearing, the 
first in a planned series. I am going to operate on the assumption that 
we are all here together in our commitment to those who serve our 
country in the military and become veterans to whom we owe an unpayable 
debt. And I am going to operate on the assumption that we all share the 
belief that our judgments about what we should do in order to seek to 
repay that debt we owe our veterans must be shaped by the best, most 
reliable knowledge and the most complete information possible, and that 
rigorous scientific research is a necessary repository of that 
knowledge and information. If I understand the nature of this series of 
hearings, we are looking into how the research that has contributed to 
policy decisions on Gulf War illness has been conducted, and to make 
our best judgments about whether it is as complete as it should be. 
This is, of course, a very controversial topic. But there is no need to 
attribute bad faith to anyone to have this controversy. Scientific 
research, like everything else, is a human endeavor. And it is an 
endeavor that is committed to endless assessment and reassessment. We 
are doing nothing other than that here. And I take it that is both in 
the spirit of science itself, and in the spirit of making sure we are 
best serving our veterans. Thank you.

                                 <F-dash>
           Prepared Statement of James A. Bunker, President,
    National Gulf War Resource Center, Topeka, KS (Gulf War Veteran)
    Mr. Chairman and Members of the Committee, on behalf of the 
National Gulf War Resource Center and myself, I would like to thank you 
for giving me time to address you about the issues of Gulf War illness 
and the problems we experience getting care and benefits from the 
Veterans Administration.
    First, let met take a moment to briefly provide background about 
myself and my interest in Persian Gulf Illness.
    I had a relatively normal childhood. In 1977, I completed high 
school in 3 years. In 1984, I received my Bachelor's degree in 
Mathematics with a minor in Psychology and Computers. Throughout my 
educational career, I had A and B's barely opening a book. I was able 
to retain most information from class lectures with ease and translate 
it to exams. Computers and math classes was the easiest for me. I 
started to play chess in the 7 grade and took part in chess 
tournaments.
    After teaching for a few years, I applied for and was accepted to 
Officer Candidate School where I was commissioned as a Field Artillery 
Officer. I then went to Fort Sill and received training in the Officer 
Basic Course for Field Artillery officers. As one of the top graduates 
of the course, I was brought on to active duty and given my choice of 
duty stations. I chose Fort Riley in Kansas and moved there in March 
1989.
    I deployed to the Persian Gulf with the Fourth Battalion--Fifth 
Field Artillery Regiment of the First Infantry Division commonly called 
``The Big Red One''. While in the war zone and right after the air war 
began, the M8 chemical alarms sounded. We were told it was a false 
alarm, an equipment malfunction. At the end of February, the Big Red 
One blew up a large Iraqi ammunition storage area in Safwah, about 30 
kilometers from Basrah. Not long after this I became very ill. I was 
having problems breathing, muscle twitches, and cramps in my legs, 
vomiting up everything, and then convulsing. I was treated for all of 
the now classic symptoms of nerve agent poisoning, including 
convulsions. Then, I was given the antidote for the nerve agent and 
medically evacuated to the 410th EVAC hospital. Then back to the States 
arriving at Ft. Riley on May 4th 1991.
    As time went on I started to have problems with my right leg. The 
army hospital at Fort Riley and army medical hospital at Fitzsimmons 
did many tests but could not find out why my leg was having the nerve 
problems. When my leg did not improve, I was sent before a medical 
evaluation board. While my records were before the board, I lost the 
use of my left arm, and being left handed, life became harder for me. 
The army did not seem to care about my arm problem as they only told me 
that when I got out, the VA would take care of it. I was medically 
discharged in June 1992.
    On 22 June 1992, I went to the VA for help with the many problems I 
continued experiencing since the war. Thus began the second phase of my 
life--the push for answers and recovery from what's now known as 
Persian Gulf Illness.
    Since the war, the symptoms I have experienced include:

    <bullet>  Numbness, weakness, and/or tingling in arms and legs
    <bullet>  Headaches
    <bullet>  Cognitive dysfunction
    <bullet>  Gastric reflux disease
    <bullet>  Fibromyalgia
    <bullet>  Mouth sores and skin peeling from roof of mouth
    <bullet>  Skin rashes
    <bullet>  Sinusitis

    The right hip pain wakes me up every 2 hours almost every night. As 
I lay in bed with these problems, I have trouble with both of my arm 
having that ``falling to sleep'' numbing feeling. All of these greatly 
limit my activities and contribute to my desire to ensure that this 
issue is addressed and a cure is found.
    It is hard to live a life where you can be talking to someone 
normally one minute and the next you cannot make a sentence to save 
your life. This is also true when it comes to trying to write things 
out. When my cognitive problem starts to set in for that day, I may be 
thinking I am typing one thing, but when I read it the next day it will 
make no sense at all.
    I, along with many other veterans, have sensitivity to smells like 
perfume, cologne, hairspray, etc. Often when I went in for tests at the 
clinic, some of the workers had so much on it made me and other 
veterans sick. In January of this year, I had my bedroom painted. I 
forgot to tell them that I needed them to use low odor paint. The fumes 
of the paint made me sick for the next few weeks; I had to stay in my 
basement so as to be as far from the new paint smell as I could.
    Often the VA likes to tell me is that it is in my head, or it is 
depression. I tried to talk to one of my doctors about my problems and 
about new studies showing that depression has nothing to do with Gulf 
War veterans being sick; she just said I needed more medication for 
depression. One day I gave her the first RAC report and was going to 
point out some studies in it. Before I could start she told me ``Jim we 
just need to agree that we will always disagree on this.'' At that 
point I told her I wanted a doctor that will look at everything and not 
just one thing. She agreed to that. At the same time I was seeing a 
Psychologist for PTSD. The VA doctor saw me about once a week. Many 
times I felt the counseling was going no where. One day while I was 
there, he told me I should divorce my wife like other veterans with 
PTSD. I informed him that was not something I would do. I felt that his 
many times of saying I was not like other veterans with PTSD leads me 
to wonder about it. I know when I received my rating, I was asked to 
drop 12 issues, and all of them are now part of the Gulf War illness 
problems.
    In 1995 I was sent to the Gulf War Illness clinic in the Houston 
Texas VA. This was a place that was to look at everything fresh to draw 
its own conclusions. I saw my chart before they even started and they 
already listed depression as my main problem. How can we get fair 
treatment if before a doctor sees us they say we are depressed? This 
same doctor came one day to give me a report on blood tests. Some of 
the levels were off, but she stated to me it was to be expected because 
I was a heavy alcohol user. She was a bit surprised when I told her I 
did not drink. So if they were looking at everything new, why was I 
already diagnosed as a depressed alcoholic? It's these preconceived 
assumptions that irritate veterans. Often irritating them to the point 
they stop seeking medical help.
    At one point I was concerned about the number of medications I was 
prescribed. My wife and I worked as a team to get off some of them. I 
would stop them one by one, and if I got better I got rid of it. If 
however I got worse, I went back on it. With this I was able to get off 
half of the pills that I was on.
    Over the last year many veterans have called me about how they 
could get on the Gulf War registry. They informed me that when they 
went to their VA they could not get any information about the Gulf War 
registry nor find anything on the VA's Web site for it. Since some of 
the veterans were using the same VA as I, so I decided to go and see 
just how hard it would be. The first two places I was sent told me that 
they did not do them anymore and sent me on to a new place. The third 
place told me the same thing; but a man took my information and said he 
would get it to the right place. When I asked who it was and their room 
number, he would not give it to me. I told him that I was the president 
for the NGWRC and was following as to why veterans felt they were 
getting the run around on this. He started to yell at me about how he 
is not giving me a run around and I better behave. My thought at that 
time is why a hot head like this was working in the compensation and 
pension exam area of the Topeka VA. I left there and went to the 
directors' office to complain about him and the problems with the Gulf 
War registry.
    They took my name and number and informed me someone would call me. 
The next week the PR office called me and gave me Ms. Strickland's name 
and number. I calld the number for a few weeks with no return call, so 
I went to her office. She informed me she is no longer doing the Gulf 
War registry any more. After asking her who is, she said that the 
person was in training at the time.
    The next week I received a call from the director's office asking 
if everything was taken care of. I told her no, that the problem was 
still there. She assured me it would be and I would get the paperwork 
soon. The paperwork did come the next week; but it was the wrong 
paperwork. Just think how I felt when I opened it and had a form to 
fill out where the first line asked ``when were you in Vietnam?''; this 
after all the asking about the Gulf War registry. When I went in for 
the exam, I was given the right paperwork, but still wondering if the 
blood test were the right one for the Gulf War and not for Vietnam.
    I felt the whole exam was a waste of my time, and thus any veteran 
taking it, not to say it does not gather information that would be of 
any help. Most of what I was asked about was: see anyone dead, anyone 
going MIA, hand to hand combat, and a few dealing with smoke.
    Why wasn't I asked about some of the symptoms of Gulf War illness? 
Questions like:

    1. Do you suffer headaches? If so how often and for how long?
    2. Do you get fatigued? If so, how often and to what degree?
    3. Do you have any problems involving your skin? What kinds and how 
often?

    This list can go on for all of the others like:

      Joint pain
      Neurological signs and symptoms
      Neuropsychological signs or symptoms
      Respiratory system (upper or lower)
      Sleep disturbances
      Gastrointestinal signs or symptoms
      Cardiovascular signs or symptoms
      Abnormal weight loss
      Menstrual disorders

    The registry should be set up to track these problems in the 
veterans along with all diagnosed illness like MS, cancers and 
Parkinson's. Then this information should be given in a report to the 
RAC, IOM and the Secretary of the VA.
    I feel it is because the VA headquarters is telling everyone that 
it must be stress or depression. All of the information for the doctors 
caring for us veterans supports this even though stress, depression and 
PTSD have been ruled out by many studies over the last 10 years. Yet 
still my doctors seem to blow off any symptoms I see them about. From a 
VA press release one finds ``The report found that Gulf War illness 
fundamentally differs from stress-related syndromes described after 
other wars.'' ``Studies consistently indicate that Gulf War illness is 
not the result of combat or other stressors, and that Gulf War veterans 
have lower rates of post-traumatic stress disorder than veterans of 
other wars,'' the Committee wrote. Yet when I went to my exam the Nurse 
doing the exam did not know anything about the new report. Why?
    When my left shoulder was giving me a lot of problems with pain, it 
took months before I was sent to an orthopedic doctor in December of 
2008. He set me up for a rotator cup operation to fix a tear and to 
remove some calcium buildup in that shoulder. I still try to get the VA 
to look at other problems I am having, but I get the brush off on many 
of them. The last time I tried to talk to a doctor about my pain in my 
lower legs, I mentioned that when I use a heating blanket, I do not 
feel the heat. Most of the time it just makes my leg pains worse.
    It is to a point that most of the problems I have, I do not even 
talk to my doctors about. I have kept track of the things that make me 
sick during the day, and I work to avoid them the best that I can. I 
also try to keep a healthy lifestyle by eating right, not drinking or 
smoking, and only having drugs in my system prescribed to me by the VA.
    Working to help veterans over the year has resulted in many fellow 
Gulf War veterans calling me to get understanding about their illnesses 
and advice with their VA claim for benefits. Many of the veterans' 
claims were denied for unjust causes. Some of the regional offices tell 
the veterans with Fibromyalgia and Chronic Fatigue Syndrome that it 
started outside the timeframe. The guideline set for presumptive 
service connection in Gulf War veterans is: onset of the signs or 
symptoms by December 31, 2011. That date is still 2\1/2\ years in the 
future.
    Other veterans are being told that they do not have a combat ribbon 
or a `V' device on any of their ribbons. This is not a prerequisite for 
Gulf War veterans to receive compensation for Gulf War illness. Yet 
these are tactics that many of the raters are using to deny veterans 
their claim. There is a new committee that was to look into these 
problems; but they are not. They have been doing a good job at helping 
the new vets, but have not been looking at the problems with Gulf War 
vets. This might be that the chairman does not want to find or fix the 
problem. On two of the meetings I was at he has stated he did not like 
the Gulf War illness law, and Congress should not have passed it. This 
once again goes back to the ``Don't look, don't find'' motto.
Conclusion
    While in the service, I was trained that the mission came first. I 
was also trained to take care of our men to make sure the mission was 
done.
    Now that I and many like me are no longer in the service, and 
knowing that we were injured by our service, my personal mission is to 
ensure as many veterans as possible receive just and proper care and 
compensation for their injuries and illnesses. The mission of our 
government should be the care of its veteran and making sure they have 
the best treatment for anything that happened to them while serving our 
country. The mission we have can be best accomplished by:

    1.  Illnesses that are being diagnosed at a higher rate in Gulf War 
veterans' will be presumptively service connected for them.
    2.  Track known disease groupings within the veterans' populations 
in correlation with civilian entities to include death rates.
    3.  Have all of the VA's place signs in their waiting areas telling 
veterans about the Gulf War registry exam, and how to get on it.
    4.  Work to disseminate all the data on the other NBC sites we blew 
up and a new death rate table set by unit.
    5.  Update the VA education program and all other data so it 
reflects the facts that it is not stress, depression or PTSD causing 
Gulf War illness.
    6.  Insure that all of the raters are doing the claims right, and 
have remedial training for those that are doing a poor job on these 
types of claim.
    Thank you.
                               __________
                                  National Gulf War Resource Center
                                                        Topeka, KS.

Dear Chairman Mitchell and Members of the Committee,

    I feel I need to write this letter as a follow-up to the Committee 
meeting of May 19, 2009, dealing with Gulf War illness.
    My testimony dealt with problems I have had for the last few years 
and problems that veterans themselves have had, too. The testimony 
focused my health issues. I went into detail on how I became extremely 
ill in the Gulf War. I talked about how my abilities to think to 
rationalize and how it has changed as well as how my playing chess has 
diminished greatly since the war.
    One point I really wanted to bring out to the Committee was how 
hard it was for Gulf War veterans in Topeka, Kansas, to get on the Gulf 
War registry. I had experienced much difficulties getting on the 
registry and on getting any information for veterans about getting on 
the registry in Topeka. This was unacceptable for me and it should be 
unacceptable to the director of the VA here in Topeka and the Secretary 
of Veterans Affairs. Veterans should have clear instructions as on how 
to get on the registry and who to contact. After 6 months, there still 
are no signs anywhere in the VA that will direct veterans of the Gulf 
War as to where to go for the registry or even any information that 
there is a registry available to them for their undiagnosed health 
issues.
    I was greatly upset over the fact that the Department of Defense 
still denies that veterans have became ill while in the Gulf region due 
to nerve agents. Even after my testimony about how I became ill and the 
symptoms that I had addressed which are the same symptoms in the RAID 
report for exposures to sarin and gas or overdosing of the PB pills. 
Since I was no longer taking the PB pills for at least a month we could 
rule out that. That would mean that my illnesses had to of been from 
the low-level exposure of sarin gas and/or the insect repellents we 
used. When the Department of Defense person was asked about my 
problems, his reply was simply was well it is too late to determine 
what really happened to Mr. Bunker. Simple logic is easy to look at as 
determining what happened to me yet the Department of Defense still 
refuses to acknowledge that veterans have became ill because of the 
low-level exposures of sarin gas. This approach does more to block 
efforts of come up with treatment processes for the veterans than 
anything else does.
    Veterans are sure that between the nerve agent pills, the nerve 
agent itself, and the pesticides used along with other toxins that were 
exposed to that greatly lead to the problems that they are facing known 
as Gulf War Illnesses (GWI). It is time to set aside the denials or the 
misinformation and work to solve the issue at hand. What the National 
Gulf War Resource Center wants to express with this issue.
    It is now time for the Department of Defense, the Department of the 
Veterans Administration and the Institute of Medicine to all work 
together to find treatments that will help veterans of the Gulf War 
live the more productive life and to relieve the pain that we are 
having due to undiagnosed illness.
    There have been many problems with the IOM over the years. I feel 
one of the problems that the IOM had was the directions given to them 
by the VA. The IOM in all of its reports states how they are following 
the same protocol as for Agent Orange. The problem with this is that 
the criteria set before them for Agent Orange said that the evidence 
had to be the on the reasonable doubt. Better yet the evidence had to 
be overwhelmingly proving that the illnesses were caused by Agent 
Orange. This took away any benefit of the doubt that the Vietnam 
veterans have when they dealt with their agent orange illnesses.
    This same mentality as leading to the problems that Gulf War 
veterans and researchers are having on getting illnesses service-
connected due to undiagnosed illnesses and their service in the war. 
Since the Department of Defense keeps saying that, nobody was exposed 
or no illnesses can be attributed to Sarin and gas. Then IOM may never 
find any problems within the Gulf War community for the undiagnosed 
illness. The IOM and all researchers should use the modeling that was 
done by Dr. Lea Steele when she did the Kansas study. This study is 
well known by everybody and her modeling has since been used by many 
other researchers. Because of her work in attentions to details and 
leaving nothing for granted, she has shown that Gulf War veterans are 
ill at a higher rate and that the rate of the illness among the 
veterans group is determined by where and when a soldier was.
    The National Gulf War Resource Center calls on the Department of 
Defense, the Department of Veterans Affairs and the IOM all to start 
working at finding a treatment for the problems that veterans of the 
Gulf War are having. They need to look at the possibility that more 
likely than not a lot of the veterans did suffer from Sarin nerve agent 
poisoning even though medical doctors did not write it in medical 
records or believe it to be happening. Many of the problems as to why 
this was not done were that the higher headquarters could not believe 
that after the end of the war veterans would have been exposed to Sarin 
nerve gas. However, this was highly probable. It was later proven a 
fact that we blow up stockpiles of ammunition within bunkers; not 
knowing what some of those types or rounds are sarin and mustard gas 
that was actually blown up.
    By considering this as a hypothesis while looking into the 
illnesses, a better picture will emerge. We need to look at every 
possible causes and effects that is causing the illness of the war that 
these veterans served. Also by looking at the pictures in this fashion, 
we may have a better probability at finding a treatment for these 
veterans. We may also develop a good treatment for if ever we suffer a 
terrorist attack like that which happened in the Tokyo subway bombing.

            Sincerely,

                                                    James J. Bunker
                                                          President

                                 <F-dash>
                  Prepared Statement of Paul Sullivan,
             Executive Director, Veterans for Common Sense
    Veterans for Common Sense (VCS) thanks Subcommittee Chairman Harry 
Mitchell, Ranking Member David Roe, and Members of the Subcommittee for 
inviting us to testify about Gulf War veterans' illnesses.
    VCS applauds your attention to the serious health challenges facing 
as many as 210,000 Gulf War veterans for the past 18 years. We 
especially thank Chairman Bob Filner for his diligent advocacy for all 
our veterans, including the nearly 700,000 veterans who deployed to the 
Gulf War between August 1990 and July 1991.
Is Enough Being Done?
    Today's hearing brings us here to answer a critical question 
haunting as many as 210,000 Gulf War veterans who have struggled with 
chronic illnesses for the past 18 years: ``Is Enough Being Done?'' As 
an ill Gulf War veteran who has worked on this issue for 17 years both 
inside and outside government, the answer is no. Absolutely not.
    While the Department of Defense (DoD) and the Department of 
Veterans Affairs (VA) say they will assist our ill Gulf War veterans, 
the two agencies often fight against our veterans. The two agencies 
fight against scientific research into toxic exposures. VA and DoD 
repeatedly mislead Congress, scientists, the press, and veterans about 
the adverse health consequences of deployment to Southwest Asia during 
Operations Desert Shield, Desert Storm, and Provide Comfort during 1990 
and 1991.
    I speak from experience about this issue. Nearly 11 years ago, I 
testified on behalf of fellow Gulf War veterans about this serious 
public health crisis. Although Congress held several hearings on this 
issue, reached conclusions that VA and DoD were not credible to 
investigate the illnesses, and then ordered independent research and 
independent research reviews, not much has changed at DoD and VA since 
I walked the halls of Congress and pressed for passage the ``Persian 
Gulf Veterans Act of 1998.'' On a personal level, I am deeply 
disappointed and troubled by VA's actions.
    Today, all of the scientific evidence and the only independent 
review of Gulf War research overwhelmingly conclude the illnesses are 
real and related to Gulf War deployment exposures. The bottom line is 
that between 175,000 and 210,000 Gulf War veterans remain ill. While 
there are some answers about why we are ill, there are no effective 
treatments, and disability benefits are very difficult to secure.
    Therefore, VCS concludes that not enough is being done for our Gulf 
War veterans and their families. VCS urges Congress and VA to take 
immediate action. VA should hire pro-active veterans to work on this 
issue at VA, formally recognize our illnesses, conduct more research to 
understand our illnesses, begin treatment programs, provide disability 
benefits, and be more transparent on this issue.
Veterans Ask Three Questions
    Since the medical puzzle of Gulf War illnesses first appeared 
nearly two decades ago, Gulf War veterans have continued asking three 
fundamental questions.

    1.  Why are we ill?
    2.  Where can we get treatment?
    3.  Who will pay for our medical care and benefits?

    These three questions demonstrate the stakes for today's hearing 
are very high.
    The stakes are high because Congress can, and must, force the 
Administration to admit full liability for the toxic exposures and 
illnesses among Gulf War illnesses.
    The stakes are high because Congress can, and must, appropriate 
adequate funds soon for desperately needed scientific research, medical 
treatment, and disability compensation for the estimated 210,000 Gulf 
War veterans who remain ill 18 years after the Gulf War cease fire.
    The stakes are high because Congress can, and must, crush the 
Administration's notorious myth that the Gulf War was low-cost and 
casualty-free.
    The stakes are high because Congress can, and must, begin the 
difficult process of restoring the stained reputation of DoD and VA by 
admitting the Gulf War caused hundreds of thousands of friendly fire 
casualties and was, therefore, very expensive.
    The stakes are high because the dignity and health of our veterans 
is something the Administration cannot gamble with any longer. The 
hopes and sacrifices of our former servicemembers and their families is 
not something to be gambled with, and the abuses we have suffered must 
end now.
VA's and DoD's Efforts to Minimize the Reality of Gulf War Illness
    The tragic and painful days of misleading VA policies toward Gulf 
War veterans must end. Our families are tired of the delays and denials 
in research, treatment, and disability benefits suffered by Gulf War 
veterans for 18 long and tortured years.
    During a public presentation to the RAC I attended in October 2002, 
then Deputy Secretary Leo Mackay said, ``Clearly, the past decade has 
not covered VA in glory . . . [As the RAC's] interim report of June 25 
[2002] pointed out, there is increasing objective evidence that a major 
category of Gulf War Illnesses is neurological in character.''
    Mackay's comments appeared to be a watershed event where VA finally 
admitted Gulf War illness was real and would require extensive 
research, treatment, and benefits. Mackay's comments appeared to have 
reversed VA's propaganda claiming the Gulf War was a ``public health 
success'' and that the only illnesses were psychological.
    Unfortunately, this appearance proved to be illusory, and VA staff 
soon returned to the old party line. Time after time since 2002, VA 
staff told VA health care providers, Congress, scientists, veterans, 
and our families that Gulf War veterans have no special health 
problems. Here are some examples:

    <bullet>  VA's Web site with questions and answers for Gulf War 
veterans, asks, ``Is there a . . . `Gulf War Syndrome'?'' VA answers, 
``Experts conclude that . . . there is no . . . unique medical 
condition affecting Gulf War veterans.''
    <bullet>  VA's training materials for physicians makes the 
following claim: ``. . . [D]iscussing chronic illness with a Gulf War 
veteran or a woman with silicone breast implants is a different matter 
from discussing it with the average patient.''
    <bullet>  VA's 2007 testimony to the House Veterans' Affairs 
Committee's Subcommittee on Health stated, ``After 15 years, the 
principal finding . . . is that [Gulf War veterans] are suffering from 
a wide variety of common, recognized illnesses.'' VA made a similar 
statement in January 2009 to the Institute of Medicine.

    DoD staff also consistently minimize the existence of Gulf War 
illness. In November 2008, the deputy director of health affairs for 
force health protection and readiness characterized the symptoms of ill 
Gulf War veterans as ``wear and tear problems.'' VCS remains highly 
distressed that our government says there is no unique medical 
condition, these are common, recognized illnesses, and these are wear 
and tear problems.
    Compare these statements with the scientific findings of VA's own 
major survey on the health of Gulf War veterans. In April 2009, VA 
wrote, ``25% more [deployed] Gulf War veterans reported suffering from 
multisymptom illness compared with their [non-deployed] Gulf Era 
military peers.'' That study, by VA's Environmental Epidemiological 
Service under Dr. Han Kang, was published last month, but VA has known 
its results since 2005 when Dr. Kang briefed the RAC.
    What's important to focus on here is Gulf War veterans remain ill 
in very large numbers, something VA refuses to admit, and our veterans 
need treatment and disability benefits, something VA has yet to 
provide. I am hopeful the new Administration may take a more objective 
and pro-veteran approach to Gulf War illnesses. However, it is 
abundantly clear that the government needs a dramatic shakeup after 18 
years of systematic misrepresentation and neglect. We need to do more 
than correct the record. To the extent possible, we need to make up for 
those two lost decades while veterans and our families suffered.
    There is one piece of good news that we want to mention. On April 
2, 2009, VA published a statement in the Federal Register that VA 
intends to publish regulations linking nine diseases with deployment to 
the Gulf War. VCS awaits word from VA on the list specific conditions 
for which VA will grant a presumption of service connection, and the 
level of disability for those conditions.
Our Requests for Gulf War Veterans
    VCS presents the following six requests for Congress and VA.
Our First Request: Pro-Veteran Advocates Working on Gulf War Illness 
        Issues.
    VCS urges VA Secretary Shinseki to immediately replace current VA 
staff dealing with Gulf War issues with pro-veteran and pro-VA 
advocates. In an unconscionable effort to save money and preserve the 
bogus myth of a low-cost and casualty-free war, VA appears to have 
undermined the integrity of the Institute of Medicine (IOM) scientific 
review process, thereby illegally blocking disability benefits for Gulf 
War veterans. These actions undermine VA's reputation.
    According to documents recently released, VA's staff is directly 
responsible for the manipulation of IOM reports ordered by Congress for 
the determination of Gulf War veterans' health care and benefits. Let 
us make this very clear: VA employees who failed to fully implement the 
law must be held accountable for their egregious conduct.
    These actions are detailed in a February 9, 2009, memo from RAC 
Chair James Binns. He concluded that ``[b]ecause of the stature of the 
IOM, these reports have also misled researchers, lawmakers, physicians, 
and the public regarding the health problems of Gulf War veterans.''
    VCS has attached a copy of Mr. Binns' memo to our statement, and we 
ask that it be included in the record of this hearing in its entirety.
Our second request is for a formal VA and DoD recognition of Gulf War 
        illnesses.
    VCS requests that DoD and VA immediately, officially, jointly, and 
unequivocally recognize that Gulf War illness exists based on the 
overwhelming scientific evidence. Congress already recognized our toxic 
exposures and illnesses with the passage of Public Law 103-446, section 
102, on November 2, 1994, as well as with Public Law 105-277, section 
1602, on October 21, 1998.
    Now is the time for the Administration to get in line with the 
scientific evidence. This also means Presidential Review Directive 
Number 5, dated August 1998, should be updated so that Gulf War 
veterans' illnesses are treated as a public health concern instead of a 
public relations issue.
    Deputy Secretary Leo Mackay began a science-based examination of 
the problems facing Gulf War veterans in 2002. He and Secretary Anthony 
Principi should be commended for their pragmatic and honest assessments 
of the situation and their dedication to finding a solution. Our 
request means that VA must issue public statements that Gulf War 
illness is real. There must be an update of all other communications to 
veterans, families, doctors, Congress, and scientists on this subject. 
A strong statement must be issued to all VA staff that Gulf War 
veterans were correct about their exposures and illness. VA must also 
publicly apologize for the delays and denials in research, treatment, 
and benefits.
Our third request is to find out why we are ill.
    Due to the 1998 law, scientists now know a great deal about 
pesticides, pyridostigmine bromide, and Sarin chemical warfare agent 
exposures. VCS urges VA and DoD to move forward with new scientific 
research to understand Gulf War illness. Areas that need specific 
research include the experimental anthrax vaccine, now linked with 
serious adverse reactions and long-term health conditions.
    VCS also supports additional research into depleted uranium. Our 
President, Dan Fahey, presented his views to the Committee on this 
issue, and we ask that his recommendations become an exhibit for this 
hearing. In addition, we support research to better understand 
undiagnosed illnesses as well as research investigating the adverse 
health outcomes of multiple (and often simultaneous) toxic exposures.
Our fourth request is to find new treatments.
    VCS wants the military and VA to move forward together with medical 
research that can lead to treatments for veterans. VCS believes the 
best place to start is by fully funding the Congressionally Directed 
Medical Research Program (CDMRP). The CDMRP is a highly effective 
approach to identifying effective ``off the shelf'' treatments for 
ailing Gulf War veterans. Most of us are in our 30s and 40s, so 
treatments that start now may make a substantial difference in how we 
spend the rest of our lives.
Our fifth request is to obtain disability benefits.
    VCS wants Congress to mandate that the IOM revisit prior Gulf War 
and Health reports so they can include consideration of animal studies 
and other scientific information that Congress specified in the 
``Persian Gulf Veterans Act 1998.'' The literature reviews should be 
done quickly, and many can be obtained from the RAC. We commend the RAC 
for their work, as the RAC has already identified many scientific 
studies in their landmark November 2008 report, ``Gulf War Illness and 
the Health of Gulf War Veterans: Scientific Findings and 
Recommendations.''
    VCS wants VA to move forward with contacting approximately 15,000 
Gulf War veterans denied benefits under the 2001 expansion of 
Undiagnosed (UDX) illnesses, Public Law 107-103. The 2001 law expanded 
disability compensation benefits initially established under Public Law 
103-446. The new law mandated benefits for chronic fatigue syndrome, 
fibromyalgia, and irritable bowel syndrome. When notices are published 
in the Federal Register expanding benefits, science must be the 
deciding factor and our veterans must be individually notified of 
changes so they can reapply for disability benefits.
    VCS again urges VA to promulgate regulations, based on IOM's 
scientific review of medical research (Gulf War and Health, Volume 6, 
Physiologic, Psychologic, and Psychosocial Effects of Deployment-
Related Stress), to grant a presumption of service connection for post 
traumatic stress disorder among Gulf War veterans. We wrote VA in 
January 2009 and requested such a rule based on scientific merit, and 
VA rejected our request. If VA will not act, then we urge Congress to 
act.
Our sixth request is transparency.
    On the issue of Gulf War toxic exposures, the activities of the VA, 
DoD, and Central Intelligence Agency (CIA) remain shrouded in secrecy. 
VA should actively seek input from Gulf War veterans, as it is now 
doing with two Gulf War-related advisory panels. We encourage VA to 
continue the work of these two groups.
    We also ask VA, DoD, and CIA to release information about toxic 
exposures during the wars, about the health care use and claim activity 
of veterans, and the complete financial costs of the Gulf War. With 
this information in the public domain, as it rightly should be under 
the Freedom of Information Act, then our veterans, families, 
researchers, Congress, and journalists can search for and obtain 
information about what happened in the Gulf War so that we can continue 
to improve VA for current and future veterans.
    VCS is deeply concerned that number of UDX claims filed fell from 
13,189 in February 2008 to 7,478 in August 2008, a sharp drop of 43 
percent in 6 months (based on the Gulf War Veterans Information System 
reports). For UDX claims approved, the number fell from 3,150 to 1,270 
during the same brief period, an even sharper drop of nearly 60 
percent. VCS urges Congress to ask VA to explain these precipitous 
declines.
Avoiding a Repeat of Past Mistakes
    Veterans for Common Sense has a solemn obligation to set the record 
straight in order to avoid repeating the same mistake for future 
generations of veterans. Sadly, veterans of recent wars have fallen 
into a trap where history repeats itself. The last three major wars our 
Nation fought followed a similar pattern where the executive branch 
lied to start the war and then failed to take care of our veterans who 
fought in the war.
    Today, Congress, VA, and DoD may be able to prevent a repeat of the 
Gulf War illness debacle. DoD and VA are currently delaying and denying 
research, treatment, and benefits for Iraq War veterans exposed to 
toxins, especially those stationed near Balad, Iraq, the site of an 
enormous burn pit recently profiled by journalist Kelly Kennedy for 
Army Times.
    One lesson learned from the Gulf War was the need to have accurate 
and complete medical records. We are pleased to see President Barack 
Obama and VA Secretary Eric Shinseki moving forward with establishing a 
seamless DoD-VA record for each servicemember starting on their first 
day of military service. VCS advocated for single record in prior 
testimony before Congress.
    However, the military repeatedly failed to create complete and 
accurate records. For example, under the 1997 Force Health Protection 
law (Public Law 105-85), the military is required to perform pre- and 
post-deployment medical exams. The military asks soldiers to complete 
only a brief self-reported assessment without a face-to-face exam, and 
that is unacceptable. The goal of the 1997 law was to make sure a 
medical professional had a face-to-face encounter before and after 
deployment to identify medical conditions early, when treatment is most 
effective and least expensive. A failure to examine our servicemembers 
is negligent, as it has led to the repeated deployment of unfit 
servicemembers who jeopardize their health, the safety of their unit, 
and the success of the mission.
    Our goal at Veterans for Common Sense is to highlight the pattern 
of government abuse and betrayal in an attempt to break the cycle that 
has plagued our veterans for more than four decades, including the poor 
treatment our Atomic, Agent Orange, SHAD, and Gulf War veterans 
needlessly endured.

                               __________

Letters from Veterans to VCS About Gulf War Illness

                                                       May 11, 2009

Hi Paul,

    I'm a Gulf War Vet suffering from Gulf War Syndrome. If you're 
speaking to Congress on Tuesday, you could tell them that we are still 
sick and have not been contacted by the VA about anything in years.
    The DoD allegedly determined that there were chemical munitions at 
Khamisiyah, but the VA has been mum. The guys in my former unit have 
not been successful in getting medical treatment or compensation for 
our illnesses. Most of us just gave up, and feel abandoned by the 
government and the Army.

                                                              Chris
                               __________
                                                       May 13, 2009

Paul,

    First of all I want to thank you for all you do for veterans. . . . 
I am a Gulf War Vet. . . . The VA Hospital in [location removed] is 
really trying to do a good job in treating me but not for my Gulf War 
symptoms. The problem I see and am going through, is they are testing 
me for all the different problems I am having and can find nothing in 
my blood, x-rays, throat scopes and lung tests.
    BUT they cannot tell me why I'm suffering from Chronic Fatigue, 
Chronic Pain, Coughing Spells, Choking, Blacking Out, Sleep Apnea, 
Nightmares, Loss of Memory, Chronic Headaches, Anxiety and 
Psychological Problems. I have very little quality of life since coming 
home from the Gulf. They tell me all my tests are inconclusive but yet 
they have me seeing a PTSD doctor and have me taking [medications]. I 
have been dealing with Gulf War Symptoms but yet my doctor because of 
Guidance from his superiors, will not even utter the words ``Gulf War 
Syndrome!''
    I have tried filing claims to the VA but they come back ``denied'' 
because of insufficient evidence!! I AM THE EVIDENCE! I am the one 
suffering! And all they can say is ``your claims have been denied?!'' 
They didn't deny me when I gave them the prime of my life and was 
awarded (2) Army Commendation Medals during the Iran/Iraq war and the 
Bronze Star for combat valor during Desert Storm!
    But now they turn their back on me because it may cost them a few 
thousand dollars to say ``Yes Steve you have Gulf War Syndrome, we're 
sorry for what your having to go through the least we can do is treat 
you properly at our medical facility and compensate you for all the 
hell you've had to go through and medical problems you currently have 
to live with.''
    Instead, I sit here mostly defeated and feeling sorry for the poor 
bastards that will be coming back from Iraq and Afghanistan. They have 
no idea what kind fight they are in for when they have to start dealing 
with the VA Hospitals and the Veterans Administration when they file 
claims. It is a travesty. . . .

            Sincerely,

                                                              Steve

                                 <F-dash>
    Prepared Statement of Richard F. Weidman, Executive Director for
       Policy and Government Affairs, Vietnam Veterans of America
    Good afternoon, Mr. Chairman, Ranking Member Roe and distinguished 
Members of the Subcommittee. Thank you for giving Vietnam Veterans of 
America (VVA) the opportunity to offer our comments on the Gulf War 
Illness, the extent of the problem as we see it, whether the manner and 
extent to which the Federal response to this significant problem of 
literally tens of thousands of veterans as currently being operated is 
adequate or even honest, and what should be done to properly address 
the needs of the veterans affected, and their families.
    Vietnam Veterans of America (VVA) has been striving for the entire 
30 years we have existed as an organization to get the Department of 
Defense (DoD) and the Department of Veterans Affairs (VA) to deal 
honestly and forthrightly with the wounds, maladies, conditions, and 
injuries that often result from military service because of 
environmental exposures of one nature or another, or that are just not 
as readily apparent as gunshot wounds or shrapnel injuries. However, as 
of this year we still have a long way to go in this regard, although we 
do have hope that the new Administration, with bipartisan support of 
the Congress, will finally force the VA (and the DoD) to restore 
integrity to the elements of their organization that deal with these 
matters, and join with us in pursuing the truth, wherever that may 
lead.
    VVA salutes you in launching this set of three hearings into Gulf 
War Illness at this time. The timing is particularly apt. As noted 
above, we have a new Administration. We have a new Secretary of 
Veterans Affairs, and a new Deputy Secretary of Veterans Affairs. We 
will have new Under Secretary of Veterans Affairs for Health this 
coming summer, and likely a new Deputy Under Secretary of Health as 
well. It is likely that there will also be other very significant 
changes in personnel within the Veterans Health Administration as well 
in the coming months.
    Last month the survey results by Dr. Han K. Kang, et. al. was 
published as a peer reviewed article in the Journal of the American 
College of Occupational and Environmental Medicine. The scientific 
findings of the Research Advisory Committee on Gulf War Veterans' 
Illnesses, ``Gulf War Illness and the Health of Gulf War Veterans--
Scientific Findings and Recommendations'' was published in November of 
2008. There has been a resurgence of interest in the health of veterans 
of every age, given the needs of the newest generation of veterans who 
are returning from Iraq today, many of who have significant health 
problems. These returnees not only have problems with the obvious 
effects of hostile fire, but also the less immediately obvious effects 
of Traumatic Brain Injuries (TBI) and Post Traumatic Stress Disorder 
(PTSD). It is also useful to remember that those serving in Iraq and 
Kuwait in the past 7 years lived and fought in areas where the many 
toxins from the 1991 war were initially used and spread, and that those 
toxins generally were never cleaned up or remediated. In many cases 
have additional toxic exposures due to the burn pits and other sources.
    Because of the changes in leadership that are starting to take 
hold, and the fact that all of the documentation in the two studies 
mentioned above is now available the time is right to review where we 
are and start to get it right not only for the fine men and women who 
fought in Gulf War I, but to get it right in terms of the institutional 
set up at VA. The leadership in key areas at VA needs to be staffed 
with individuals who will adhere to the highest medical efforts and not 
attempt to violate Institutional Review Board (IRB) guidelines on 
confidentiality of study participants in rather naked and crass 
attempts to delay and destroy the validity of vital research studies. 
That is precisely what is happening now in regard to the ``deep brain'' 
studies regarding Gulf War veterans currently being performed at the 
University of Texas by Dr. Robert Haley.
    This is the third instance of VA trying to use ugly and crass abuse 
of power to breach confidentiality of test subjects at VA that has come 
to the attention of VVA in the last 3 years. (One of our colleagues 
called it the research world version of analogous behavior to asserting 
that ``water boarding'' and other harsh tactics of ``enhanced 
interrogation'' were somehow not torture. Wrong is wrong, and unethical 
is unethical. It is still wrong no matter who is in power, or what 
sophistry is promulgated by unscrupulous attorneys to attempt 
justification for such behavior.) This type of behavior on the part of 
the VA must be ended immediately, and those that have both instigated 
as well as those who have permitted such abuses (and many other abuses) 
must be removed from positions where they can continue to inflict 
damage and harm on both the institution, and more importantly, removed 
from where such people can continue to inflict both direct and indirect 
harm on individual veterans.
    In regard to Gulf War Illness, VA has known the basic outline as to 
what was wrong with up to 200,000 of those who served in the Gulf for a 
decade. Yet they continue to drag their feet in addressing the 
justifiable compensation requests of these veterans, and to give them 
the runaround on medical care.
    One has to ask, what is wrong with this institution (VA) that it 
would treat the men and women who are literally its very reason for 
existing in such a high-handed and disrespectful manner, even in the 
face of consistent scientific advice and good judgment?
    There is in fact, as President Obama has stated on many occasions, 
a need for radical transformation of the corporate culture at the VA. 
Secretary Shinseki is correct when he says that what is needed is 
better leadership and much better accountability at the VA.
    We suppose that one can try to fashion complicated legislation that 
would be highly prescriptive in nature to try to force the VA to do 
what is right by the men and women who are suffering adverse health 
consequences of exposure to environmental hazards while in military 
service, but that would be an arduous and ultimately highly frustrating 
path to pursue.
    All that is really needed is for VA leadership to say that our very 
existence as an institution is to care for these men and women who have 
been harmed by virtue of military service, and we are going to do it 
right. Further, those in charge of specifics will pursue the truth and 
maintain the highest ethical standards, and will tell me the truth when 
I inquire about a matter. If they do not tell the truth, or if they 
mislead me or the Congress, they will be relieved from duty. All that 
is needed flows from this simple commitment.
    VVA believes that we have the right top leadership in the #1 and #2 
slots at VA. Now we just need to follow that through, to get honest 
leaders who are committed to the well-being of veterans, and who are 
respectful of veterans as individuals, at every level at VA.
    As to specifics of what needs to be done regarding Gulf War 
veterans, some of what needs to be done is in the context of restoring 
integrity to research at the VA overall, and some is in the context of 
moving VA toward becoming an institution that is a true ``veterans' 
health care organization'' as opposed to a general health care 
institution that happens to be for veterans and is ``good enough for 
government work.''
    VVA recommends:
    First, VA must continue to fund the study in deep brain problems at 
the University of Texas. They must stop trying to get a respected 
research institution to violate the IRB safeguards and assurances of 
privacy in that instance, and in all other instances.
    Second, VA needs to move quickly to modify the Computerized Patient 
Records System (CPRS) or VISTA, to incorporate a military history that 
will include branch of service, periods of service, places assigned and 
when, military occupational specialties, and notes on what happened to 
the individual that may be of note. This also needs to be searchable on 
a nationwide basis, so that if an individual has an unusual medical 
condition, then the physician can search and find out if others who 
served in their unit at the same time have the same or similar 
conditions.
    This would be an invaluable epidemiologic tool that could/would 
point VA in the direction of where there needs to be research that is 
directed where there are obviously problems. You may ask why they never 
did this before?
    Well, we have come to the inescapable conclusion that they never 
did it because they did not want the information. As the cost to make 
this change to the CPRS is really minimal, we can come up with no other 
explanation that makes any sense whatsoever.
    Third, VA does not really have a Gulf War I Registry, just as they 
do not really have an Agent Orange registry. What we have is a mailing 
list for Gulf War I veterans, a mailing list for Agent Orange, etc. All 
they have is a general physical (no special protocol) and then they put 
them on the mailing. VA needs to establish real registries that are 
modeled after the Hepatitis C registry for Gulf War Illness, Agent 
Orange, Radiation Exposure, OIF, and OEF, as well as possibly others. 
That way those who use the VA medical facilities can be monitored for 
their overall health, particularly in relation to the conditions that 
appear to be particular to those who served in a particular theater of 
war at a particular time. This is the only honest way to do it. What we 
have now is something that is dishonest sophistry.
    Fourth, there needs to be a significant increase in the VA Research 
budget over the next 5 years. VVA recommends that we increase it to 
greater than $2 Billion per year in increments over the next 5 years. 
In order to ensure that these additional funds are spent correctly 
there needs to be new leadership in VA Research & Development that 
understands that what is paramount in a democracy is the individual who 
voluntarily takes the step forward pledging life and limb in defense of 
the Constitution. What is NOT paramount is escaping culpability for 
injuries or illnesses nor ``holding down costs.'' The cost of taking 
care of veterans is part of the cost of war and defending the nation.
    As part of this renewed commitment, there must be robust mortality 
and morbidity studies started for OIF, OEF, and Gulf War veterans 
started now that are keyed back into the registries, but which go 
beyond the scope of only those who use the VA for their health care.
    In a similar vein, those who do not adhere to the laws and move 
forward with directed studies as specified by the Congress must be 
fired.
    Fifth, Congress should extend the sunset for the RAC and for Gulf 
War illness from 2011 to at least 2016.
    Sixth, Congress should press until all of the recommendations of 
the RAC report of last Fall are implemented.
    Thank you for the opportunity to share our views here today. I will 
be happy to answer any questions.

                                 <F-dash>
 Prepared Statement of Lea Steele, Ph.D., Adjunct Associate Professor,
  Kansas State University School of Human Ecology, Manhattan, KS, and
       Former Scientific Director, Research Advisory Committee on
                      Gulf War Veterans' Illnesses
    Good morning, Mr. Chairman and Members of the Subcommittee. I'm Dr. 
Lea Steele. I am an epidemiologist, and have conducted studies on the 
health of Gulf War veterans since 1997, when I directed a Gulf War 
research program sponsored by the State of Kansas. I have also served 
on the Congressionally-mandated Federal Research Advisory Committee on 
Gulf War Veterans' Illnesses since its inception, and was the 
Committee's Scientific Director from 2003 to 2008. During that time, I 
oversaw preparation of a major scientific report on the health of Gulf 
War veterans, issued by the Committee in November of 2008.\1\
---------------------------------------------------------------------------
    \1\ Research Advisory Committee on Gulf War Veterans' Illnesses. 
Gulf War Illness and the Health of Gulf War Veterans: Scientific 
Findings and Recommendations. Washington, DC: U.S. Government Printing 
Office, November 2008. Available online at: www.va.gov/RAC-GWVI.
---------------------------------------------------------------------------
    In my brief remarks this morning, I will provide highlights of the 
Committee's scientific findings from the report. This is an extensive 
and in-depth report, over 450 pages in length, which reviewed and 
synthesized findings from hundreds of scientific studies, government 
investigations, and other documents. Our charge was to review available 
evidence to determine what had been learned about the nature, causes, 
and treatments for health problems affecting veterans of the 1991 Gulf 
War.
    The report's primary focus is on Gulf War illness, the multisymptom 
problem previously referred to as Gulf War Syndrome, or Gulf War-
related undiagnosed illness. It is important to distinguish this 
multisymptom condition from diagnosed diseases such as cancer or 
diabetes, which are well defined and readily diagnosable using standard 
medical testing methods. In contrast, ``Gulf War illness'' refers 
specifically to the symptomatic illness that affects Gulf War veterans 
at excess rates, but is not explained by well-established medical or 
psychiatric diagnoses. This condition is characterized by a complex of 
multiple symptoms that typically includes headache, persistent memory 
and concentration difficulties, widespread pain, unexplained fatigue, 
gastrointestinal problems, and other abnormalities.
    Here are the major findings from the Committee's report concerning 
Gulf War illness:

    <bullet>  Gulf War illness is real. Scientific studies of Gulf War 
veterans from different units and regions of the U.S. consistently 
identify this pattern of illness at significantly excess rates. All 
Gulf War studies show the same thing--that is, the same types and 
patterns of excess symptoms are consistently identified in different 
groups of Gulf War veterans. Illness rates vary with the areas where 
veterans served during deployment, and with their branch of service. 
Generally, Gulf War illness is most prevalent among ground troops who 
served in more forward areas of theater, and less common in Air Force 
and Navy personnel.
    <bullet>  Gulf War illness differs fundamentally from trauma and 
stress-related syndromes seen after other wars. Studies consistently 
show that Gulf War illness is not the result of combat or other 
psychological stressors, and that rates of psychiatric disorders such 
as posttraumatic stress disorder (PTSD) are relatively low in Gulf War 
veterans, compared to veterans of other wars. No similar widespread, 
unexplained symptomatic illness has been identified in studies of 
veterans who have served in war zones since the Gulf War, including 
current Middle East deployments.
    <bullet>  Gulf War illness is a serious problem. It affects at 
least one fourth of the nearly 700,000 U.S. military personnel who 
served in the 1990-1991 Gulf War. Studies of different veteran 
populations consistently indicate that between 25 percent and 32 
percent of Gulf War veterans have this multisymptom condition, over and 
above symptom rates in veterans from the same time period who did not 
serve in the Gulf War. The extent of this problem was again verified 
last month, with publication of a VA study of a nationwide sample of 
over 6,000 Gulf War veterans. It identified an excess of 25 percent of 
Gulf War veterans with multisymptom illness, compared to nondeployed 
era veterans.\2\
---------------------------------------------------------------------------
    \2\ Kang HK, B Li, CM Mahan, SA Eisen, and CC Engel. Health of U.S. 
Veterans 1991 Gulf War: A Follow-Up Survey in 10 Years. Journal of 
Occupational and Environmental Medicine 2009 Apr; 51(4):401-410.
---------------------------------------------------------------------------
    <bullet>  Most veterans with Gulf War illness have not recovered or 
substantially improved with time. All studies that have evaluated 
veterans' health longitudinally have reported little improvement. The 
largest study, conducted by VA, indicated that after 10 years of 
follow-up, only 2 percent of veterans with Gulf War illness had 
recovered. As a result, many veterans have now been ill for over 18 
years.
    <bullet>  Of the many Gulf War experiences and exposures suggested 
to have caused Gulf War illness, scientific evidence consistently 
points to just two causal factors: (1) pyridostigmine bromide (PB) 
pills, given to protect troops from effects of nerve agents, and (2) 
use of pesticides in theater. Both PB and many of the pesticides of 
concern can act as neurotoxicants through effects on an important 
neurotransmitter, acetylcholine, in the brain and nervous system.
    <bullet>  Several other contributing factors cannot be ruled out, 
due to evidence that is either inconsistent or limited in important 
ways. These include: (1) low-level exposure to chemical nerve agents in 
theater, (2) higher-level exposure to smoke from oil well fires, (3) 
receipt of a large number of vaccines, and (4) effects of combinations 
of neurotoxicants such as PB, pesticides, and nerve agents. Other 
wartime exposures are not likely to have caused Gulf War illness for 
the majority of ill veterans. These include depleted uranium, anthrax 
vaccine, fuels, airborne particulates, infectious diseases, and CARC 
(chemical agent resistant coating) paint used on combat vehicles.
    <bullet>  Multiple studies from different research teams provide an 
emerging picture of the biological nature of Gulf War illness, that is, 
the physical mechanisms that underlie this condition. Identified 
differences most prominently affect the brain and nervous systems of 
ill veterans, with additional findings related to endocrine and immune 
function. The exact biological mechanisms that cause veterans' symptoms 
are not yet known, however, and clinical diagnostic tests are not yet 
available.

    Although Gulf War illness is, by far, the most prevalent health 
problem affecting Gulf War veterans, it is not the only health issue of 
concern. The most serious diagnosed diseases associated with Gulf War 
service also affect the brain. Studies indicate that Gulf War veterans 
have significantly higher rates of amyotrophic lateral sclerosis (ALS, 
or Lou Gehrig's disease) than other veterans. In addition, veterans 
identified by Department of Defense models as being downwind from 
chemical nerve agent releases at Khamisiyah, Iraq, in March 1991, have 
died from brain cancer at twice the rate of other veterans in theater. 
These very serious neurological conditions affect relatively few 
veterans, but are clearly cause for concern. Rates of other 
neurological diseases have not yet been evaluated by research studies.
    Important questions remain about other important Gulf War health 
issues. Studies have indicated that, overall, Gulf War veterans have 
not had an increased rate of death due to disease. But comprehensive 
information on mortality among U.S. Gulf War veterans after 1997 has 
not yet been published. There are also important unanswered questions 
concerning rates of cancer and other diseases in Gulf War veterans, and 
health problems affecting veterans' children.
    The Committee also reviewed, in detail, information on Federal 
research programs and funding related to the health of Gulf War 
veterans. The report found that, historically, these research programs 
have not been effective in addressing priority issues related to Gulf 
War illness or other health problems affecting Gulf War veterans. 
Between 1994 and 2007, Federal agencies report spending $340-$440 
million on projects identified as ``Gulf War research.'' While this 
supported a number of extremely important studies and research 
breakthroughs, overall, Federal programs were not focused on addressing 
Gulf War research issues of greatest importance, for example, studies 
to identify causes and treatments for Gulf War illness, and rates of 
other diseases.
    Historically, a substantial portion of the Federal research funding 
identified by interagency reports to Congress as supporting ``Gulf War 
research'' has been used for projects that have little or no relevance 
to the health of Gulf War veterans, or projects focused on stress and 
psychiatric conditions. While Congressional actions since 2006 have 
brought about promising new program developments at both the Department 
of Defense and the Department of Veterans Affairs, overall Federal 
funding for Gulf War research has declined dramatically since 2001.
    A renewed Federal research commitment is needed to identify 
effective treatments for Gulf War illness, improve understanding of 
this condition, and address other priority Gulf War health issues. 
Adequate funding and appropriate program management is required to 
achieve the critical objectives of improving the health of Gulf War 
veterans and preventing similar problems in future deployments. As 
noted by the Committee this is a national obligation, made especially 
urgent by the many years that Gulf War veterans have waited for answers 
and assistance.

                                 <F-dash>
 Prepared Statement of Robert D. Walpole, Former Special Assistant for
 Persian Gulf War Illnesses Issues, Office of the Assistant Director of
           Central Intelligence, Central Intelligence Agency
    Chairman Mitchell, Ranking Member Roe and Members of the 
Subcommittee: I am pleased to appear before you today to review the 
Intelligence Community's support to the Departments of Veterans Affairs 
(VA) and Defense (DoD) on Gulf War veterans' illnesses issues. It has 
been a dozen years since I appeared before this Subcommittee on the 
issue; we knew then, and we know now, how important this is to our 
veterans and that our support has been important to ascertaining what 
occurred during that war. Before I move beyond my introductory comments 
and begin to cover a lot of technical assessments and figures, I want 
to underscore the human side of our effort to help the veterans. Our 
workforce includes veterans from the Gulf War and other conflicts. We 
sincerely have tried to uncover any intelligence that could help 
explain veteran illnesses via exposure, including helping to identity 
17 possible releases all the way down to small chemical agent leaks.
Background
    In March 1995, as concern over Persian Gulf War illnesses mounted, 
Acting Director of Central Intelligence (DCI) Studeman directed the 
Central Intelligence Agency (CIA) to conduct a comprehensive review of 
relevant intelligence information. That summer, a CIA analyst 
identified for review an UNSCCM document about an inspection of 
Khamisiyah. After further review, CIA informed DoD of Khamisiyah's 
potential relevance and queried whether forces had been at the site. 
Concerns continued to grow. In January 1996, CIA briefed the National 
Security Council staff on Khamisiyah. On 10 March 1996, a CIA analyst 
heard a tape recording of a radio show in which a veteran described 
demolition activities at a facility the analyst immediately recognized 
as Khamisiyah. DoD and the Presidential Advisory Committee (PAC) on 
Gulf War Veterans' Illnesses were notified the next day. On 1 May 1996, 
CIA publicly announced at a PAC meeting that it had credible 
information that U.S. troops had unwittingly destroyed Iraqi chemical 
weapons. Subsequently, UNSCOM inspected the site and indicated a 
possible release.
    On 27 February 1997, in response to President Clinton's tasking to 
the PAC and after determining that the issue required additional 
resources, George Tenet, then Acting Director of Central Intelligence, 
appointed me the DCI's Special Assistant for Persian Gulf War Illnesses 
Issues and asked me to have a Task Force running by 3 March. Our 
purpose was to help find answers to why the veterans were sick. We 
provided intensive, aggressive intelligence support to the numerous 
U.S. Government efforts investigating the issues. Fifty officers served 
on the Task Force, drawn from across the Intelligence Community--CIA, 
the National Security Agency, the Defense Intelligence Agency (DIA), 
and the National Imagery and Mapping Agency--as well as from DoD's 
Offices of the Special Assistant for Gulf War Illnesses and Assistant 
to the Secretary for Intelligence Oversight.
    The Task Force managed and reviewed all intelligence aspects 
related to the issue with the goal of ``getting to the bottom'' of it, 
providing support across several fronts:

    <bullet>  Searching, declassifying, and sharing intelligence that 
could help;
    <bullet>  Modeling support to DoD;
    <bullet>  Communications with DoD, the PAC, Congress, veterans' 
groups, and others; and
    <bullet>  Supportive analysis.

Papers and Declassification
    During our initial efforts on Khamisiyah, we determined that 
certain intelligence documents were critical to answering the 
questions--what did the Intelligence Community know and when and what 
did we do with that information. We began briefing these documents to 
the PAC and appropriate Congressional Committees. We also began 
simultaneous efforts to declassify key papers and to search for other 
material relevant to the questions. As this work progressed, We 
determined that a paper detailing the historical perspective would be 
useful to accompany the release of the documents we were declassifying.
    That paper, released on 9 April 1997, provided details about the 
Intelligence Community's knowledge of Khamisiyah before, during, and 
after the war. The documents released and the Khamisiyah paper written 
to accompany, them did not change our judgment that Iraq did not use 
chemical weapons during Desert Storm, or our warnings that Iraq would 
likely deploy chemical weapons to the theater, would be prepared to use 
them, and did not mark its chemical munitions. In detailing the 
historical perspective, the paper and documents illustrated warnings 
the Intelligence Community provided to CENTCOM elements--including J-2, 
targeting, ARCENT, and U.S. Marine Corps and Air Force representatives 
prior to demolition activities in March 1991. These included warnings 
to our military about the potential presence of chemical weapons at 
Khamisiyah before the unwitting destruction.
    We also conducted document searches on other Iraqi chemical warfare 
(CW) sites, as well as any intelligence related to potential biological 
warfare and radiological exposure, and environmental issues. We used 
search criteria developed by previous task forces and expanded them by 
adding related topical search terms and increasing the range of dates 
to be searched. Intelligence that shed light on or could help the PAC, 
Persian Gulf Veterans Coordinating Board, veterans and the public 
understand Gulf War illnesses issues were identified and declassified. 
This expanded search generated over a million documents; most of which 
did not relate. Given that overwhelming volume, we provided DoD all of 
these files electronically along with the means to search them as it 
proceeded with its studies and Case Narratives.
    The last paper we produced on the issue was published in April 
2002, Chemical Warfare Agent Issues During the Persian Gulf War. It 
reflected the results of our multifaceted investigation into the CW 
issue examining information on CW releases, Gulf War Iraqi CW 
deployments, and Iraqi chemical agents and weapons. Results of our 
studies on biological and radiological agents had been published in 
separate reports.
Modeling Support
    I am aware that this Subcommittee has been very interested in CIA's 
computer modeling of chemical releases to simulate what happens in the 
environment when chemical agents are introduced. Many of the physical 
and chemical processes of a release and its downrange dispersion are 
complex and have inherent uncertainties. To allow for these 
uncertainties, reasonable worst-case, source inputs to models were used 
on events of highest concern to avoid underestimating potential 
exposure.
    In 1996, CIA was able to model the events at Bunker 73 at 
Khamisiyah where U.S. soldiers had unknowingly destroyed nerve-agent-
filled-rockets on 4 March 1991; Al Muthanna, where Coalition bombing 
released nerve agent from a large storage bunker; and Muhammadiyat, 
where Coalition bombing released nerve and sulfur mustard agents--
largely because we had U.S. test data indicating how the agents would 
react and be released when structures in which they were stored were 
bombed or detonated. However, when CIA turned to modeling demolitions 
at the pit, it quickly realized we had significant uncertainties 
regarding how rockets with chemical warheads would have been affected 
by open-pit demolitions. We also were uncertain about the number of 
demolition events and the weather conditions at the time. We believed 
in 1996, based on the limited and often contradictory data we had, that 
two demolition events were more likely than one. These data included a 
military log entry for destruction on 12 March 1991, the contradictory 
stories from two soldiers, and an UNSCOM video tape.
    Khamisiyah Pit. When I was appointed Special Assistant and 
discovered these uncertainties, I immediately tasked the development of 
what I called ``the milk carton ad.'' In essence, similar to the 
question, ``Have you seen this person?'' we distributed a flyer with 
two pictures of the ``pit'' and a 1-800 number veterans could call to 
provide help if they recognized the pit. The ad helped us identify 
three additional soldiers who had been part of the demolition.
    We conducted several interviews with the soldiers for important 
information about the demolition event, particularly how and when it 
occurred. These interviews called into serious question the log's 
credibility; we learned it was prepared after the fact and that we 
should not rely on the 12 March date. With the log's credibility in 
question, the prudent approach was to model one event that occurred on 
10 March. We also jointly developed tests with DoD at Dugway to destroy 
rockets containing CW agent simulants in the manner the soldiers 
described to provide data on how the agent would react in an open-pit 
demolition, similar to the data earlier testing had provided for 
detonations in buildings. Finally, then Deputy Secretary of Defense 
John White and then DCI John Deutch, after CIA's 1996 modeling efforts, 
had requested that the Institute for Defense Analysis (IDA) host a 
panel of experts to review previous modeling attempts at the pit and to 
make recommendations for proceeding. The IDA panel consisted mostly of 
meteorological experts. They provided important recommendations 
regarding meteorological aspects of the modeling, including the use of 
several different mathematical models and modelers in an effort to try 
to address uncertainties.
    Did these efforts eliminate all of our uncertainties? Absolutely 
not! In fact, prior to publishing the conclusions of the modeling 
effort, we briefed on, and published a paper on, our continuing 
uncertainties. We had reduced them, but there were still uncertainties 
on the source term, weather, and how the agent reacted during the 
destruction in 1991. I also must note that the PAC had become impatient 
with the time we were taking to try to reduce the uncertainties and 
indicated that if modeling were not completed in the very short term, 
they would simply draw a circle around Khamisiyah and leave it at that.
    Of course once a release had been confirmed at Khamisiyah at a 
specific date and time, epidemiologists could and should have 
ascertained whether veterans reporting illness concerns were clustered 
in areas near Khamisiyah during the appropriate timeframe. They did not 
need a model for that. But they did need troop locations for such an 
effort. And, as CIA worked to reduce uncertainties in the source term, 
DoD was working aggressively to ascertain troop locations for the days 
in question. So, at a minimum, continuing to pursue the modeling effort 
despite the PAC's impatience helped ascertain critical troop locations 
for epidemiologists trying to help the veterans.
    Moreover, although drawing a circle around Khamisiyah would have 
been much less work for us than modeling, we felt that the 
epidemiologists needed a better effort from us to be able to help the 
veterans. CIA and DoD believed a model would be of more value than a 
circle. And even if one favored a circle, how large should it be? How 
many days should be included? Indeed, modeling would provide data even 
for the simple circle approach.
    When we briefed the modeling conclusions at the Pentagon press 
conference in July 1997, I noted that even given the uncertainties 
involved, we assessed that the model would provide meaningful 
information to epidemiologists. But we did not intend the modeled area 
to be used to estimate the absolute number of U.S. troops exposed to CW 
agents. Also, the area depicted by the 1997 DoD models was much larger 
than we would have expected the actual extent of contamination to have 
been. To account for differences in models, the published area 
represented a composite of contamination areas from multiple separate 
models. In addition, most of the modeled areas were enlarged to account 
for uncertainties in weather and troop location. The IC agreed to the 
combined contamination area to account for some modeling differences 
and to provide epidemiologists our best estimate of which us troops 
were more likely at risk of exposure to CW agents for their studies, 
given the modeling uncertainties involved.
    Subsequent to the 1997 modeling effort, CIA obtained additional 
information and was able to provide DoD with updated information.

    <bullet>  Additional UNSCOM information--including a 1998 
inspection--indicated that the maximum amount of nerve agent released 
was about half of the amount modeled in 1997. With this information, we 
assessed that only 225 rockets released agent rather than the 500 we 
estimated in 1997.
    <bullet>  A 1998 CIA-sponsored analysis of daytime sarin and 
cyclosarin degradation allowed daytime decay estimates to be included 
in subsequent modeling, reducing contamination compared to 1997 models 
that excluded such factors.
    <bullet>  An interview with the senior explosive ordinance 
demolition officer at Khamisiyah indicated that the placement of the 
charges was less than optimal in 1991 because of time constraints.

    In 2000, DoD remodeled the Khamisyah pit event using CIA's updated 
source term. The result indicated that the potential contaminated 
area--derived from combined models--was about half the size of the 1997 
modeling results. DoD's reassessment of the threshold general 
population limit dosage values for Sarin and cyclosarin also 
contributed to reducing the area.
    Again, as with the 1997 modeling effort, the area depicted by the 
2000 DoD model is larger than we would expect the actual extent of 
contamination to have been, representing a composite of contamination 
areas from multiple models. In addition, most of the modeled areas were 
enlarged to account for uncertainties in weather and troop location. 
Again, the IC did not intend the model to be used to estimate the 
absolute number of U.S. troops exposed to CW agents. Nevertheless, 
given the modeling uncertainties involved, we continued to assess that 
a composite provided more meaningful information to the epidemiologists 
involved in this effort.
    Khamisiyah Bunker 73. Did new information change other earlier 
modeling efforts? Yes. CIA's 1996 analysis and weather modeling of the 
demolition at Bunker 73 at Khamisiyah had indicated that the wind 
carried nerve agent to the northeast, away from troops, and that U.S. 
troops were not exposed. On the basis of UNSCOM information from 1998, 
we updated our assessment in 2002, reducing the amount of agent 
released from 1,060 kg to 51 kg--about one-twentieth that used in the 
1996 contamination modeling. UNSCOM found that hundreds of nerve-agent-
filled rockets still remained in the bunker in 1998; in addition, we 
were able to derive better estimates of the percentage of nerve agent 
actually released when munitions were destroyed.
    Al Muthanna. Previous CIA assessments indicated that nerve agent 
was released only from Bunker 2 at the huge chemical agent production, 
storage, and filling facility at Al Muthanna. CIA's 1996 worst-case 
modeling of this release indicated that low levels of nerve agent would 
not have reached U.S. troops. Moreover, subsequent UNSCOM information 
and detailed bunker fire modeling by a CIA contractor indicated that 
about 40 times less agent probably was released than estimated in 1996. 
2001 DoD modeling using this new release amount continued to indicate 
that U.S. troops were not exposed to even low levels of nerve agent.
    As part of the IC's comprehensive study, however, we identified 
additional releases of chemical agents from the Al Muthanna facility. 
But we assess these releases were too small, slow, and distant to reach 
U.S. troops. UNSCOM information leads us to conclude that mustard agent 
was released as a result of Coalition bombing of the mustard production 
plant at Al Muthanna. In addition, small amounts of chemical agents 
leaked from defective munitions and containers at various locations at 
Al Muthanna. Release of chemical agents from other production plants 
and filling facilities is unlikely, but releases of small amounts from 
incompletely cleaned production and filling equipment cannot be ruled 
out. UNSCOM information indicated that Al Muthanna's bulk containers--
which held tons of chemical agent--were undamaged because Iraq buried 
most of them away from structures to protect them from Coalition 
bombing.
    Muhammadiyat. On the basis 1996 modeling of contamination from the 
Muhammadiyat nerve and mustard agent releases--even with such worst 
case assumptions as 100 percent pure agent, complete release of the 
agent from all damaged bombs, and favorable cloud transport 
conditions--we assessed that U.S. troops probably were not exposed to 
even low levels of chemical agents from this site. Subsequent joint 
DoD/CIA analysis of intelligence and information from UNSCOM has 
refined our estimates of the amount of nerve and mustard agents 
released as a result of Coalition bombing.

    <bullet>  Better information on agent purity, number of bombs, and 
release percentage led us to reduce the estimated amount of nerve agent 
released from 290 kg to 180 kg. 2001 DoD modeling using the new release 
amount indicates U.S. troops were not exposed to low levels of nerve 
agents released from Muhammadiyat, although DoD notes that it is 
possible that fewer than 70 special operations forces may have been 
exposed to low levels of nerve agents released.
    <bullet>  The amount of mustard agent released has increased from 
about 1,500 kg to 3,000 kg, because contrary to previous Iraqi 
declarations, 266 additional mustard bombs burned because of Coalition 
bombing. 2001 DoD modeling using the larger mustard release amounts 
indicates U.S. troops were not exposed.

    Ukhaydir. In 1997, we had assessed that Coalition bombing of 
Ukhaydir may have released mustard from 155-mm artillery munitions, 
although we acknowledged that it was possible that none had been 
released. In 2002, we judged that a release was unlikely based on 
several factors:

    <bullet>  Lack of any indications of damaged munitions during a 
thorough 1998 UNSCOM excavation at Ukhaydir, including searches with 
sophisticated ground-penetrating radar;
    <bullet>  Iraqi denial of any wartime damage to mustard shells at 
Ukhaydir, despite pressure to account for 550 shells Iraq declared were 
damaged during the Gulf War; and
    <bullet>  Indications from intelligence information that likely 
stacks of mustard shells were probably not directly damaged by a nearly 
bombing-induced bunker fire or a separate bomb explosion under a road.

    In addition, we no longer believe that empty 155-mm shells found by 
UNSCOM are related to Desert Storm aerial attacks at Ukhaydir--a worst-
case assumption we made in 1997. On the basis of their external 
appearance and Iraqi declarations, we conclude that these munitions--
some empty green shells and others burned shells--probably were 
holdovers from the Iran-Iraq War or were damaged elsewhere.
Additional Releases?
    Intelligence and UNSCOM information provide no basis for suspecting 
that stores of undiscovered munitions or bulk chemical agent were 
damaged during the Gulf War. Iraq declared--and UNSCOM corroborates--
that no Iraqi bulk chemical agent storage container was damaged. Most 
were buried at a safe distance from expected Coalition bombing targets. 
We believe that Iraq generally tried to declare all damaged--and, 
therefore useless--chemical munitions to demonstrate compliance with UN 
resolutions. In addition, given the detailed reliable information 
available on many aspects of Iraq's CW program, it is unlikely that 
during Desert Storm there were additional chemical-agent-filled 
munitions close to or within the Kuwait Theater of Operations. Thus, we 
assess that additional Gulf War-era releases of chemical agents large 
enough to threaten exposure to U.S. troops are unlikely, although 
additional small chemical releases are possible.
    Extensive previous modeling leads us to conclude that the other 
unmodeled CW releases and suspect releases were too small and distant 
to expose U.S. troops. Using previous modeling of potential release 
events throughout the entire air war, we can estimate--without formally 
modeling--a worst case of how far contamination from a given amount of 
chemical agent would extend. Comparing the modeled events to the 
unmodeled events indicates that unmodeled release sites are too remote 
for chemical contamination to have reached U.S. troops for the 
estimated release amounts.
    Al Walid. UNSCOM examination of its inspection photographs at Al 
Walid Airbase indicates a few of the approximately 160 binary (alcohol-
filled) bombs may have released nerve agent. Photographs show that 
several bombs were split open--most likely because of internal 
pressure--indicating that they may have been full and, by implication, 
contained nerve agent instead of just alcohol (a binary component of 
the agent). UNSCOM believed that a bomb only partially filled with 
alcohol would not burst because the additional empty volume would allow 
for heat expansion. We assess that defects in the welding or other 
factors could also have caused the rupture. These bombs probably were 
damaged as a result of Coalition bombing--consistent with Iraqi claims. 
Nevertheless, even if a release did occur, we assess it would have been 
too small to reach U.S. troops in Saudi Arabia.
    Unilateral Destruction. As at Al Walid, we note that binary bombs 
at four other airfields may have been filled with chemical agents when 
Iraq unilaterally destroyed them. In addition, degradation products and 
a stabilizer of the nerve agent VX were found on some of the fragments 
of Iraqi warheads for the Al Husayn missile, indicating that a few were 
filled with VX nerve agent before Iraq destroyed them in the Al Nebal 
area. If releases occurred, the amounts probably were too low to reach 
U.S. troops.
    Leaks. UNSCOM inspectors found leaking munitions at six different 
facilities; most leaks resulted from munition defects and harsh storage 
conditions and released small amounts of CW agent from sites far from 
deployed U.S. troops. The most significant CW leak involved release of 
mustard at the Al Tuz Airbase--the most northerly of the leakage sites. 
This probably resulted from Iraqi bulldozing of munitions during 
burial.
No Chemical Weapons Use
    We continue to assess that Iraq did not use chemical weapons 
against Coalition forces during Desert Storm. In our review of 
intelligence reporting and analysis of Iraq's chemical agent 
stockpiles, we found no credible evidence of such use and we were 
unable to corroborate any of the reported allegations of CW use in the 
Desert Storm January-February 1991 ground war timeframe. As reported in 
2004, investigations by the Iraq Survey Group (ISG)--after the March-
May 2003 ground war against Iraqi military forces during Operation 
Iraqi Freedom--show that Iraq attempted to use CW nerve agent bombs 
against Shiites in southern Iraq following Desert Storm, which had been 
a concern in a Gulf War illnesses context because of the possibility of 
downwind exposure to nearby U.S. troops. ISG reported that the bombs 
failed to detonate. This was probably because they were not designed to 
be dropped from helicopters, which leads us to conclude that any 
release would have been very small and unlikely to affect troops. The 
ISG information confirmed our previous assessment that Iraq 
successfully used tear gas. According to DoD, none of the more than 100 
Desert Storm frontline medical personnel interviewed saw or treated any 
individual they believed was a chemical agent casualty--even though 
large numbers of Iraqis sought medical help from Coalition units.
    Coalition Reports of CW. On numerous occasions, Coalition troops 
reported potential detection of, or exposure to CW agents during 
military operations in the Persian Gulf. After reviewing DoD 
investigations, intelligence information, testimony or reports to 
Congress and Presidential Committees, and the press, we have not found 
any event we assess to be related to chemical agents or weapons. On the 
contrary, we assess these reports were a result of false alarms, 
conventional munitions, other chemicals such as missile propellants, 
and other factors. Of note, we assessed in 2002 that two Coalition 
incidents that we previously considered credible CW events--Czech CW 
detections in January 1991 and the blistering of a U.S. soldier at the 
Iraq-Kuwait border in early March 1991--are unlikely to have involved 
chemical agents.

    <bullet>  Our extensive investigations into possible release 
locations of chemical agent failed to identify a plausible source of 
release for any of the well-known Czech detections in Saudi Arabia and 
essentially rule out releases from aerial bombing of Iraqi facilities. 
In addition, new information indicates the Czech detections were not as 
foolproof as previously believed, leading us to assess that the 
detections more likely resulted from other causes associated with 
detection equipment design and operational constraints or defects. For 
example, Czech officials recently inferred that a nerve agent system 
contained degraded buffers. Buffers were added to avoid false 
detections from many common chemicals, and their deterioration might 
have triggered inaccurate results.
    <bullet>  We now assess that the U.S. soldier's blisters were not 
caused by mustard agent because intelligence and UNSCOM information 
indicate that mustard was not at this location. In addition, we assess 
that the Fox mobile detector information and initial medical evaluation 
were less compelling than later laboratory testing on garments and 
analyses of the Fox data, which indicate that mustard was not involved.

    After conducting a multi-year study, the Khamisiyah Pit demolition 
of 10 March 1991 remains the one CW agent release where troops probably 
were exposed to low levels of nerve agent, although as already noted, 
DoD reported in 2001 that its modeling of the Muhammadiyat nerve agent 
release indicates the possibility of exposure of special operations 
forces behind enemy lines.
Conclusion
    In conclusion, I want to reiterate the Intelligence Community's 
commitment to the men and women who served in the Persian Gulf, as well 
as those who serve our country around the world today. Intelligence 
support to help our soldiers and veterans is critical.

                                 <F-dash>
         Prepared Statement of R. Craig Postlewaite, DVM, MPH,
         Deputy Director, Force Readiness and Health Assurance,
            Force Health Protection and Readiness Programs,
     Office of the Assistant Secretary of Defense (Health Affairs),
                       U.S. Department of Defense
    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to discuss the Department of Defense (DoD) Force 
Health Protection Research program, with an emphasis on the research 
program related to illnesses in veterans of the 1990-91 Gulf War.
    During the 1990-91 Gulf War, 697,000 U.S. servicemembers were 
deployed. There were 148 combat deaths and 224 deaths due to diseases 
or non-battle injuries. The mortality rate from diseases and non-battle 
injuries were the lowest for any major U.S. conflict up to that date. 
However, some veterans developed chronic symptoms of a non-specific 
nature, starting while they were deployed or after returning from the 
war. These symptoms included fatigue, memory and concentration 
problems, sleep difficulties, headaches, muscle and joint pain, 
digestive symptoms, and skin rashes.
    DoD agrees that the symptoms in these veterans are real and they 
deserve our best care and treatment. DoD and the Department of Veterans 
Affairs (VA) established clinical evaluation programs to understand the 
nature of the symptoms in these veterans and to provide appropriate 
treatment. In 1992, VA began the Gulf War Registry Health Examination 
Program; and in 1994, DoD began the Comprehensive Clinical Evaluation 
Program. More than 170,000 of the 697,000 veterans of the 1990-1991 
Gulf War were evaluated in these programs. Approximately 80 percent of 
the individuals received diagnoses that readily explained their 
symptoms. About 24,000 or 20 percent had medically unexplained 
symptoms. In 2002, DoD and VA published a detailed analysis of the 
symptoms and medical diagnoses of slightly more than 100,339 veterans 
of the 1990-1991 Gulf War, who had participated in the Registries by 
1999 in a comprehensive report entitled, ``Combined Analysis of the VA 
and DoD Gulf War Clinical Evaluation Programs.'' The report found that 
no single type of illness predominated.
    In 2001, the Institute of Medicine (IOM) published a report on 
effective treatments for medically unexplained symptoms, entitled 
``Gulf War Veterans: Treating Symptoms and Syndromes.'' The IOM report 
described treatments for several of the symptoms experienced by some 
Gulf War veterans, including chronic unexplained fatigue, chronic 
widespread pain (also called fibromyalgia) in muscles and connective 
tissue, persistent headaches, and chronic digestive symptoms. In 2002, 
DoD and VA developed and implemented a joint treatment guideline 
entitled ``VA/DoD Clinical Practice Guideline for Medically Unexplained 
Symptoms of Chronic Pain and Fatigue.''
    In 1994, Congress directed VA to implement a policy to provide a 
presumption of service connection for a list of 13 medically 
unexplained symptoms and to provide disability compensation to 
individuals with these symptoms. Later, VA added chronic fatigue 
syndrome, fibromyalgia, and irritable bowel syndrome to the list of 
presumed service connected conditions. In 2008, VA determined that 
amyotrophic lateral sclerosis (ALS) should receive a presumption of 
service connection.
Research on Illnesses in Veterans of the 1990-91 Gulf War
    Since 1994, DoD, VA, and the Department of Health and Human 
Services have managed a coordinated Federal research effort to better 
understand the health concerns of Gulf War veterans. From 1992 to the 
end of 2007, 345 research projects were funded at a total cost of $340 
million. Of this amount, DoD provided $219 million for 177 projects. 
The projects address five categories: Environmental Toxicology, Brain 
and Nervous System Function, Symptoms and General Health, Immune 
Function, and Reproductive Health. In 2002, DoD launched a research Web 
site called DeployMed ResearchLINK to inform servicemembers, 
researchers, health care providers, leaders, and others about the 
research projects supporting Gulf War veterans' health. The Web site 
includes research projects and publications and information about each 
of the 345 research projects. Projects and publications related to the 
current conflicts in Iraq and Afghanistan were included a few years 
ago.
    Among the 345 research projects, DoD and VA have funded several 
treatment studies at a cost of more than $20 million. A controlled 
clinical trial was performed at 18 VA hospitals and at one DoD 
hospital, which used cognitive behavioral therapy and aerobic exercise 
to treat chronic symptoms of fatigue, musculoskeletal pain, and memory 
problems. Both treatments led to modest improvements in memory problems 
and other symptoms. A second controlled clinical trial was performed at 
26 VA hospitals and two DoD hospitals, which used a 12-month course of 
an antibiotic, doxycycline, to treat the same three chronic symptoms. 
Doxycycline was not effective in eliminating or controlling symptoms. A 
number of smaller treatment studies for medically unexplained symptoms 
were completed, including research at several leading research centers 
across the United States.
    The largest VA Gulf War veterans' health study was the ``National 
Health Survey of Gulf War Era Veterans and Their Families.'' The first 
part of this study was a survey conducted from 1995 to 1998 of 11,441 
veterans of that war and 9,476 non-deployed veterans that asked about 
48 different symptoms. The second part of this study conducted in 1999 
to 2001 included comprehensive medical and psychiatric examinations of 
1,061 Gulf War veterans and 1,128 non-deployed veterans. In the survey 
portion, Gulf War veterans reported an increased frequency of each of 
the 48 symptoms compared to the non-deployed veterans; the non-deployed 
veterans reported the same types of symptoms but at a lower rate. None 
of the symptoms were unique to Gulf War veterans.
    The medical examinations in the second part of the National Health 
Survey focused on twelve diseases. The rates of chronic fatigue 
syndrome and fibromyalgia were significantly higher in the Gulf War 
veterans compared to the non-deployed veterans. There were no 
significant differences in the rates of the other diseases. The overall 
conclusion of the authors was: ``Ten years after the Gulf War, the 
physical health of deployed and non-deployed veterans is similar.'' The 
psychiatric examinations in the second part of the National Health 
Survey used structured clinical interviews to diagnose depression, 
post-traumatic stress disorder (PTSD), alcohol dependence, and several 
other conditions. Overall, Gulf War veterans were diagnosed with a 
significantly higher rate of psychiatric conditions (18.1 percent), 
compared to the rate in the non-deployed veterans (8.9 percent). Gulf 
War veterans were diagnosed with significantly higher rates of 
depression, PTSD, and panic disorder.
    Following the 1990-1991 Gulf War, DoD identified research gaps 
related to the potential human health effects on a variety of topics, 
including low-level exposures to chemical warfare agents. The effects 
of high concentrations of chemical agents had been well understood for 
decades, but the long-term effects of low-level exposures that were too 
low to cause symptoms were not clear. The DoD research portfolio on 
illnesses among veterans of the 1990-1991 Gulf War included many 
research projects related to the effects of chemical warfare agents, 
particularly Sarin. In addition to the Gulf War-related projects, DoD 
has recently performed other research on chemical warfare agents. In 
2003, DoD implemented a Low-Level Chemical Warfare Agent Master Plan 
that identified and prioritized major gaps in knowledge. DoD has 
completed several studies to fill the research gaps. The results of the 
studies have been used in a number of DoD guidance documents that 
impact first responder safety, cleanup decision making for chemical 
incidents of national significance, interior decontamination, and re-
evaluation of the potential effects of exposure levels in operational 
environments. These guidance documents have had significant effects on 
national and homeland defense.
    In 2006, the IOM published a comprehensive review of 850 studies, 
which included research on Gulf War veterans from the U.S., U.K., 
Canada, Denmark, and Australia, entitled ``Gulf War and Health, Volume 
4: Health Effects of Serving in the Gulf War.'' The IOM concluded that 
there were no differences in overall mortality or hospitalization rates 
in Gulf War veterans, compared to non-deployed veterans. It concluded 
there were no differences in the overall rates of cancer between the 
two groups of veterans. Studies of two types of cancer, testicular 
cancer and brain cancer, showed inconsistent results. IOM also stated 
that veterans of the Gulf War might be at a two-fold increased risk of 
amyotrophic lateral sclerosis (ALS), compared to non-deployed veterans. 
Overall, there was not a higher prevalence of birth defects in the 
children of male or female veterans of that war. IOM concluded that the 
war veterans were at increased risk for post-traumatic stress 
disorders, anxiety disorders, depression, and substance abuse. The 
rates of these psychiatric disorders were consistently two to three 
times higher in Gulf War veterans, than the rates in non-deployed 
veterans.
    Almost all of the previous studies have shown that these war 
veterans reported nearly twice the rate of all symptoms, compared to 
servicemembers who did not deploy. However, based on many research 
studies, the IOM concluded that there are no unique symptoms or a 
unique pattern of symptoms in the veterans of that war.
    In 1998, Congress directed VA to contract with IOM to perform 
comprehensive reviews of the medical literature on 33 different 
exposures and force health protection measures. These included the 
pyridostigmine bromide (PB) nerve agent antidote tablets, 
immunizations, pesticides, chemical nerve agents, depleted uranium, 
infectious diseases, oil well fire smoke, anthrax vaccine, oil well 
fire smoke, fuels, and solvents. Since 1998, IOM has published a series 
of 10 related reports on these topics. IOM was unable to identify a 
cause and effect relationship between any of the 33 exposures and force 
health protection measures and illnesses in Gulf War veterans.
    In 2006, IOM recommended that further epidemiological studies 
should not be performed, in general. IOM stated: ``Our committee does 
not recommend that more such studies be undertaken for the Gulf War 
veterans, but there would be value in continuing to monitor the 
veterans for some endpoints.'' IOM recommended follow-up studies that 
were targeted to a few specific health outcomes, namely: mortality, 
cancer (particularly brain cancer and testicular cancer), ALS, birth 
defects, other adverse pregnancy outcomes, and psychiatric conditions.
    Nearly all servicemembers who were on active duty in 1991 have 
separated from the military; and VA is performing the medical 
surveillance studies that IOM recommended in 2006. DoD continues to be 
an active collaborator with VA on health research on deployed 
personnel. The DoD research portfolio on 1990-1991 Gulf War veterans' 
illnesses was renamed ``Force Health Protection Research'' in 2002. 
This program continues to include medical issues of veterans of the 
1990-1991 Gulf War, as well as health issues of servicemembers 
returning from current conflicts. In Fiscal Years 2006 to 2009, DoD 
funded $23 million specifically for research on illnesses in 1990-1991 
Gulf War veterans, including $8 million in 2009. The recent focus of 
DoD-funded research related to veterans of that war has been on 
improvement of diagnostic methods and identification of effective 
treatments.
DoD Force Health Protection: Current Research and Medical Lessons 
        Learned from the 1990-1991 Gulf War
    The medical lessons learned from the 1990-1991 Gulf War led to the 
implementation of the Force Health Protection concept, policies, and 
programs. These policies and programs are designed to ensure that 
servicemembers are:

    <bullet>  Medically ready for duty when they join the military and 
throughout their military careers;
    <bullet>  Medically ready to perform their missions when deployed 
to combat operations;
    <bullet>  Protected against disease and illness to the maximum 
extent possible; and
    <bullet>  Educated and motivated to prevent or minimize the risk of 
injury and illness.

    DoD force health protection research focuses on prevention of 
illnesses and injuries in deployed servicemembers. Many of these 
prevention studies are funded through the Army Medical Research and 
Materiel Command, which includes the Military Operational Medicine 
Research Program. Current research areas include prevention of endemic 
infectious diseases, nutritional sustainment in austere environments, 
prevention and treatment of traumatic brain injuries, physiological 
interventions to prevent musculoskeletal injuries, injury prevention in 
extreme environments, new methods of environmental monitoring, and 
biological markers of environmental exposures.
    A major lesson learned following the 1990-1991 Gulf War was the 
need to systematically assess the health of servicemembers before and 
after deployments. Starting in 1998, DoD implemented pre- and post-
deployment and periodic health assessments for every deploying 
servicemember.
    The pre-deployment health assessment enables the medical provider 
to determine if any further medical evaluations are needed before 
making a recommendation on an individual's deployability. This 
assessment is performed within 60 days before the deployment date to 
check for any recent changes in health. The health care provider 
conducts the assessment in conjunction with a review of the 
individual's medical record. Referrals are made for medical 
evaluations, immunizations, dental care, and other care, as needed.
    The post-deployment health assessment (PDHA) was enhanced in 2003 
to collect a standardized set of information about medical symptoms and 
exposure concerns, and it is administered at the time of return from 
deployment. The post-deployment health reassessment (PDHRA) was begun 
in June 2005 to re-evaluate the health of servicemembers three to 6 
months after their return from deployment. DoD initiated the PDHRA 
because military medical research showed that physical and mental 
health symptoms and concerns in servicemembers often appear after war 
veterans returned home and were reintegrating with their families and 
their work.
    The Periodic Health Assessment, first required in 2006, is 
currently accomplished on all active and selected reserve 
servicemembers on an annual basis. It is a comprehensive evaluation 
that follows the recommendations of the U.S. Preventive Services Task 
Force's assessment for disease when indicated based upon age and other 
risk factors. It includes a medical record review, identification and 
treatment of any medical problems, and identification of health risks 
and plans to manage the risks.
    The overall purpose of the PHA, PDHA, and PDHRA is to assess 
servicemembers' overall health, including deployment-related physical 
health, mental health, and exposure concerns. These assessments assist 
the health care provider in determining current health status, in 
identifying potential health problems and risks, and in providing brief 
education and risk communication. The PHA, PDHA, and PDHRA include a 
one-on-one interaction of each servicemember with a health care 
provider to review any concerns identified on the assessments and to 
make a determination of any need for referral for further evaluation 
and diagnostic work-up. The assessments are not medical diagnostic 
tools or research surveys. Instead, they are clinical tools used to 
identify the need for further medical evaluation. An important aspect 
of the assessment process is education of the servicemember about 
medical conditions, both physical and mental, and the symptoms or 
exposures that could indicate the need for further evaluation.
    Occupational and environmental health surveillance is a key 
component of the preventive medicine activities that take place during 
deployments, including Operation Iraqi Freedom and Operation Enduring 
Freedom. DoD recognizes the need to monitor the deployed environment 
for potentially hazardous materials and to document and archive the 
results so that they can be used as an aid in the diagnosis and medical 
care of exposed personnel. Following the 1990-1991 Gulf War, it was 
quickly recognized that there was a lack of environmental monitoring 
data to document the types and concentrations of hazardous exposure 
agents to which Gulf War veterans were possibly exposed. Gulf War 
veterans expressed concerns about several types of possible exposures, 
including pesticides, chemical nerve agents, depleted uranium, oil well 
fire smoke, and diesel fuel exhaust. In addition, there were very poor 
records kept of the locations of deployed servicemembers throughout the 
war, making it difficult to ascribe possible environmental exposures to 
specific groups of servicemembers.
    After the 1990-1991 Gulf War, DoD implemented many directives, 
instructions, and policies to improve DoD's deployment health program 
to ensure servicemembers were adequately protected during and after 
deployment. Some of these measures include:

    <bullet>  Comprehensive pre-deployment health threats and 
countermeasures briefings;
    <bullet>  Completion of a pre-deployment health assessment, 
including providing a serum sample before deployment;
    <bullet>  Completion of all necessary immunizations and the 
dispensing of preventive medications including documentation in the 
medical records;
    <bullet>  Ensuring all required personal protective equipment is 
issued before deployment;
    <bullet>  Recordkeeping of the locations of deployed individuals on 
a daily basis;
    <bullet>  Documentation in the medical records of any hazardous 
exposures encountered during the deployment;
    <bullet>  Completion of a PDHA, including questions about health 
concerns and occupational and environmental health (OEH) exposures, and 
providing a serum sample within 30 days of returning home;
    <bullet>  Completion of a PDHRA 3 to 6 months after returning from 
deployment, including questions about health concerns and OEH concerns; 
and
    <bullet>  Referral to a health care provider, as appropriate, for 
further evaluation of health or exposure concerns reported on the PDHA 
or PDHRA.

    Increased emphasis was also placed on improving deployment OEH 
surveillance. As a result, the Services, the Joint Staff, and the 
Combatant Commands have made great progress in better addressing the 
immediate and long-term health issues associated with deployment 
occupational and environmental exposures.
    Well-trained and equipped Service medical personnel conduct 
ongoing, in-theater OEH surveillance, and closely monitor air, water, 
soil, food, and disease vectors for health threats. Three general types 
of OEH data are collected:

    <bullet>  ``Baseline data,'' which are collected on air, water, and 
soil samples at the time base camps are established;
    <bullet>  ``Routine (or periodic) data,'' such as follow-up air, 
soil, and water monitoring data that are used to detect any changes in 
concentrations of potential contaminants over time; and
    <bullet>  ``Incident-related data,'' which includes data acquired 
during investigations of chemical spills, industrial accidents, and 
food or waterborne illness outbreaks.

    More than 11,000 air, water and soil samples have been taken and 
analyzed during the current conflicts in Iraq and Afghanistan. All OEH 
monitoring data are documented and archived in a systematic manner, so 
that they are retrievable:

    <bullet>  All environmental samples are identified with a date, 
time, and location that can now be linked with individual personnel who 
were at a particular location at a specified date and time, thus 
providing us with the ability to create exposure registries.
    <bullet>  Possible hazardous exposure incidents are thoroughly 
investigated, extensive environmental monitoring is accomplished, 
appropriate medical tests are ordered, and rosters of exposed personnel 
are assembled and archived.
    <bullet>  Area and date-specific environmental monitoring summaries 
are developed by the Services to document environmental conditions 
potentially affecting health and also to serve as means to inform 
health care providers and VA of those environmental conditions and 
possible health risks associated with the conditions.
    <bullet>  For complex exposures where the health implications may 
not be clear, we call on the Defense Health Board, a board that serves 
the Secretary of Defense with esteemed medical and scientific experts, 
to provide DoD with their recommendations.
    <bullet>  DoD routinely briefed VA on exposures of concern and 
provided VA members who have security clearances access to any exposure 
data that is classified.

Conclusion
    Along with the military mission itself, the highest priority in DoD 
is the protection of the health of the men and women in uniform and the 
provision of the best possible care to those who become ill or injured. 
DoD has funded extensive research related to illnesses in Gulf War 
veterans since 1992. These studies have clarified the nature of these 
illnesses and the possible risk factors; and have investigated improved 
diagnostic techniques and innovative treatments. In addition, these 
studies have provided critical new information that is needed to 
prevent or minimize illnesses and injuries of servicemembers who have 
deployed to the current conflicts in Iraq and Afghanistan.
    Mr. Chairman, thank you for the opportunity to discuss the DoD 
research program related to Gulf War illnesses in our servicemembers 
and veterans.

                                 <F-dash>
           Prepared Statement of Lawrence Deyton, MSPH, M.D.,
         Chief Public Health and Environmental Hazards Officer,
  Veterans Health Administration, U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for 
providing the Department of Veterans Affairs (VA) this opportunity to 
discuss VA's work in research and response to Gulf War Veterans' 
Illnesses. I am accompanied today by Dr. Joel Kupersmith, Chief 
Research and Development Officer, Veterans Health Administration (VHA), 
and Dr. Mark Brown, Director, Environmental Agents Service, Office of 
Public Health and Environmental Hazards, VHA.
    VA recognizes that veterans returning from combat often face unique 
medical conditions; indeed, providing health care for these conditions 
is part of our core mission. Research supported directly or indirectly 
by VA has identified a number of health problems for which deployed 
veterans face greater risks. In response to these findings, VA has 
adapted its health care system to provide support, treatment and 
counseling for affected veterans and their dependents. After providing 
some general background information about the nature of deployments in 
the Gulf War, my testimony will cover these two themes by first 
describing VA's research base and previous findings related to Gulf War 
veterans, as well as our clinical approaches to improve health care for 
veterans.
Background
    The United States deployed nearly 700,000 military personnel to the 
Kuwaiti Theater of Operations (KTO) during Operations Desert Shield and 
Desert Storm (August 2, 1990, through July 31, 1991). Within months of 
their return, some Gulf War veterans reported various symptoms and 
illnesses they believed were related to their service. Veterans, their 
families, and VA subsequently became concerned about the possible 
adverse health effects from various environmental exposures during 
Operations Desert Shield and Desert Storm.
    Of particular concern have been the symptoms and illnesses that, to 
date, have eluded specific diagnosis. To date, 111,000 Gulf War 
veterans have enrolled in VA's health registry, and approximately 
59,000 have enrolled in the Department of Defense's (DoD's) registry. 
In addition, more than 335,000 have been seen at least once as patients 
by VA. Although the majority of veterans seeking VA health care had 
readily diagnosable health conditions, we remain very concerned about 
veterans whose symptoms could not be diagnosed. VA continues to 
compensate and treat these conditions, even without a clear diagnosis.
Research
    VA's Office of Research and Development (ORD) recognized soon after 
veterans began returning from the 1991 Gulf War that while there were 
few visible casualties, many individuals returned from this conflict 
with unexplained medical symptoms and illnesses. ORD supports a 
research portfolio consisting of studies dedicated to understanding 
chronic multi-symptom illnesses, long-term health effects of 
potentially hazardous substances to which Gulf War veterans may have 
been exposed during deployment, and conditions or symptoms that may be 
occurring with higher prevalence in Gulf War veterans, such as 
Amyotrophic Lateral Sclerosis (ALS), Multiple Sclerosis and brain 
cancer. VA's research focus in this area considers three principal 
questions:

    <bullet>  First, what, if any, conditions do Gulf War veterans 
report at a disproportionate rate to the civilian population or to non-
deployed veterans?
    <bullet>  Second, what are the causes of these conditions?
    <bullet>  Third, what is the best approach for treating these 
conditions?

    These research agendas are supported and complemented by the work 
of a range of partners, both inside government and out. For example, 
the VA/DoD Health Executive Council oversees the Research Subcommittee 
of the Deployment Health Work Group, and the Department of Health and 
Human Services participates in both the Deployment Health Work Group 
and its Research Subcommittee. This cooperation provides essential data 
on military and civilian populations and reflects some of the best 
research from across the country. Some exposures servicemembers face 
while deployed in combat are actually quite similar to domestic 
exposures, so inclusion of civilian studies provides an important 
perspective on what risks exist under different situations or at 
different levels of exposure. For example, pesticides are commonly used 
by citizens everyday, and these same pesticides are also often used in 
military theaters of combat. Moreover, data from DoD have proven 
essential to VA's epidemiological studies of the veteran cohort. 
Specifically, following the end of active hostilities in the Gulf War, 
DoD provided VA with data on approximately 690,000 returning veterans. 
This data establishes a broad research base that improves its validity 
and reliability concerning health risks for veterans. This research is 
not purely academic; policymakers use these findings to make health 
care decisions regarding resources, treatment and presumptive 
connections to military service.
    Following the end of active combat in the Gulf War, VA quickly 
established a clinical registry to screen for health problems 
attributable to intense smoke from oil fires. The voluntary health 
registry examination also encouraged new combat veterans to take 
advantage of VA health care programs. VA has long maintained health 
registries on other at-risk populations, including veterans exposed to 
ionizing radiation and Vietnam veterans exposed to Agent Orange. 
Formally established by law in 1992, VA's Gulf War Veterans' Health 
Examination Registry is still available to all Gulf War veterans, 
including veterans of the current conflict in Iraq. It offers a 
comprehensive physical examination and collects data from participating 
veterans about their symptoms, diagnoses, and self-reported Gulf War 
hazardous exposures.
    As of March 2009, this program evaluated over 110,000 Gulf War 
veterans, or about 1 in 7 veterans. The program has also seen nearly 
7,000 veterans who served in the current conflict in Iraq, who as Gulf 
War veterans themselves are eligible for this program.
    After 15 years, the principal finding from VA's systematic clinical 
registry examination of about 16 percent 1991 Gulf War veterans is that 
they are suffering from a wide variety of common and recognized 
illnesses. However, no new or unique syndrome has been identified. VA 
recognizes that registry data has significant limitations. Registry 
participants are self-selected and do not necessarily represent all 
veterans. Additionally, any findings from a Registry are limited to 
that population and do not demonstrate whether veterans are receiving 
any diagnoses at rates different than expected. High quality 
epidemiological research studies are the best approach for evaluating 
the health impacts of service in the 1991 Gulf War (or in any 
deployment). These studies are greatly facilitated by VA's electronic 
medical record, which summarizes every visit by a veteran and includes 
all medical diagnoses.
    VA also works closely with the National Academy of Sciences' (NAS) 
Institute of Medicine (IOM) to evaluate potential associations between 
environmental hazards encountered during military deployment and 
specific health effects. Since 1991, IOM has completed nineteen 
independent reviews of Gulf War veterans' health issues. VA has pursued 
this relationship with IOM at its own discretion and upon 
recommendation by Congress for Vietnam and Gulf War veterans, as well 
as veterans of other eras such as today's conflicts in Iraq and 
Afghanistan. IOM's work has allowed VA to recognize approximately a 
dozen diseases as presumed to be connected to exposure to Agent Orange 
and other herbicides used during the Vietnam War, and to the dioxin 
impurity some contained. IOM's opinion is regularly sought to address a 
range of health care issues. Their independent stature and collection 
of internationally recognized scholars and researchers uniquely 
positions the IOM to provide expert, well-informed findings free of 
conflicts of interest. When VA works with IOM, we generally defer to 
their professional opinions concerning methodology to support this 
independence. Their reports consider all available research, including 
both human and animal studies, to guide their findings about whether 
there is a connection between exposure to a substance or hazard and the 
occurrence of an illness and whether there is a plausible biological 
mechanism or other evidence to support that connection. IOM bases their 
recommendations upon formal findings and scientific evidence, and each 
IOM report is reviewed internally and externally in an exacting and 
thorough process.
    In 1998, in response to increasing health concerns among veterans 
of the 1991 Gulf War, Congress enacted Public Law 105-368 requiring VA 
and DoD to seek to contract with the National Academy of Sciences under 
which IOM would provide an independent analysis of the published peer-
reviewed literature on possible long-term health effects from 
environmental and occupational hazards associated with the 1991 Gulf 
War. This process has generated nine comprehensive IOM Committee 
reports on a wide variety of Gulf War health issues including long-term 
health effects from vaccines, depleted uranium, nerve agent antidotes, 
chemical warfare agents, pesticides, solvents, fuels, oil-well smoke, 
infectious diseases, deployment-related stress, traumatic brain injury, 
and Gulf War veteran epidemiological studies.
    At the direction of Congress, VA, in 2002 chartered the VA Research 
Advisory Committee on Gulf War Veterans' Illnesses (RACGWVI) to advise 
the Secretary on the overall effectiveness of federally funded research 
to answer central questions on the nature, causes, and treatments of 
Gulf War-associated illnesses. The RACGWVI's charter stipulates that 
they are to provide information to the VA and not to independently 
release information. Despite their charter restrictions, the RACGWVI 
has published and released an independent report, including 
recommendations, in 2004 and again in 2008. The 2008 RACGWVI Report and 
recommendations from the RACGWVI were presented to the former Secretary 
in November 2008.
    In November 2008, VA requested that the IOM explain discrepancies 
between findings contained in nine congressionally mandated IOM 
Committee reports on Gulf War health issues completed since 1998, and 
the October 2008 report released by the RACGWVI. On January 23, 2009, 
VA received a response from Dr. Harvey Fineberg, President of the IOM.

    <bullet>  In summary, these nine independent IOM committee reports 
have found that Gulf War veterans experience greater rates of symptom-
based illnesses compared to their non-deployed peers, but no unique 
illness has been identified. Further, most of the environmental hazards 
reviewed have not been found to explain illnesses experienced by Gulf 
War veterans.
    <bullet>  In contrast, the October 2008 RACGWVI report concluded 
that a unique neurological illness has caused significant morbidity (25 
percent) among Gulf War veterans, and that this is ``causally'' (the 
highest possible level of association) linked to nerve agent antidote 
Pyridostigmine Bromide and pesticides used in the 1991 Gulf War.

    IOM's response made several key points:

    <bullet>  Both RACGWVI and IOM reports acknowledge that Gulf War 
veterans report greater rates of illnesses and a wide range of 
environmental exposures.
    <bullet>  Nine IOM committees, however, were not able to link any 
specific environmental cause for increased reported symptoms in this 
group.
    <bullet>  Each IOM committee specifies in its report the criteria 
establishing an association, and its strength. However, the IOM was not 
able to evaluate the criteria used by the RACGWVI from its report, 
which might underlie differences in its conclusions.
    <bullet>  Although the RACGWVI states that IOM committees have 
failed to use animal studies as part of its analyses, examination of 
actual IOM reports demonstrate they include thorough reviews of 
hundreds of animal studies.
    <bullet>  Speculation that the RACGWVI report reached different 
conclusions due to access to more recent scientific studies can not be 
ruled out. This possibility should be answered in the current IOM full 
literature review on Gulf War veterans' health, which will be completed 
in February 2010.

    Since the IOM cannot completely explain differences in findings 
contained in the nine IOM Committee reports and the RACGWVI report, in 
a letter dated February 13, 2009, VA formally requested that the IOM, 
as part of the current congressionally mandated Gulf War veteran health 
review, extend a formal invitation to the RACGWVI to present its key 
findings and the background for those findings to the new IOM 
Committee. The IOM Committee on Gulf War and Health: Health Effects of 
Serving in the Gulf War, Update 2009 held a public meeting on Tuesday, 
April 14, 2009 at the Keck Center of The National Academies in 
Washington, DC. The invited speakers included three members of VA's 
Research Advisory Committee on Gulf War Veterans' Illnesses: Mr. James 
Binns, Chair; Dr. Lea Steele; and Dr. Roberta White, who discussed that 
Committee's approach and findings.
    VA believes this will ensure that the basis for any differences 
between these reports can be efficiently and accurately communicated 
and considered by the latest IOM Committee. The IOM Committee's formal 
report is due February 2010.
    VA has traditionally and by law relied upon the IOM for independent 
and credible reviews of the science behind these particular veterans' 
health issues, therefore, VA will consider the IOM review of the 
Advisory Committee's report before the Department officially responds 
to its conclusions.
    VA prepares an Annual Report to Congress that describes federally 
sponsored research on Gulf War veterans' illnesses and has done so 
every year since 1997. In the 2007 Report, VA provided updated 
information on 19 research topics in 5 major research areas and a 
complete project listing by research focus area. The research areas 
include: brain and nervous system function, environmental toxicology, 
immune function, reproductive health, and symptoms and general health 
status. The 2007 report noted that between fiscal year (FY) 1992 and FY 
2007, VA, DoD, and HHS funded 345 distinct projects related to health 
problems affecting Gulf War veterans. Funding for this research on the 
health care needs of Gulf War veterans has totaled nearly $350 million 
over this period of time. These projects varied from small pilot 
studies to large-scale epidemiological surveys. Nine projects were 
funded through the Gulf War Veterans' Illnesses Research Program and 
three were funded through the Peer Reviewed Medical Research Program. 
Both programs are managed by the Congressionally Directed Medical 
Research Program at DoD. VA funded two new projects in FY 2007, with 
one focused on Environmental Toxicology and the other on Symptoms and 
General Health.
Treatment and Care
    Research is only the first step of the process; by turning 
information into action, VA directly improves the care of veterans. As 
noted before, veterans face both common and unique health care concerns 
when compared with the private sector, and VA physicians are prepared 
to deal with both. VA trains its providers to prepare to respond to the 
specific health care needs of all veterans, including Gulf War veterans 
with difficult-to-diagnose illnesses. For Gulf War veterans, VA 
developed a Clinical Practice Guideline on post-combat deployment 
health and another dealing with diagnosis of unexplained pain and 
fatigue. Also, VA has established three War Related Illness and Injury 
Study Centers to provide specialized health care for combat veterans 
from all deployments who experience difficult to diagnose or 
undiagnosed but disabling illnesses. Based on lessons learned from the 
Gulf War, VA anticipates concerns about unexplained illness after 
virtually all deployments, including Operation Enduring Freedom and 
Operation Iraqi Freedom (OEF/OIF), and we are building our 
understanding of such illnesses.
    This approach now includes OEF/OIF veterans with mild to moderate 
traumatic brain injury (TBI). VA's third War Related Illness and Injury 
Study Center at the Palo Alto VA Health Care System utilizes the 
advantages of the Polytrauma Rehabilitation Center, interdisciplinary 
program on blast injuries, and other specialty areas. VA has found 
combat injuries among OEF/OIF veterans are more likely to involve some 
degree of TBI than veterans of previous combat eras, and many of the 
long-term chronic health effects of TBI appear similarly difficult to 
diagnose.
    Following the Gulf War, VA developed the Veterans Health Initiative 
Independent Study Guides for health care providers as one of many 
options to provide tailored care and support of veterans. This Study 
Guide was principally designed for veterans of that era, but has proven 
highly relevant for treating OEF/OIF veterans since many of the 
hazardous deployment-related exposures have proven to be the same. VA 
developed other Independent Study Guides for returning veterans from 
Iraq and Afghanistan that cover topics such as gender and health care, 
infectious diseases of Southwest Asia, military sexual trauma, and 
health effects from chemical, biological and radiological weapons. 
Study Guides on post-traumatic stress disorder and TBI were also 
developed and made available for primary care physicians to increase 
understanding and awareness of these conditions. It is important to 
remember that the Veterans Health Initiative Study Guides are only one 
resource for providers. Dedicated staff members in VA medical centers 
are available to discuss any concerns veterans or providers may have 
regarding exposures they experienced while in a combat theater. VA 
distributes similar information through newsletters, brochures, 
conference calls and Study Centers to sensitize providers to the unique 
needs of combat veterans.
    VA operates a range of programs that offer additional services and 
benefits to veterans and their dependents because of evidence that 
suggests a connection between military service and a health care 
deficit. For example, VA extends benefits to children of Vietnam 
veterans born with spina bifida as a presumed service connected 
condition. Spina bifida is a devastating birth defect resulting from 
the failure of the spine to close. Depending on the extent of spinal 
damage, problems resulting from spina bifida may include permanent 
paralysis, orthopedic deformities, cognitive disabilities, breathing 
problems or impaired basic bodily functions. Likewise, the Children of 
Women Vietnam Veterans program provides hospital care and medical 
services for children with specific birth defects related to their 
veteran parent's military service. A monetary allowance is payable 
under both programs based on the child's degree of permanent 
disability.
Conclusion
    VA is an evolving organization that operates in a rapidly changing 
environment. Veterans from a broad background with unique needs come to 
us for care, and their military service sometimes exposes them to 
substances that may not be common in the civilian community and that 
may have unknown health effects. We have established a wide variety of 
programs to address these health concerns. At the same time, VA 
continues to learn new lessons to provide better care to all veterans, 
past, present and future.
    Thank you again for the opportunity to testify. My colleagues and I 
are prepared to answer any questions you may have.

                                 <F-dash>
                      Statement of Adrian Atizado,
  Assistant National Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting the Disabled American Veterans (DAV) to 
submit testimony for the record for this hearing by the Subcommittee on 
Oversight and Investigations. We appreciate the opportunity to offer 
our views on the state of Gulf War Illness (GWI) research on meeting 
the health needs of ill Gulf War veterans.
    Studies have made clear that veterans who served in the Persian 
Gulf War suffer from GWI and at greater rates than their non-deployed 
counterparts. Thus, approximately 175,000 to 200,000 veterans who 
served, remain seriously ill. Since the Gulf War, Federal agencies have 
sponsored numerous research projects related to Gulf War illnesses. 
Since 1994 the Departments of Defense (DoD) and Veterans Affairs (VA) 
have spent $440 million on Gulf War illness research; however, VA has 
broadened the scope of GWI research to include all other ``deployment-
related health research,'' which we believe dilutes the focus of VA's 
research into GWI.
    The DAV is also concerned about the issues raised by the Research 
Advisory Committee on Gulf War Veterans' Illnesses (RACGWVI), which is 
directed to evaluate the effectiveness of government research on GWI. 
The RACGWVI questions the nature of some VA-funded research as to 
whether these research projects will directly benefit veterans 
suffering from Gulf War illnesses by answering questions most relevant 
to their illnesses and injuries. In addition, we are equally concerned 
as with the RACGWVI that the Institute of Medicines (IOM's) Gulf War 
and Health reviews were not conducted in accordance with the laws that 
mandated them.
    In addition, subsections 1603(c)(B) of P.L.105-277 and 101 (c)(C) 
of P.L. 105-368 requires the agreement between VA and IOM to review the 
scientific evidence for associations between service in the Persian 
Gulf War and illnesses Gulf War veterans suffer from that are both 
diagnosed and undiagnosed. The Gulf War and Health series however, have 
not directly addressed those relevant undiagnosed health conditions 
that affect Gulf War veterans. Another example is that it appears the 
Gulf War and Health Committees are not using the same standards in 
evaluating the existence of an association for GWI to exposure as those 
previously established to evaluate diseases affecting Vietnam veterans 
in relation to Agent Orange. Notably, the variation places a higher 
burden when categorizing scientific evidence for Gulf War illnesses 
(Agent Orange Reports: http://veterans.iom.edu/subpage.asp? id=6159, 
Gulf War Illnesses Reports: http://veterans.iom.edu/
subpage.asp?id=6049). For example, the RACGWVI points out the omission 
of animal studies in IOM Gulf War and Health reports. The DAV is 
concerned that diluting GWI research and the biased process for 
reviewing the evidence base, will not give proper attention and relief 
to those issues veterans suffering from GWI.
    Despite these concerns, we believe that taken as a whole, the 
status of research on GWI provides a way forward to improving the lives 
of ill Gulf War veterans. The RACGWVI report outlines studies that 
consistently indicate GWI is not significantly associated with serving 
in combat or other psychological stressors, further citing that Gulf 
War veterans have lower rates of post-traumatic stress disorder than 
veterans of other wars. In fact, then-VA Secretary Principi pledged 
that VA Gulf War research funding would no longer be used for studies 
focused on stress as the central cause of Gulf War illness. The uses of 
pyridostigmine bromide (PB) pills and pesticides however, have been 
consistently identified as significant risk factors for GWI. In 
addition, limited research on other deployment related exposures 
currently exists and its association with Gulf War illness cannot 
therefore be ruled out.
    Although more is known today about the nature and causes for GWI, 
important questions remain. The DAV directs the Subcommittee's 
attention to an important gap in our knowledge about GWI--the 
availability of effective evidence based treatment. The DAV believes 
more research is needed to advance the knowledge, and promote 
innovative and effective evidence-based care, to improve the health and 
quality of life of ill Gulf War veterans. Over 18 years after the war, 
studies indicate that few veterans with GWI have recovered or 
substantially improved over time, and only a small minority has 
substantially improved. To address this matter, VA providers who are 
treating Gulf War veterans' illnesses, must have effective evidence-
based treatment protocols supported by evidence-based research studies. 
The myriad symptoms experienced by Gulf War veterans makes it very 
difficult for physicians to diagnose and treat a specific illness. 
Correspondingly, Gulf War veterans who experience little to no relief 
from their unique health problems are frustrated at best.
    Gulf War illness research is handled exclusively by VA and the DoD, 
and we thank Congress for their support in providing the resources for 
VA and DoD to conduct GWI research. However, very little money has been 
invested in treatment research. Through the Fiscal Year 2009 Gulf War 
Illness Research Program (GWIRP), DoD's Congressionally Directed 
Medical Research Programs (CDMRP) is soliciting applications for the 
Innovative Treatment Evaluation Award (ITEA). Notably, a similar effort 
is underway at a center of excellence for Gulf War research at the 
University of Texas Southwestern, sponsored by VA. We are hopeful these 
efforts will identify diagnostic tests and treatments for Gulf War 
illness.
    In light of a decline since 2001 in the overall Federal funding for 
Gulf War illness research, and that important questions surrounding GWI 
remain, the DAV urges Congress, VA, and the DoD, to renew their 
commitment by conducting strict oversight such as this hearing, and 
providing adequate funding of Federal research programs related to the 
health of Gulf War veterans.
    Mr. Chairman, again, DAV appreciates the Subcommittee's interest in 
these issues and we appreciate the opportunity to present the DAV's 
views.

                                 <F-dash>
       Statement of Roberta F. White, Ph.D., Scientific Director,
Research Advisory Committee on Gulf War Illnesses, Professor and Chair,
  Department of Environmental Health, and Associate Dean for Research,
         Boston University School of Public Health, Boston, MA
    Thank you for the opportunity to provide a brief overview of 
research on Gulf War veterans' health problems.
    I will be focusing this morning on 18 years of effort on this issue 
conducted in Boston at the Boston University School of Public Health 
and the VA Boston Health care System Medical Center.
    Research on Gulf War veterans' health began in Boston through the 
Center for Post Traumatic Stress Disorder (PTSD) at VA Boston Medical 
Center in 1991. Through the foresight of a chaplain, it was decided to 
interview and survey about 3000 Army veterans upon their return from 
deployment to the Gulf War theatre at the Ft. Devens military base. The 
methods conducted focused on symptoms of PTSD and a 20-item health 
symptom checklist was included in the data collected. These baseline 
health data collected on the Devens cohort have been used repeatedly in 
subsequent research on Gulf War veterans' illnesses, including 
longitudinal assessment of the health complaints of this cohort.
    In 1993 VA Central Office contacted researchers in the PTSD Center 
about the fact that Gulf War veterans were complaining in large numbers 
of health symptoms that did not fit typically diagnosed medical 
disorders. The VA officials wondered whether this might be due to PTSD 
or some other factor. Dr. Jessica Wolf and I were given clinical 
funding to try to help figure out what was going on. Dr. Wolf's 
expertise is in PTSD, while mine is in the effects of chemical 
exposures on brain function and structure. We were well aware that 
chemical exposures of several types occurred in the Gulf War theatre.
    We used the health symptom data collected in 1991 from the Devens 
cohort as a baseline to select sub-groups of veterans with high and low 
numbers of symptom complaints. Known as the Time 3 Devens cohort, these 
veterans underwent in-depth examinations, including health symptom 
checklists, exposure assessment questionnaires, neurological 
examinations, cognitive testing, PTSD questionnaires, and interviews 
allowing psychiatric diagnosis if one existed. At this stage of our 
research, we knew quickly that PTSD was an unlikely explanation for the 
health symptoms of Gulf War veterans: it occurred in much fewer numbers 
of veterans from this conflict than previous conflicts and the rates of 
PTSD were also lower than the rates of high health symptom complaints.
    After we began this research, the VA established three 
Environmental Hazards Research Centers focused on the health problems 
of Gulf War veterans. The funded centers were selected following peer 
review of proposed research protocols. The Boston center, of which I 
was Research Director, was a collaborative effort of the Boston VA 
Medical Center and the Department of Environmental Health at Boston 
University School of Public Health.
    Building on the research begun by Dr. Wolf and myself, in-depth 
examinations of Devens cohort members were conducted, with additional 
laboratory tests and systematic efforts to quantify theatre exposures 
from air modeling and troop location data. Our work was focused on 
exposure-outcome relationships as predictors of Gulf War illness 
symptomatology.
    Using self-report data on chemical exposures in the Gulf, these 
examinations found systematic relationships between self-reported 
exposures to pesticides and to nerve gas agents and health complaints 
in specific body systems. Performance on objective tests that assess 
cognitive and behavioral function was also related to these self-
reported exposures: exposed veterans performed more poorly than 
unexposed veterans. Rates of PTSD and psychiatric disorder were low, 
and diagnosis of these disorders did not explain the health symptom or 
neuropsychological test outcomes. In addition, rates of symptom-based 
disorders like chronic fatigue syndrome and multiple chemical 
sensitivity were low in this cohort.
    From 1997-2001, the Centers for Disease Control funded research 
efforts to collect brain imaging data on some of the Time 3 Devens 
cohort members. Using DoD-generated data on the likely release of 
Sarin/cyclosarin gas following detonation of the Khamisyah supply 
depot, we examined the relationship between brain imaging findings and 
estimated nerve gas agent exposure. Differences in the volumes of white 
matter in the brain were identified based on severity of exposure: 
higher exposure veterans had smaller white matter volumes than those 
with lower exposure to Sarin/cyclosarin. Similarly, objective 
neurobehavioral test data collected during the Time 3 Devens 
examinations were evaluated in a larger sample of veterans, with the 
finding that higher exposures were associated with poorer test 
performance on specific tasks assessing visual-motor and motor 
functions.
    A structural MRI study was funded through the VA Merit Review 
program. Analyses of these results have not yet been published, 
although they have been presented to the Research Advisory Committee. 
This research showed smaller white matter volumes in the brains of 
high-symptom Gulf War veterans than low-symptom veterans.
    Projects with funding from the Department of Defense conducted in 
1996-2003 compared the health of treatment-seeking deployed Gulf War 
veterans to that of treatment-seeking Gulf War-era veterans who were 
not deployed to the Gulf. This research indicated that both 
pyridostigmine bromide and pesticide exposures are associated with 
illness in deployed veterans. The research also indicated that the 
health complaints of ill Gulf War veterans remained fairly stable over 
time, as did their cognitive test performance.
    This study was followed by another Department of Defense funded 
investigation in which pesticide applicators from the Gulf War were 
examined in-depth using health symptom checklists, PTSD measures, 
psychiatric diagnosis interviews, exposure interviews, and objective 
cognitive tests. An advantage of this study was that quantified 
evaluation of pyridostigmine bromide and pesticide exposures was 
possible for the subjects evaluated. Results indicated that 
pyridostigmine bromide and pesticide exposures, especially in 
combination, were related to cognitive test performance: higher 
exposure was associated with poorer performance on a number of 
neurobehavioral tests. Currently, an investigation is underway in which 
a subgroup of the pesticide applicators will undergo brain imaging.
    Mechanistic and etiologic explanations for the health symptoms of 
Gulf War veterans have emerged and continue to emerge. An extensive 
review of the existing literature published by the Research Advisory 
Committee on Gulf War Illnesses in November, 2008, and reviewed today 
by Dr. Lea Steele reaches conclusions that are very similar to those 
produced by Boston researchers. Clear convergence is apparent regarding 
the importance of pesticide, pyridostigmine bromide and possibly nerve 
gas agent exposure as etiologically linked to ill health in Gulf War 
veterans. In addition, the central nervous system appears to play a 
role in expression of symptoms related to Gulf War illness. Finally, it 
is clear that this illness is not psychiatric in origin.
                               __________
             SELECTED PUBLICATIONS OF BOSTON INVESTIGATORS
    Beason-Held, L.L., Rosene, D.L., Killiany, R.J. & Moss, M.B. 
Hippocampal formation lesions produce memory impairment in the rhesus 
monkey. Hippocampus, 9, 562-574, 1999.
    Clapp, R. and Ozonoff, D. Environment and Disease: Vital 
Intersection or Contested Territory. Am J Law Med, 30 (2/3):18-215, 
2004.
    Diamond, R., Krengel, M., White, RF., Javorsky, D. The ROCF in 
assessment of individuals exposed to neurotoxicants in Knight, J. and 
Kaplan, E. The Rey-Osterrieth Complex Figure Usage: Clinical and 
research applications. PAR, Lutz, 2004.
    Friedl KE, Grate SJ, Proctor SP, Ness JW, Lukey BJ, Kane RL. Army 
research needs for automated neuropsychological tests: monitoring 
soldier health and performance status. Arch Clin Neuropsychol. 2007 
Feb; 22 Suppl 1:S7-14.
    Gansler, D., Nixon, A., Krengel, M., LoCastro, J., Stetson, S., 
Warshaw, M., Zimering, R. Attention Deficit hyperactivity disordered 
adults: Adaptive impairments among veterans. The Journal of Nervous and 
Mental Disease. (submitted).
    Guttman, C., Jolesz, F., Kikinis, R., Killiany, R.J. Moss, M.B., 
Sandor, T. & Albert, M.S. White matter changes with normal aging. 
Neurology, 972-978, 1998.
    Guttmann, C.R.G., Kikinis, R., Anderson, M.C., Jakob, M., Warfield, 
S.K., Killiany, R.J., Weiner, H.L. and Jolesz, F.A. Quantitative 
follow-up of patients with multiple sclerosis using MRI: 
Reproducibility. Journal of Magnetic Resonance Imaging, 9, 509-518, 
1999.
    Heaton, K.J., Palumbo, C.L., Proctor, S.P., Killiany, R.J., 
Yurgelun-Todd, D.A., & White, R.F. Quantitative magnetic resonance 
brain imaging in U.S. army veterans of the 1991 Gulf War potentially 
exposed to sarin and cyclosarin. Neurotoxicology, 28(4):761-9, 2007.
    Hu H, Stern A, Rotnitzky A, Schlesinger L, Proctor SP, Wolfe J. 
Development of a brief questionnaire for screening for Multiple 
Chemical Sensitivity. Toxicology and Industrial Health, 15:1-7, 1999.
    Kim D.S and Garwood, M. High-field magnetic resonance techniques 
for brain research. Current Opinion in Neurobiology. 13, 612-619, 2003.
    Krengel M, White RF, Proctor S, Wolfe J, Sullivan K. 
Neuropsychological test methods in assessment of neurotoxicant exposure 
in Persian Gulf War-era veterans. Journal of the International 
Neuropsychological Society, 4(3):228, 1998.
    Lindem K, Heeren T, White RF, Proctor SP, Krengel M, Vasterling JJ, 
Sutker PB, Wolfe J, Keane T. Neuropsychological performance in Gulf 
War-era veterans: Traumatic stress symptomatology and exposure to 
chemical-biological warfare agents. Journal of Psychopathology and 
Behavioral Assessment, 25:105-120, 2003.
    Lindem, K., Proctor, S.P., Heeren, T., Krengel, M., Vasterling, 
J.J., Sutker, P.B., Wolfe, J., Keane, T., & White, R.F. 
Neuropsychological performance in Gulf War-era veterans: 
Neuropsychological symptom reporting. Journal of Psychopathology and 
Behavioral Assessment, 25:121-128, 2003.
    Lindem K, White RF, Heeren T, Proctor SP, Krengel M, Vasterling JJ, 
Wolfe J, Sutker PB, Kirkley S, Keane T. Neuropsychological performance 
in Gulf War veterans: Motivational factors and effort. Journal of 
Psychopathology and Behavioral Assessment, 25:129-133, 2003.
    Murata K, Araki S, Yokoyama K, Okumura T, Ishimatsu S, Takasu N, 
White RF. Asymptomatic sequelae to acute sarin poisoning in the central 
and autonomic nervous system 6 months after Tokyo subway attack. 
Journal of Neurology, 244:601-606, 1997.
    Nelson NA, Robins TG, White RF, Garrison RP. A case control study 
of chronic neuropsychiatric disease and organic solvent exposure in 
automobile assembly plant workers. Occupational and Environmental 
Medicine, 51:302-307, 1994.
    Proctor SP. Chemical sensitivity and Gulf War veterans' illnesses. 
Occup Med. 2000 Jul-Sep;15(3):587-99.
    Proctor SP, Gopal S, Imai A, Wolfe J, Ozonoff D, White RF. Spatial 
analysis of 1991 Gulf War troop locations in relationship with postwar 
health symptom reports using GIS techniques. Transactions in GIS, 9(3): 
381-396, 2005.
    Proctor SP, Harley R, Wolfe J, Heeren T, White RF. Health-related 
quality of life in Gulf War veterans. Military Medicine, 166: 510-519, 
2001.
    Proctor SP, Heaton KJ, Heeren T, White RF. Effects of sarin and 
cyclosarin exposure during the 1991 Gulf War on neurobehavioral 
functioning in U.S. army veterans. Neurotoxicology, 27(6): 931-939, 
2006.
    Proctor SP, Heaton KJ, White RF, Wolfe J. Chemical sensitivity and 
chronic fatigue in Gulf War veterans: A brief report. Journal of 
Occupational and Environmental Medicine, 43:259-264, 2001.
    Proctor SP, Heeren T, White RF, Wolfe J, Borgos MS, Davis JD, 
Pepper L, Clapp R, Sutker PB, Vasterling JJ, Ozonoff D. Health status 
of Persian Gulf War veterans: self-reported symptoms, environmental 
exposures, and the effect of stress. Intl. J. Epidemiol., 27:1000-1010, 
1998.
    Proctor SP, Letz R, White RF. Validity of a computer-assisted 
neurobehavioral test battery in toxicant encephalopathy. 
NeuroToxicology, 21:703-714, 2000.
    Proctor SP, White RF, Heeren T, Debes F, Gloerfelt-Tarp B, 
Appleyard M, Ishoy T, Guldager B, Suadicani P, Gyntelberg F, Ozonoff D. 
Neuropsychological functioning in Danish Gulf War veterans. Journal of 
Psychopathology and Behavioral Assessment, 25:85-94, 2003.
    Reid, M.C., Crone, K.T., Otis, J.D., & Kerns, R.D. Differences in 
pain-related characteristics among younger and older veterans receiving 
primary care. Pain Medicine, 3, 102-107, 2002.
    Sullivan, K., Krengel, M., Proctor, S.P., Devine, S., Heeren, T., & 
White, R.F. Cognitive functioning in treatment-seeking Gulf War 
veterans: pyridostigmine bromide use and PTSD. Journal of 
Psychopathology and Behavioral Assessment, 25, 95-102, 2003.
    Taft CT, Schumm JA, Panuzio J, Proctor SP. An examination of family 
adjustment among Operation Desert Storm veterans. J Consult Clin 
Psychol. 2008 Aug;76(4):648-56.
    White RF (ed). Clinical Syndromes in Adult Neuropsychology: The 
Practitioner's Handbook. Amsterdam: Elsevier. 1992.
    White RF. Patterns of neuropsychological impairment associated with 
neurotoxicants. Clinics in Occupational and Environmental Medicine: 
Neurotoxicology, 1:577-593, 2001.
    White RF, Cohen RF, Gerr F, Green R, Lezak M, Lybarger J, Mack J, 
Silbergeld E, Valciukas J. Criteria for progressive modification of 
neurobehavioral batteries. Neurotoxicology and Teratology, 16:511-524, 
1994.
    White, R.F., Diamond, R., Krengel, M., Lindem, K., Feldman, R., 
Letz, R., Eisen, E., Wegman, D. Validation of the nes2 in patients with 
neurologic disorders. Neurotoxicology and teratology, 18:441-448, 1996.
    White RF, Feldman RG, Moss MB, Proctor SP. Magnetic resonance 
imaging (MRI), neurobehavioral testing and toxic encephalopathy: Two 
cases. Environmental Research, 61:117-123, 1993.
    White, R., James, K., Vasterling, J., Letz, R., Marans, K., 
Delaney, R., Krengel, M., Rose, F., Kraemer, H. (2003). 
Neuropsychological screening for cognitive impairment using computer-
assisted tasks. Assessment, 10, 86-101.
    White, R., James, K., Vasterling, J., Marans, K., Delaney, R., 
Krengel, M., Rose, F. Inter-rater reliability of Neuropsychological 
Diagnosis. Journal of the International Neuropsychological Society, 8, 
555-565, 2002.
    White, R.F., & Krengel, M. Multiple Sclerosis. In: Rourke, B.P. 
(Ed.). Syndrome of Nonverbal Learning Disability: Manifestations in 
Neurological Disease, Disorder, and Dysfunction. New York: Guilford 
Press, 1995a.
    White, R.F., & Krengel, M. Neurotoxicant Exposure and the white 
matter hypothesis. In Rourke, B.P. (Ed.). Syndrome of Nonverbal 
Learning Disability: Manifestations in Neurological Disease, Disorder, 
and Dysfunction. New York: Guilford Press, 1995b.
    White, R.F., Marans, K., & Krengel, M. Psychological/behavioral 
symptoms in neurological disorders. In Kleespies (ed). Emergencies in 
Mental Health Practice. New York: Guilford Press, 1997.
    White RF, McNulty K, Debes F, Grandjean P. Validation and 
application of tests for use in developmental behavioral toxicology. 
Journal of the International Neuropsychological Association, 4(3):228, 
1998.
    White RF, Proctor SP. Solvents and neurotoxicity. The Lancet, 
349:1239-1242, 1997.
    White RF, Proctor SP. Research and clinical criteria for the 
development of neurobehavioral test batteries. JOM, 34: 140-148, 1992.
    White RF, Proctor SP, Heeren T, Wolfe J, Krengel M, Vasterling J, 
Lindem K, Heaton KJ, Sutker P, Ozonoff DM. Neuropsychological function 
in Gulf War veterans: relationships to self-reported toxicant 
exposures. American Journal of Industrial Medicine, 40:42-54, 2001.
    Wolfe J, Proctor SP, Davis JD, Borgos MS, Friedman MJ. Health 
symptoms reported by Persian Gulf War veterans 2 years after return. 
Am. J. Ind. Med., 33:104-113, 1998.
    Wolfe J, Proctor SP, Erickson D, Heeren T, Friedman MJ, Huang M, 
Sutker PB, Vasterling JJ, White RF. Relationship of psychiatric status 
to Gulf War veterans' health problems. Psychosomatic Medicine, 61:532-
540, 1999.
    Wolfe J, Proctor SP, Erickson DJ, Hu H. Risk factors for 
multisymptom illness in U.S. Army veterans of the Gulf War. Journal of 
Environmental and Occupational Medicine, 44:271-281, 2002.
    Wolfe J, Proctor SP, White RF, Friedman MJ. Letter to the Editor 
Re: ``Is Gulf War Syndrome due to Stress? The Evidence Rexamined'' Am. 
J. Epidemiol., 148:402, 1998.
    Yokoyama K, Araki S, Murata K, Nishikitani M, Okumura T, Ishimatsu 
S, Takasu N, White RF. Chronic neurobehavioral effects of Tokyo subway 
sarin poisoning in relation to post-traumatic stress disorder. Archives 
of Environmental Health, 53:249-256, 1998.
                 POST-HEARING QUESTIONS FOR THE RECORD
                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 27, 2009

Paul Sullivan
Executive Director
Veterans for Common Sense
5434 Burnet Road, Suite B
Austin, TX 78756

Dear Paul:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations hearing that took place on May 19, 2009 on ``Gulf War 
Illness Research: Is Enough Being Done?''
    Please provide answers to the following questions by Monday, July 
6, 2009, to Todd Chambers, Legislative Assistant to the Subcommittee on 
Oversight and Investigations, by fax on 202-225-2034.

    1.  In your testimony, you stated that 210,000 Gulf War veterans 
have struggled with Gulf War Illness. From what source did you obtain 
this information?
    2.  How many veterans, including you, have sought medical treatment 
at a War Related Illness and Injury Center?
    3.  In your statement, you indicated that ``Congress can, and must, 
begin the difficult process of restoring the stained reputation of DoD 
and VA by admitting the Gulf War caused hundreds of thousands of 
friendly fire casualties and was, therefore, very expensive.'' Where 
did you obtain this statistic?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers. If you have any 
questions concerning these questions, please contact Subcommittee on 
Oversight and Investigations Majority Staff Director, Martin Herbert, 
at (202) 225-3569 or the Subcommittee Minority Staff Director, Arthur 
Wu, at (202) 225-3527.

            Sincerely,

    Harry E. Mitchell
                                                       David P. Roe
    Chairman
                                          Ranking Republican Member

MH/tc
                               __________
                      Post-Hearing Questions From
              Hon Harry E. Mitchell and Hon. David P. Roe
      Hearing on Gulf War Illness Research: Is Enough Being Done?
                          Held on May 19, 3009
    Question 1: In your testimony, you stated that 210,000 Gulf War 
veterans have struggled with Gulf War Illness. From what source did you 
obtain this information?

    Answer from Veterans for Common Sense (VCS): Our source for saying 
``as many as 210,000'' Gulf War veterans face ``serious health 
challenges'' was the November 2008 report, ``Gulf War Illness and the 
Health of Gulf War Veterans,'' prepared by the Research Advisory 
Committee on Gulf War Veterans' Illnesses (RAC). The RAC was chartered 
by Congress in 1998 under Public Law 105-368. On page 4 of the highly 
credible and independent RAC report, the authors wrote:

          Gulf War illness prevalence estimates vary with the specific 
        case definition used. Studies consistently indicate, however, 
        that an excess of 25 to 32 percent of veterans who served in 
        the 1990-1991 Gulf War are affected by a complex of multiple 
        symptoms, variously defined, over and above rates in 
        contemporary military personnel who did not deploy to the Gulf 
        War. That means between 175,000 and 210,000 of the nearly 
        700,000 U.S. veterans who served in the 1990-1991 Gulf War 
        suffer from this persistent pattern of symptoms as a result of 
        their wartime service.

    In addition to the very detailed RAC report, there are two similar 
findings estimating there are hundreds of thousands of Gulf War 
veterans who remain ill.
    An April 2009 peer-reviewed, published study reached a similar 
conclusion (Han Kang, Department of Veterans Affairs, ``Health of U.S. 
Veterans 1991 Gulf War: A Follow-Up Survey in 10 Years''). On page 8 of 
the VA study, Dr. Kang wrote:

          Table 3 shows that about 25 percent more [deployed] Gulf War 
        veterans reported suffering from MSI [Multi-Symptom Illness] 
        compared with their Gulf Era [non-deployed] peers (36.5 percent 
        vs 11.7 percent).

    Therefore, based on the approximate population of 700,000 deployed 
Gulf War veterans, the Kang/VA estimate falls between 175,000 (25%) and 
255,000 (36.5%) veterans suffering from multi-symptom illness.
    There is also a third credible VA report. The quarterly VA 
statistical report, ``Gulf War Veterans Information System'' (GWVIS), 
shows 297,125 Gulf War ``Conflict'' veterans were treated as 
outpatients at VA medical facilities, and 38,433 were treated as 
inpatients at VA medical facilities as of October 2004 (GWVIS, May 
2006). Please note the unique population of veterans ever treated by VA 
is unknown because VA did not sort the counts of inpatients and 
outpatients for unique veterans--something VCS recommends. The term 
``Conflict'' veteran is defined by VA as a veteran who deployed to 
Southwest Asia between August 1990 and July 1991.
    Here are two caveats. First, the counts of ill Gulf War veterans 
described above exclude those who did not seek care at VA, such as 
those who sought care through the private sector, state and local 
medical facilities, or at a college or university. And, second, the ill 
veterans may suffer from pre-existing conditions exacerbated by 
military service, have conditions that developed after service, or have 
conditions related to a subsequent war deployment.
    VA ceased reporting health care use in GWVIS reports more than 3 
years ago, and VA appears to have ceased publishing GWVIS altogether in 
2008. VCS believes VA should report the health care use among Gulf War 
veterans in the quarterly GWVIS reports, and VA should resume 
publishing and distributing GWVIS reports on a quarterly basis.

    Question 2: How many veterans, including you, have sought medical 
treatment at a War Related Illness and Injury Center?

    Answer from VCS: We do not know how many Gulf War veterans have 
sought medical treatment at a War Related Illness and Injury Center 
(WRIIC).

    Question 3: In your statement, you indicated that ``Congress can, 
and must, begin the process of restoring the stained reputation of DoD 
and VA by admitting the Gulf War caused hundreds of thousands of 
friendly fire casualties and was, therefore, very expensive.'' Where 
did you obtain this statistic?

    Answer from VCS: The statistic, ``hundreds of thousands of friendly 
fire casualties'' among Gulf War veterans was obtained from the 
Department of Defense (DoD). The statistic, ``very expensive,'' 
describing the estimated financial cost for health care and disability 
benefits among Gulf War veterans, was obtained from VA reports.
    The term ``friendly fire'' is a lay expression for attempted or 
completed fratricide, the harming or killing of an ally. During the 
Gulf War, hundreds of thousands of U.S. servicemembers were exposed to 
toxins, experimental drugs, and other serious and harmful environmental 
hazards. Here are specific examples of large-scale friendly fire 
exposures during the Gulf War:

    <bullet>  The DoD public affairs office issued a press release 
quoting retired Army Lieutenant General Dale Vesser (``Get Evaluated, 
Says Gulf War Illness Chief,'' Gerry J. Gilmore, American Forces Press 
Service, February 23, 2001). The former deputy in charge of 
investigating Gulf War illness said, in reference to the 250,000 Gulf 
War veterans ordered to take the experimental nerve-agent pre-treatment 
drug pyridostigmine bromide, ``it never dawned on us . . . that we 
might have done it to ourselves,'' a very clear admission by our 
military that there was widespread friendly fire during the Gulf War. 
http://www.defenselink.mil/news/newsarticle.aspx?id=45689
    <bullet>  The same 2001 DoD press release confirmed that 140,000 
Gulf War veterans were notified of potential low-level chemical warfare 
agent exposure during deployment as a result of U.S. demolitions at 
Khamisiyah, Iraq on March 10, 1991. Similarly, VA's GWVIS reports 
indicate more than 145,000 Gulf War veterans were notified of potential 
low level chemical warfare agent exposure when they were at or near 
Khamisiyah.
    <bullet>  The same 2001 DoD press release confirmed that 40,000 
U.S. troops were overexposed to pesticides--chemicals distributed by or 
sprayed on U.S. forces by other U.S. personnel.
    <bullet>  Hundreds of thousands of U.S. forces were exposed to 
massive amounts of pollution from oil fires. Starting in January 1991, 
the retreating Iraqi Army destroyed as many as 700 oil well heads, 
according to DoD (``U.S. Plans to Preserve Iraq's Oil for Iraqi 
People,'' March 6, 2003): http://www.defenselink.mil/releases/
release.aspx?releaseid=3646. Some oil well heads were bombed by 
attacking U.S. forces, according to the New York Times (``War in the 
Gulf: Oilfields; Extent of Kuwaiti Oil Damage Unclear,'' Matthew Wald, 
February 23, 1991): http://www.nytimes.com/1991/02/23/world/war-in-the-
gulf-oilfields-extent-of-kuwaiti-oil-damage-unclear.html. The Times 
quoted Ken Miller, the editorial director of OPEC Listener, an oil 
analysis service, ``We bombed the terminal to start with, they damaged 
it, and we bombed it again.''
    <bullet>  Hundreds of thousands of U.S. servicemembers entered 
areas of Iraq, Kuwait, and Saudi Arabia contaminated with expended 
radioactive and toxic depleted uranium rounds and dust (``Case 
Narrative: Depleted Uranium (DU) Exposures,'' Dan Fahey, March 2, 1998, 
revised September 20, 1998). The ``Case Narrative'' relied upon a map, 
``Primary Areas of DU Expenditure,'' prepared by the Office of the 
Special Assistant for Gulf War Illnesses at DoD.
    <bullet>  According to the November 2008 RAC report, ``About 
150,000 Gulf War veterans are believed to have received one or two 
anthrax shots'' (``Gulf War Illness and the Health of Gulf War 
Veterans,'' p. 8).

    Veterans for Common Sense called the Gulf War ``expensive'' based 
on our review of the health care and disability benefits costs listed 
in VA reports.
    The estimated costs paid by VA for health care and disability 
benefits for Gulf War veterans may be as high as $4.3 billion per year. 
Here is an estimated accounting of VA's financial liability associated 
with the Gulf War.

    <bullet>  According to page 6 of VA's FY 2008 Annual Benefits 
Report, VA pays an average of $10,254 per year per service-connected 
veteran. http://www.vba.va.gov/REPORTS/abr/2008_abr.pdf.
    <bullet>  According to the page 7 of VA's September 2008 GWVIS 
report, VA paid service-connected disability compensation to 191,971 
Gulf War ``Conflict'' veterans http://www.vba.va.gov/REPORTS/gwvis/
2008/Aug_2008.pdf.
    <bullet>  Therefore, VA pays approximately $2 billion per year in 
disability payments to Gulf War veterans ($10,254 times 191,971 
veterans equals $1,968,470,634).
    <bullet>  According to page 1 of VA's FY 2010 budget summary, VA 
will spend approximately $7,770 per patient for medical care for all 
veterans ($47.4 billion for 6.1 million patients). http://www.va.gov/
budget/summary/2010/Fast_Facts_VA_
Budget_Highlights.pdf.
    <bullet>  According to page 11 of VA's May 2006 GWVIS report, VA 
treated at least 297,195 Gulf War ``Conflict'' patients. http://
www.vba.va.gov/REPORTS/gwvis/historical/2006/May_2006.pdf.

    Therefore, VA pays approximately $2.3 billion per year in health 
care costs for Gulf War veterans ($7,770 times 297,195 veterans equals 
$2,309,205,150).
    Most of the Gulf War veterans are expected to receive VA health 
care and disability benefits for decades--for the remainder of their 
lives. This estimate excludes health care and disability costs paid 
directly by veterans, or costs paid by the DoD, the Social Security 
Administration, family members, private insurance companies, state 
governments, or local governments.
    Please note the caveat that some Gulf War veterans may have had 
pre-existing conditions exacerbated by military service, some veterans 
may have developed medical conditions unrelated to their deployment to 
the war zone in 1990-1991, and some veterans may have developed 
conditions due to another war deployment after 1991. Unfortunately, due 
to VA's inadequate data collection systems, a more accurate answer 
about VA's expenditures on behalf of Gulf War veterans remains 
unavailable.
    VCS recommends that VA and Congress determine the estimated current 
and future costs of the Gulf War with greater accuracy and 
transparency.

DATE: June 24, 2009

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 27, 2009

Richard F. Weidman
Executive Director for Policy and Government Affairs
Vietnam Veterans of America
8605 Cameron Street
Silver Spring, MD 20910

Dear Richard:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations hearing that took place on May 19, 2009 on ``Gulf War 
Illness Research: Is Enough Being Done?''
    Please provide answers to the following questions by Monday, July 
6, 2009, to Todd Chambers, Legislative Assistant to the Subcommittee on 
Oversight and Investigations, by fax on 202-225-2034.

    1.  During the hearing, Mr. Weidman stated that VA does not have a 
real Gulf I registry. What does VVA believe should be included in a 
more complete registry and has VVA informed the Department of Veterans 
Affairs of its specific recommendation?
    2.  VVA recommends that VA quickly modify its electronic medical 
record, CPRS to include military history, such as branch of service, 
assignments, military occupational specialties, and notes of what 
happened to the individual. DoD has been working for decades to get all 
the services to agree to a common standard. Would VVA concur with this 
fact? How long did it take DoD to provide VA with an electronic DD-214, 
the discharge form?
    3.  VVA's testimony also indicated that VA has breached patient 
confidentiality in veteran test subjects. Please expand more 
specifically upon this subject.
    4.  VVA's testimony indicates that VA has attempted to violate the 
principles of the Institutional Review Boards, more commonly called 
IRBs. Please provide specific information on what attempts have been 
made to violate IRB guidelines.

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers. If you have any 
questions concerning these questions, please contact Subcommittee on 
Oversight and Investigations Majority Staff Director, Martin Herbert, 
at (202) 225-3569 or the Subcommittee Minority Staff Director, Arthur 
Wu, at (202) 225-3527.

            Sincerely,

    Harry E. Mitchell
                                                       David P. Roe
    Chairman
                                          Ranking Republican Member

MH/tc
                               __________
                                        Vietnam Veterans of America
                                                  Silver Spring, MD
                                                     August 7, 2009

The Honorable Harry Mitchell
Chairman
Subcommittee on Oversight and Investigations
House Veterans' Affairs Committee
335 Cannon House Office Building
Washington, D.C. 20515

Dear Chairman Mitchell and Ranking Member Roe:

    Please accept my apologies for the lateness of this response to 
your letter of May 27th requesting my response to questions from the 
May 19th hearing on ``Gulf War Research: Is Enough Being Done?''

    1.  No, the VA does not have a real Gulf 1 Registry. What the VA 
has is essentially no more than a mailing list, and a discontinued one 
at that. It is our understanding that the collecting of health care 
data was stopped in 2004, and all reporting was ended in 2006. The only 
peer-reviewed, published research by the VA on the entire population of 
Gulf War veterans--the intended use of the Registry--was published by 
Dr. Han Kang, who has since retired, this year; we do not know whether 
or not he gleaned information from the Registry for this research.

    Has VVA informed the VA of our specific recommendations for the 
Registry? Yes--repeatedly. We believe that a real Registry can help 
track the health and health problems of individuals in specific units 
and who served in specific areas and at specific times, and that such a 
Registry would include the who-what-where-when of a troop's service in 
the Gulf; what health conditions and maladies s/he is afflicted with, 
which would (or should) give VA and DoD officials and health 
professionals invaluable information that might help track specific 
anomalies that can be attributed to possible environmental exposures.

    2.  To ``say'' that it is a ``fact'' that DoD has been ``working 
for decades'' to come up with ``a common standard'' for an electronic 
health/medical record is little more than rhetoric, piecrust promises: 
promises easily made and just as easily broken. No milestones have ever 
been set much less met, insofar as we can see. Congressman Buyer has 
said, loudly and often, that the 20-year delay in a true ``seamless 
transition'' for electronic health/medical records from DoD to the VA 
is mostly the fault of bureaucrats and leadership at DoD.

    Part of the problem has been nonfeasance, almost to the point of 
deliberate malfeasance. Why? Because there has been little or no 
accountability, and because DoD just didn't think this was important 
enough. It is our hope that now, finally, this is changing because 
President Obama has said that this is a major, national goal.

    3.  Concerning the breach of patient confidentiality on the part of 
the VA, just think back to three summers ago, and the case of the 
stolen laptop, which contained personal identifiers of some seventeen 
million veterans. We would call that incident a ``breach of patient 
confidentiality.'' While we hope the VA has instituted proper 
protections, there have been several instances since in which computers 
with personal patient information have gone missing.

    4.  Finally, concerning violations of the Institutional Review 
Boards, or IRB's, top officials at the Veterans Health Administration 
during the Administration of President Bush tried to get the names of 
individuals who participated in the National Vietnam Veterans 
Readjustment Study done in the mid-1980s. They also attempted to get 
names and contact information of subjects participating in the ``deep 
brain'' studies of Gulf War veterans conducted at the University of 
Texas Southwest by Dr. Haley. Why did they do this? Ostensibly to 
ensure that each participant received the $30 that was promised for 
having participated in the study. In both instances, this violated the 
specific ground rules established by the respective IRBs for the 
subjects of the studies. If you tamper with the sample, you taint the 
study.

    I hope these answers further illuminate my testimony during the May 
19th hearing, and I want to thank you again for having held that very 
important hearing.

            Sincerely,

                                                 Richard F. Weidman
               Executive Director for Policy and government Affairs

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 27, 2009

Lea Steele, Ph.D.
13520 Kiowa Road
Valley Falls, KS 66088

Dear Lea:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations hearing that took place on May 19, 2009 on ``Gulf War 
Illness Research: Is Enough Being Done?''
    Please provide answers to the following questions by Monday, July 
6, 2009, to Todd Chambers, Legislative Assistant to the Subcommittee on 
Oversight and Investigations, by fax on 202-225-2034.

    1.  In your testimony, you indicated that veterans located downwind 
of the Khamisiyah, Iraq chemical nerve agent releases have died from 
brain cancer at twice the rate of other veterans in theater. Please 
provide the exact number of deaths associated with brain cancer for 
both groups of veterans.
    2.  You also stated in your testimony that, ``No similar 
widespread, unexplained symptomatic illness has been identified in 
studies of veterans who have served in war zones since the Gulf War, 
including Middle East deployments.'' Have any comparison studies or 
research been conducted for the use of chemical weapons in Northern 
Iraq or other conflicts prior to the Gulf War? If so, please provide a 
list of these studies.
    3.  Have any studies been performed on people here in the United 
States who use DEET and products containing DEET in the long-term? Is 
the issue of the symptoms being experienced by veterans more one of the 
combination of DEET along with the use of the PB pills, and is this 
issue being explored by the scientific community?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers. If you have any 
questions concerning these questions, please contact Subcommittee on 
Oversight and Investigations Majority Staff Director, Martin Herbert, 
at (202) 225-3569 or the Subcommittee Minority Staff Director, Arthur 
Wu, at (202) 225-3527.

            Sincerely,

    Harry E. Mitchell
                                                       David P. Roe
    Chairman
                                          Ranking Republican Member

MH/tc
                               __________
MEMO

FROM:
        Lea Steele, Ph.D.
        Kansas State University

TO:
         Chairman and Ranking Member,
        Subcommittee on Oversight and Investigations,
        U.S. House of Representatives, Committee on Veterans' Affairs

DATE:
        July 3, 2009

RE:
         Responses to questions posed in relation to testimony for the 
Subcommittee's May 19, 2009, hearing on Gulf War Illness

    Thank you for your interest in our work related to the health of 
veterans of the 1990-1991 Gulf War. My responses to questions posed in 
your letter dated May 27, 2009, follow. If you need additional 
information, please feel free to contact me by email at: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bff3dade91eccbdadad3daffd7cad8d7dacc91d1dacb">[email&#160;protected]</a>, or by telephone at: 785-945-4136.

    Question 1: In your testimony, you indicated that veterans located 
downwind of the Khamisiyah, Iraq chemical nerve agent releases have 
died from brain cancer at twice the rate of other veterans in theater. 
Please provide the exact number of deaths associated with brain cancer 
for both groups of veterans.

    Answer 1: Information on brain cancer deaths associated with the 
Khamisiyah plume comes from a 2005 study by the Department of Veterans 
Affairs.\1\ Death records from 1991 through 2000 indicated that 25 of 
the 100,487 U.S. Army veterans estimated to be downwind from the 
demolitions had died from brain cancer, compared to 27 of the 224,980 
Army veterans in other areas of theater. This represented a rate twice 
as high in those downwind from the Khamisiyah demolitions, compared to 
those located in other areas. There was also a dose-response effect, 
that is, troops located in the Khamisiyah hazard area for 2 or more 
days had a 3-fold increased rate of brain cancer death.
    Dr. Han Kang recently reported that death records examined through 
2004 continued to show an excess rate of brain cancer deaths in 
relation to the Khamisiyah demolitions, in a dose-response pattern.\2\ 
No specific information on the total number of brain cancer deaths 
through 2004 was provided, but should be available from Dr. Kang at the 
Department of Veterans Affairs.

    Question 2: You also stated in your testimony that ``No similar 
widespread, unexplained symptomatic illness has been identified in 
studies of veterans who have served in war zones since the Gulf War, 
including Middle East deployments.'' Have any comparison studies or 
research been conducted for the use of chemical weapons in Northern 
Iraq, or other conflicts prior to the Gulf War? If so, please provide a 
list of these studies.

    Answer 2: There have been reports from physicians describing 
serious health problems including cancers, respiratory conditions, and 
birth defects, among Kurdish civilians in the Northern Iraqi town of 
Halabja, which was bombarded by Iraqi forces in 1988 with multiple 
chemical weapons over a period of several days. No formal studies have 
been conducted in Halabja, but media reports indicate the attacks 
resulted in thousands of deaths and countless additional casualties.
    There are no research studies specifically evaluating Gulf War 
illness-type symptomatic/undiagnosed illness in civilian or military 
populations exposed to chemical nerve agents in Northern Iraq, or 
military conflicts prior to the Gulf War. But numerous studies have 
evaluated long-term health outcomes in survivors of two terrorist nerve 
agent attacks in Japan during the 1990s. These studies have identified 
a range of chronic symptoms, brain changes on MRI, and neurocognitive 
decrements that parallel those reported in Gulf War veterans. A partial 
list of these studies is appended. There are also earlier reports from 
physicians who evaluated workers exposed to nerve agents in the 
manufacture of chemical weapons during World War II in Germany, and in 
the U.S. during the 1950s and 1960s. These reports describe symptoms in 
these workers (chronic headache, cognitive impairment, gastrointestinal 
problems, fatigue) that continued for many years after the workers' 
exposures and parallel those affecting Gulf War veterans.<SUP>3,4</SUP>
    Although studies have not specifically evaluated undiagnosed 
symptomatic illness in relation to chemical agent exposures in other 
military populations, there is limited information on diagnosed 
diseases in military populations many years after exposure to mustard 
gas and other blister agents. Diagnosed respiratory disorders and 
persistent abnormalities affecting the eyes and skin have been reported 
in Iranian soldiers exposed to blister agents in the Iran-Iraq War 
during the 1980s.\5\ Studies have also identified increased rates of 
respiratory diseases among soldiers exposed to blister agents in World 
War I and munitions workers exposed during World War II.\6\

    Question 3: Have any studies been performed on people here in the 
United States who use DEET and products containing DEET in the long-
term? Is the issue of the symptoms being experienced by veterans more 
one of the combination of DEET along with the use of the PB pills, and 
is this the issue being explored by the scientific community?

    Answer 3: ``Pesticides'' as a general class represent one of only 
two types of Gulf War exposures consistently found to have put Gulf War 
veterans at increased risk for Gulf War illness. The Department of 
Defense identified 15 different ``Pesticides of Potential Concern'' 
related to service in the 1991 Gulf War, which included DEET, 
permethrin, chlorpyrifos, and other organophosphate and carbamate 
compounds.\7\
    In recent years, multiple studies have identified long-term human 
health effects associated with repeat exposure to pesticides and insect 
repellants such as DEET, permethrin, and organophosphates, at lower 
exposure levels not linked to immediate symptoms or 
poisoning.<SUP>8,9</SUP> Individuals in these studies were most often 
exposed to pesticides in relation to their occupation (e.g. farmers, 
pesticide applicators) or where they live (e.g. areas where 
agricultural pesticides are regularly sprayed). Excess rates of 
symptoms such as persistent headache, cognitive difficulties, and 
respiratory and gastrointestinal problems have been reported in groups 
with repeat, low-level exposure to pesticides, compared to unexposed 
groups. There are also multiple studies linking long-term pesticide 
exposure to increased rates of neurodegenerative diseases, most 
consistently Parkinson's Disease.\10\
    Much more is known about individual effects of pesticides and the 
anti-nerve gas PB pills than about effects of PB and pesticides in 
combination. Research in animal models, as well as limited information 
from studies of Gulf War veterans, suggest that the effects of being 
exposed to both PB and pesticides together may exceed effects of these 
compounds individually. Relatively little research has characterized 
the long-term effects of exposure to combinations of neurotoxic 
chemicals such as PB and pesticides. So, although biologically 
plausible, the extent to which effects of PB and pesticides, in 
combination, actually contributed to Gulf War illness has not been well 
established. Unfortunately, only a limited number of studies are 
currently underway to more fully evaluate this possibility.
                            Cited References
    1. Bullman TA, Mahan CM, Kang HK, Page WF. Mortality in U.S. Army 
Gulf War veterans exposed to 1991 Khamisiyah chemical munitions 
destruction. Am J Public Health. 2005;95:1382-1388.
    2. Kang H. Neurological and all-cause mortality among U.S. veterans 
of the Persian Gulf War: 13-year follow-up. Presentation at: Meeting of 
the Research Advisory Committee on Gulf War Veterans' Illnesses; Sep 
16, 2008; Washington, D.C.
    3. Spiegelberg U. Psychopathologisch-neurologisheche spat und 
dauershaden nach gewerblicher intoxikation durch phophorsaureester 
(alkylphosphate). Proc 14th Int Cong Int Health, Excerpta Med Found, 
Int Congr Ser No. 62. 1963:1778-1780.
    4. Metcalf DR, Holmes JH. VII. Toxicology and physiology. EEG, 
psychological, and neurological alterations in humans with 
organophosphorus exposure. Ann N Y Acad Sci. 1969;160:357-365.
    5. Ghanei M, Harandi AA. Long term consequences from exposure to 
sulfur mustard: a review. Inhal Toxicol. 2007;19:451-456.
    6. Bullman TA, Kang HK. The effects of mustard gas, ionizing 
radiation, herbicides, trauma, and oil smoke on U.S. military 
personnel: the results of veteran studies. Annu Rev Public Health. 
1994;15:69-90.
    7. U.S. Department of Defense, Office of the Special Assistant to 
the Under Secretary of Defense (Personnel and Readiness) for Gulf War 
Illnesses Medical Readiness and Military Deployments. Environmental 
Exposure Report: Pesticides Final Report. Washington, D.C. April 17, 
2003.
    8. Kamel F, Engel LS, Gladen BC, Hoppin JA, Alavanja MC, Sandler 
DP. Neurologic symptoms in licensed pesticide applicators in the 
Agricultural Health Study. Hum Exp Toxicol. 2007;26:243-250.
    9. Kamel F, Hoppin JA. Association of pesticide exposure with 
neurologic dysfunction and disease. Environ Health Perspect. 
2004;112:950-958.
    10. Brown TP, Rumsby PC, Capleton AC, Rushton L, Levy LS. 
Pesticides and Parkinson's disease--is there a link? Environ Health 
Perspect. 2006;114:156-164.

                               __________
                                Appendix
      Persistent Health Problems in Survivors of Sarin Exposure in
  Two Japanese Terrorist Attacks: Selected Articles Reporting Health 
       Effects Similar to those Associated with Gulf War Service
    1.  Kawana N, Ishimatsu S, Kanda K. Psycho-physiological effects of 
the terrorist sarin attack on the Tokyo subway system. Mil Med. 
2001;166:23-26.
    2.  Miyaki K, Nishiwaki Y, Maekawa K, et al. Effects of sarin on 
the nervous system of subway workers 7 years after the Tokyo subway 
sarin attack. J Occup Health. 2005;47:299-304.
    3.  Nakajima T, Ohta S, Fukushima Y, Yanagisawa N. Sequelae of 
sarin toxicity at 1 and 3 years after exposure in Matsumoto, Japan. J 
Epidemiol. 1999;9:337-343.
    4.  Yamasue H, Abe O, Kasai K, et al. Human brain structural change 
related to acute single exposure to sarin. Ann Neurol. 2007;61:37-46.
    5.  Yokoyama K, Araki S, Murata K, et al. Chronic neurobehavioral 
and central and autonomic nervous system effects of Tokyo subway sarin 
poisoning. J Physiol Paris. 1998;92:317-323.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 27, 2009

Robert D. Walpole
Principal Deputy Director
National Counter Proliferation Center
Office of the Director of National Intelligence
Central Intelligence Agency
Washington, DC 20511

Dear Robert:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations hearing that took place on May 19, 2009 on ``Gulf War 
Illness Research: Is Enough Being Done?''
    Please provide answers to the following questions by Monday, July 
6, 2009, to Todd Chambers, Legislative Assistant to the Subcommittee on 
Oversight and Investigations, by fax on 202-225-2034.

    1.  Are you aware of any studies that may have been conducted 
concerning the medical condition of the indigenous people, such as the 
Kurds, in Northern Iraq who were subjected to gas attacks by Saddam 
Hussein? What were the conclusions of these studies?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers. If you have any 
questions concerning these questions, please contact Subcommittee on 
Oversight and Investigations Majority Staff Director, Martin Herbert, 
at (202) 225-3569 or the Subcommittee Minority Staff Director, Arthur 
Wu, at (202) 225-3527.

            Sincerely,

    Harry E. Mitchell
                                                       David P. Roe
    Chairman
                                          Ranking Republican Member

MH/tc

                               __________
     Response from Robert D. Walpole, Former Special Assistant for
Persian Gulf War Illnesses Issues, Office of the Assistant Director of 
           Central Intelligence, Central Intelligence Agency
    Question: Are you aware of any studies that may have been conducted 
concerning the medical condition of the indigenous people, such as the 
Kurds, in Northern Iraq who were subjected to gas attacks by Saddam 
Hussein? What were the conclusions of these studies?

    Response: Medical studies of regional illnesses were not a focus of 
intelligence efforts given that most of that information was openly 
available and generally is not a protected state secret. Thus, such 
studies do not generally constitute an intelligence issue, leaving the 
question of whether there were regional illnesses paralleling troop 
reported symptoms in the domain of doctors who can research the open 
literature and talk to regional medical personnel.
    Although a medical study was outside its purview, in the years that 
CIA worked on the Gulf War veterans' illnesses issue aggressively it 
searched for any classified reporting of similar symptoms that could be 
declassified. The few classified regional medical documents captured in 
the search were analyzed and found to be unrelated; thus there was 
nothing to declassify. CIA also included regional illness requirements 
and queries to its sources and the field as part of the overall 
requirements on Gulf War illnesses issues. But CIA did not use U.S. 
medical records in its study nor did it conduct epidemiological 
studies.
    Intelligence did not indicate any long term illnesses for Iraqi 
citizens from exposure to low levels of chemical agents. There were 
very few reports--a number on depleted uranium causing illnesses in the 
south, some on general medical topics, and of course some on chemical 
warfare agent short term effects. The Persian Gulf War Illnesses Task 
Force final paper, Chemical Warfare Agent Issues During the Persian 
Gulf War, which was published in April 2002, summarized these reports. 
On page 13 it states:

          ``In addition to our studies of Iraq's WMD programs, we 
        examined intelligence information for other potential causes of 
        Gulf War illnesses such as regional diseases, industrial 
        toxins, and toxic aspects of conventional weapons. We found no 
        convincing intelligence indicating any other cause, but 
        information is limited. Available intelligence on Middle East 
        regional illnesses does not parallel illnesses suffered by U.S. 
        veterans, including illnesses in southern Iraq that Iraqi 
        propaganda has tied to depleted uranium. We will forward any 
        new potentially relevant reporting to DoD investigators if it 
        becomes available.''
          A footnote to this paragraph further notes: ``Iranian press 
        reports from November 2000 claim that more than 15,000 victims 
        of Iraqi chemical attacks during the Iran-Iraq war have died 
        since 1988, presumably from the effects of these chemical 
        attacks. Judging by previous claims made by Iran, we believe 
        that these victims suffered from acute exposure to CW agents 
        and exhibited classic symptoms of such exposure, including 
        longer term debilitation as found among chemical victims from 
        World War I.''

    We are aware that a British researcher, Christine Gosden, visited 
Halabjah in early 1998; wrote an op-ed piece that ran in the Washington 
Post on March 11, 1998, entitled Why I Went, What I Saw; and testified 
before the Senate in April 1998 on her findings.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 27, 2009

Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Shinseki:

    Thank you for the testimony of Lawrence Deyton, M.D., MSPH, Chief 
Public Health and Environmental Hazards Officer, Veterans Health 
Administration, U.S. Department of Veterans Affairs who was accompanied 
by Joel Kupersmith, M.D., Chief Research and Development Officer, 
Veterans Health Administration; Mark Brown, Ph.D., Director, 
Environmental Agents Service, Office of Public Health and Environmental 
Hazards, Veterans Health Administration, U.S. Department of Veterans 
Affairs at the U.S. House of Representatives Committee on Veterans' 
Affairs Subcommittee on Oversight and Investigations hearing that took 
place on May 19, 2009 on ``Gulf War Illness Research: Is Enough Being 
Done?''
    Please provide answers to the following questions by Monday, July 
6, 2009, to Todd Chambers, Legislative Assistant to the Subcommittee on 
Oversight and Investigations, by fax on 202-225-2034.

    1.  Please explain in detail the reason for the significant (43%) 
drop in UDX claims processed between the February 2008 and August 2008 
Gulf War Veterans Information System Reports published by the VA?

      a.  Further explain the differentials in the same reports showing 
an almost 60 percent decrease in ``UDX, claims granted service 
connection'' within this 6 month period.
      b.  What is the reason for the dramatic reductions in numbers?

    2.  How many veterans receive compensation for Gulf War related 
symptoms?

      a.  How often are these patients re-evaluated?
      b.  What is the percentage of patients with Gulf War related 
symptoms that do not return to the VA for their re-evaluations or 
follow-up appointments?

    3.  Discuss in detail how the registry was crafted, how it is 
utilized and managed on a daily basis. When was the last time the VA 
reached out to everyone on the registry?

      a.  What information was relayed to them at that time? Please 
include a sample letter from this last mail out.

    4.  Did the VA send out a letter to every Gulf War veteran 
individually after the law expanded disability compensation benefits in 
2001, explaining the benefits available for chronic fatigue syndrome, 
fibromyalgia and irritable bowel syndrome?

      a.  If not, why was the decision made not to do so and who made 
that decision?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers. If you have any 
questions concerning these questions, please contact Subcommittee on 
Oversight and Investigations Majority Staff Director, Martin Herbert, 
at (202) 225-3569 or the Subcommittee Minority Staff Director, Arthur 
Wu, at (202) 225-3527.

            Sincerely,

    Harry E. Mitchell
                                                       David P. Roe
    Chairman
                                          Ranking Republican Member

MH/kk
                               __________
                        Response for the Record
               The Honorable Harry E. Mitchell, Chairman
         The Honorable David P. Roe, Ranking Republican Member
             Subcommittee on Oversight and Investigations,
                  House Committee on Veterans' Affairs
                              May 19, 2009
            Gulf War Illness Research: Is Enough Being Done?
    Question 1(a): Please explain in detail the reason for the 
significant (43%) drop in UDX claims processed between the February 
2008 and August 2008 Gulf War Veterans Information System Reports 
(GWVIS) published by the VA? Further explain the differentials in the 
same reports showing an almost 60% decrease in ``UDX, claims granted 
service connection'' within this 6 month period.

    Response: The reduction in undiagnosed claims processed and granted 
for service connection reflected in these reports is erroneous. The 
data discrepancies occurred as a result of the migration of records 
from our legacy database to the new corporate database (VETSNET) and 
changes needed to the business rules for compiling the report data. The 
corporate database stores veterans' claims data differently than the 
legacy system stores data. The Veterans Benefit Administration (VBA) is 
working to identify the business-rule changes needed to correct the 
problem. We will remove the erroneous data from the previous reports 
while we make the necessary changes to the business rules. The review 
will be completed by the end of fiscal year (FY) 2009 and reports with 
accurate data published by the beginning FY 2010.

    Question 1(b): What is the reason for the dramatic reductions in 
numbers?

    Response: As previously mentioned in the response to 1a, the 
numbers provided in these reports are incorrect. VBA is working to 
provide corrected numbers.

    Question 2(a): How many veterans receive compensation for Gulf War 
related symptoms?

    Response: VBA will determine the number of veterans receiving 
compensation for Gulf War related symptoms when the issues with the 
GWVIS numbers are resolved. VBA will provide the information upon 
completion of the data extract.

    Question 2(b): How often are these patients re-evaluated?

    Response: Veterans who are seen at Department of Veterans Affairs 
(VA) medical centers (VAMC) for compensation and pension examinations 
(C&P exams) are not necessarily eligible for benefits. Re-evaluation 
would be based upon whether or not the veteran's medical condition 
changed such that they would return for an additional C&P exam. If the 
veteran was found to be eligible based upon service connection or other 
eligibility, they would be followed according to practice guidelines 
and their treating physician's protocols for the particular illness, 
symptoms and severity. For veterans enrolled in the Registry the 
follow-up would again depend upon the veteran's needs and concerns as 
well as the original examining clinician's professional judgment. VA 
schedules future examinations for veterans with service-connected 
disabilities if a reasonable possibility exists for a disability to 
improve. VA does not schedule future examinations if a disability is at 
a static level under the criteria in the VA Schedule for Rating 
Disabilities. For example, the minimum disability evaluation for 
hypertension controlled by medication is 10 percent and does not 
require a future examination. This policy applies to all veterans.

    Question 2(c): What is the percentage of patients with Gulf War 
related symptoms that do not return to the VA for their re-evaluations 
or follow-up appointments?

    Response: The Environmental Epidemiology Service is studying the 
patterns of health care utilization among Gulf War veterans before and 
after they were compensated for ``medically unexplained multi-symptom 
illnesses.'' Once this study is completed by early 2010, VA will have a 
better understanding of the number of Gulf War veterans who do not 
follow-up for health care services at VA and the reasons why.

    Question 3(a): Discuss in detail how the registry was crafted, how 
it is utilized and managed on a daily basis.

    Response: By the end of the Gulf War, VA medical care personnel 
became concerned about potential health problems of U.S. servicemembers 
exposed to oil well fire smoke. Consequently, VA developed a proposal 
to create a clinical registry of Gulf War veterans to evaluate the 
health problems they were experiencing and to provide better health 
care for returning troops.
    This proposal led to the establishment of the VA Persian Gulf War 
Health Examination Registry (GWR), authorized in November 1992, by the 
Persian Gulf War Veterans Health Status Act, Public Law (P.L.) 102-585. 
VA must provide a GWR examination to veterans who request the 
examination and who served on active military duty in Southwest Asia 
during the Gulf War which began in 1990, and continues to the present, 
title 38 United States Code (U.S.C.) Sec. 101(33), including Operation 
Iraqi Freedom (OIF).
    In 1991, the Gulf Registry program was implemented with the issue 
of VA Manual M-10, now identified as the Veterans Health Administration 
(VHA) Handbook 1303-02, providing policies and procedures to all VA 
facilities. Each VA facility was directed to assign an environmental 
health (EH) clinician and coordinator to provide the registry 
examinations to GW veterans. Included in this manual was a two-page 
code sheet to be completed manually by both veterans and EH staff. 
These completed code sheets were sent to the Austin Information 
Technology Center in Austin, Texas for entry into the registry database 
located at that center.
    The Gulf War Veterans Registry consists of a computerized index of 
names of all eligible veterans who have received comprehensive, no co-
pay examinations with demographic data, exposures and medical 
examination data. In 2001, manual entries were discontinued and 
electronic entries of data accomplished by EH staff at each facility 
into the registry database at the Austin Information Technology Center. 
Daily reports are available to authorized VHA staff. Monitoring is 
ongoing by both Austin and the Environmental Agents Service staff.
    In 1995, new questions concerning potential exposures during Gulf 
War service and reproductive health were added to the Code sheets (now 
identified as Gulf War worksheets). The database was updated to include 
these new questions and veterans who had participated in the original 
registry examination received letters requesting them to complete the 
updated questionnaire returning them to the Austin Information 
Technology Center for data entry.
    On March 21, 1996, Handbook M-10, Pt. III, Chapter 5 was issued, a 
VA funded examination program for spouses and children of Persian Gulf 
veterans to fulfill a legislative mandate in P.L. 103-446, Section 107. 
Under this authority, VA provided examinations to a spouse or child of 
a veteran listed in the Persian Gulf War Veterans Registry. The health 
examinations were conducted by private, university-based physicians and 
the medical data obtained was included in the VA Registry database in 
Austin, Texas. There were a high number of no-shows and cancelations. 
The legislative authority for this program was discontinued although 
extensions were made through December 31, 2003.

    Question 3(b): When was the last time the VA reached out to 
everyone on the registry?

    Response: The last time VA reached out to everyone on the registry 
was May 2008. The latest Gulf War Review (Volume 15) was published in 
May 2008 and sent to Gulf War veterans. The newsletter can be found on 
the Web at: http://www1.va.gov/gulfwar/docs/GW_Review_May_2008.pdf. The 
next volume is in press at this time. And VA expects to publish it by 
the fall of 2009.

    Question 3(c): What information was relayed to them at that time? 
Please include a sample letter from this last mail out.

    Response: The Gulf War Review provides information on long-term 
health issues and other concerns of Operation Desert Shield and 
Operation Desert Storm to veterans, their families, and others. The 
Review describes actions by VA and other Federal departments and 
agencies to respond to these concerns and gives updates on a wide range 
of VA programs for veterans. The Gulf War Review was mailed out to Gulf 
War veterans. Gulf War Reviews are available on the following Web 
sites: http://www1.va.gov/environagents/ or http://
www.publichealth.va.gov/exposures.

    Question 4: Did the VA send out a letter to every Gulf War veteran 
individually after the law expanded disability compensation benefits in 
2001, explaining the benefits available for chronic fatigue syndrome, 
fibromyalgia and irritable bowel syndrome? If not, why was the decision 
made not to do so and who made that decision?

    Response: VA took a number of actions to provide information to 
veterans who served in the Gulf War. VHA and VBA collaborated to reach 
the Gulf War veteran population in a timely manner when Congress passed 
P.L. 107-103. VBA also provided guidance to regional office employees.

    <bullet>  VBA and VHA used the Gulf War Reviews as an outreach tool 
to advise veterans of changes included in P.L. 107-103. The first 
Review urged veterans previously denied service connection for 
fibromyalgia, chronic fatigue syndrome, or irritable bowel syndrome to 
reapply for disability compensation benefits. The most recent print run 
for the Gulf War Newsletter (2008) was 300,000 copies. Of these, about 
210,000 went directly to individual Gulf War veterans. The rest of the 
copies were sent to VAMCs and Vet Centers for local distribution to 
Gulf War veterans.
    <bullet>  VHA and VBA collaboratively created a Gulf War Web page 
on VA's Web site to inform veterans of issues related to their service 
in the Gulf War. VHA and VBA collaboratively created a Gulf War Web 
page on VA's Web site to inform veterans of issues related to their 
service in the Gulf War. Visits to the Web site are as follows: April 
2009--17,939; May 2009--18,480; and June 2009--16,336.
    <bullet>  VBA disseminated Fast Letter 02-04, dated January 17, 
2002, to all its regional offices addressing changes to use in claims 
processing. The Fast Letter provided guidance on and expanded the 
definition of ``qualifying chronic disability'' for Gulf War veterans 
and the extended the period in which VA may determine that a 
presumption of service connection should be established for a 
disability occurring in Gulf War veterans, to September 30, 2011.
    <bullet>  VBA's Compensation and Pension Service updated its manual 
references used in processing claims to reflect changes from P.L. 107-
103. These revisions improved efficiency and service to veterans.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 27, 2009

Roberta F. White, Ph.D., ABPP
Professor and Chair, Department of Environmental Health
Associate Dean of Research
Boston University School of Public Health
Talbot Building 4W
715 Albany Street
Boston, MA 02118

Dear Roberta:

    Thank you for your providing a statement for the record at the U.S. 
House of Representatives Committee on Veterans' Affairs Subcommittee on 
Oversight and Investigations hearing that took place on May 19, 2009 on 
``Gulf War Illness Research: Is Enough Being Done?''
    Please provide answers to the following questions by Monday, July 
6, 2009, to Todd Chambers, Legislative Assistant to the Subcommittee on 
Oversight and Investigations, by fax on 202-225-2034.

    1.  Of the 3,000 Army veterans interviewed at the Boston VA Medical 
Center in 1991, what was the location of their units, and why did you 
and Dr. Wolf use this study as a baseline for comparison? Was there a 
difference in veteran examinations between services and/or specific 
locations? If so, please explain.
    2.  In cognitive test performances based on exposure to 
pyridostigmine bromide (PB Tablets) and pesticides, what was the 
percentage of veterans who were exposed compared to the number who were 
tested?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers. If you have any 
questions concerning these questions, please contact Subcommittee on 
Oversight and Investigations Majority Staff Director, Martin Herbert, 
at (202) 225-3569 or the Subcommittee Minority Staff Director, Arthur 
Wu, at (202) 225-3527.

            Sincerely,

    Harry E. Mitchell
                                                       David P. Roe
    Chairman
                                          Ranking Republican Member

MH/tc
                               __________

                                   Boston University Medical Center
                                                         Boston, MA
                                                       July 1, 2009

Henry E. Mitchell, Chairman
David P. Roe, Ranking Republican Member
Subcommittee on Oversight and Investigations
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, D.C. 20515

Dear Congressmen Mitchell and Roe:

    I am happy to address the two questions that you have sent to me 
regarding the testimony that I prepared for the Subcommittee's meeting 
on Gulf War illness on May 19, 2009.

    Question 1. Of the 3,000 Army veterans interviewed at the Boston VA 
Medical Center in 1991, what was the location of their units and why 
did you and Dr. Wolf use this study as a baseline for comparison? Was 
there a difference in veteran examinations between services and/or 
specific locations? If so, explain.

    The veterans were interviewed at Ft. Devens in 1991, not at the VA. 
Subsequently they were interviewed at several points in time through 
phone or written questionnaires and a subset came to the VA for 
detailed examination in the mid-late 1990s.

    a. Unit locations and examination results: Troop locations varied 
by unit and time and are too numerous to list here. Effects of unit 
locations were evaluated using geographic Information System 
technology, with some locations being associated with more health 
symptoms (see Proctor SP et al., Spatial analysis 1991 Gulf War troop 
locations in relationship with postwar health symptom reports using GIS 
techniques; Transactions in GIS: 9, 381-396, 2005). Also, locations of 
certain units/individuals under the Khamisyah plume or outside of it 
were used to detect relationships between modeled exposure to sarin/
cyclosarin and brain imaging results (Heaton et al., Quantitative 
magnetic resonance brain imaging in U.S. Army veterans potentially 
exposed to sarin and cyclosarin, Neurotoxicology, 29: 761-769, 2007) 
and neuropsychological test results (Proctor et al., Effects of sarin 
and cyclosarin exposure during the 1991 Gulf War in neurobehavioral 
functioning in U.S. Army veterans, Neurotoxicology, 27: 931-939, 2006).

    b. Rationale for using Devens cohort as a baseline: Data were 
collected on health perceptions and PTSD immediately after the war at 
Ft. Devens before the soldiers returned home and they were sent 
questionnaires at various points in time. These data provided us with a 
way to characterize individuals as being high or low in health symptoms 
and with regard to other characteristics so that we could choose a 
sample to recruit for detailed examinations at the VA.

    c. Differences between services in examination results: Our 
examinations were completed only on Army veterans and a control group 
of National Guard veterans who were deployed only as far as Maine, so 
we cannot make direct comparisons to results on our examination for 
troops from other services who were deployed to the Gulf. It is my 
understanding that there are some service differences, possibly related 
to location in the Gulf and types of exposures experienced there.

    Question 2. In cognitive test performances based on exposure to 
pyridostigmine bromide (PB Tablets) and pesticides, what was the 
percentage of veterans who were exposed compared to the number who were 
tested?

    a. Study Participants. This study compared 159 Gulf War veterans 
who were uniquely knowledgeable regarding types and usages of 
pesticides during the Gulf War because of their military occupational 
specialty (MOS) as either pesticide applicators or preventative 
medicine personnel. This study included physicians, entomologists, 
environmental science officers, preventive medicine specialists, field 
sanitation team members, military police, and other pest controllers. 
The study was designed to assess cognitive functioning in a group of 
Gulf War veterans with known exposures to pesticides and pyridostigmine 
bromide (PB) during the war therefore, they were more likely to be 
exposed to pesticides than the general military personnel during the 
Gulf War (http://www1.va.gov/rac-gwvi/docs/Minutes_Nov2008_ 
Appendix_Presentation1.pdf).

    b. Exposure groups. Gulf War veterans in this study were 
categorized as high or low exposed to pesticides and pyridostigmine 
bromide (PB) based on total number of PB tablets and by frequency of 
pesticide usage and exposure thus allowing for 4 exposure groups as 
described below:

        Group 1--low pesticide/low PB = 15%
        Group 2--high pesticide/low PB = 31%
        Group 3--low pesticide/high PB = 11%
        Group 4--high pesticide/high PB = 42%

    c. Estimates of pesticide overexposure in general military 
personnel during the Gulf War. The Department of Defense commissioned 
the Environmental Exposure Report--Pesticides and reported their 
results in March 2001 (http://www.gulflink.osd.mil/pesto/
pest_exec_summary.htm). This report concluded that 42,000 general 
military personnel could have been over-exposed to pesticides during 
the Gulf War based on a health risk assessment and calculated dose-
estimates.
    More information regarding pesticide exposure estimates in the 
general military personnel during the Gulf War were also reported by 
the RAND Corporation. (http://www.gulflink.osd.mil/library/randrep/
pesticides_survey/) (http://www.gulflink.osd. mil/library/randrep/
pesticides_paper/).
    Thank you for your interest in our work and please let me know if I 
can provide any additional information.

            Sincerely,

                                   Roberta F. White, Ph.D., ABPP/cn
                                        Associate Dean for Research
            Professor and Chair, Department of Environmental Health
                          Boston University School of Public Health

          Kimberly A. Sullivan, Ph.D. (Question 2--pesticide study)
                                       Research Assistant Professor
                                 Department of Environmental Health
                          Boston University School of Public Health

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
